<html>
<title> - LEGISLATIVE HEARING ON H.R. 1146, TO AMEND PUBLIC LAW 115-97 (COMMONLY KNOWN AS THE TAX CUTS AND JOBS ACT) TO REPEAL THE ARCTIC NATIONAL WILDLIFE REFUGE OIL AND GAS PROGRAM, AND FOR OTHER PURPOSES, ``ARCTIC CULTURAL AND COASTAL PLAIN PROTECTION ACT''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    H.R. 1146, ``ARCTIC CULTURAL AND COASTAL PLAIN PROTECTION ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, March 26, 2019

                               __________

                            Serial No. 116-9

                               __________

       Printed for the use of the Committee on Natural Resources
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-816 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8c8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>                     
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                
                              ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      ALAN S. LOWENTHAL, CA, Chair
              PAUL A. GOSAR, AZ, Ranking Republican Member

Mike Levin, CA                       Doug Lamborn, CO
Joe Cunningham, SC                   Bruce Westerman, AR
A. Donald McEachin, VA               Garret Graves, LA
Diana DeGette, CO                    Liz Cheney, WY
Anthony G. Brown, MD                 Kevin Hern, OK
Jared Huffman, CA                    Rob Bishop, UT, ex officio
Matt Cartwright, PA
Raul M. Grijalva, AZ, ex officio

                              ----------                               
                                
                                
                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 26, 2019..........................     1

Statement of Members:
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     4
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Alexander, Sam, Gwich'in Leader, Gwich'in Steering Committee, 
      Fairbanks, Alaska..........................................    25
        Prepared statement of....................................    27
    Amstrup, Steven C., Chief Scientist, Polar Bears 
      International, Bozeman, Montana............................    48
        Prepared statement of....................................    49
    Brown, Chad, Founder, Soul River, Incorporated, Portland, 
      Oregon.....................................................    59
        Prepared statement of....................................    60
    Demientieff, Bernadette, Executive Director, Gwich'in 
      Steering Committee, Fairbanks, Alaska......................     6
        Prepared statement of....................................     7
    Gilbert, Hon. Galen, Chief, Arctic Village Council, Arctic 
      Village, Alaska............................................    11
        Prepared statement of....................................    13
    Glenn, Richard, Executive Vice President, External Affairs, 
      Arctic Slope Regional Corporation, Barrow, Alaska..........    63
        Prepared statement of....................................    64
        Supplemental testimony submitted for the record..........    67
        Questions submitted for the record.......................    71
    Joseph, Hon. Victor, Chief/Chairman, Tanana Chiefs 
      Conference, Fairbanks, Alaska..............................    19
        Prepared statement of....................................    21
    Lattime, Mark, Right Reverend, Bishop of Alaska, The 
      Episcopal Church, Fairbanks, Alaska........................    43
        Prepared statement of....................................    45
    Rexford, Fenton, Advisor to the Mayor of the North Slope 
      Borough; Tribal Member, Native Village of Kaktovik, 
      Kaktovik, Alaska...........................................    28
        Prepared statement of....................................    30
    Rexford, Matthew, Tribal Administrator, Native Village of 
      Kaktovik, Kaktovik, Alaska.................................    72
        Prepared statement of....................................    74
        Supplemental testimony submitted for the record..........    82
    Tizya-Tramm, Hon. Dana, Chief, Vuntut Gwitchin First Nation, 
      Fairbanks, Alaska..........................................    17
        Prepared statement of....................................    18

Additional Materials Submitted for the Record:

    Gwich'in Nation, Letter dated 4/8/19 to Chairman Lowenthal...   101

    List of documents submitted for the record retained in the 
      Committee's official files.................................   105

    Smith, Allen T., Olympia, Washington, testimony submitted for 
      the record.................................................   102

    Submissions for the Record by Representative Gosar

        Slides presented during the hearing......................   100

    Submissions for the Record by Representative Huffman

        Slide presented during the hearing.......................    98

        Friends of Animals, testimony submitted for the record...    99

    Submissions for the Record by Representative Westerman

        Slides presented during the hearing......................    91
                                     


 
LEGISLATIVE HEARING ON H.R. 1146, TO AMEND PUBLIC LAW 115-97 (COMMONLY 
   KNOWN AS THE TAX CUTS AND JOBS ACT) TO REPEAL THE ARCTIC NATIONAL 
 WILDLIFE REFUGE OIL AND GAS PROGRAM, AND FOR OTHER PURPOSES, ``ARCTIC 
              CULTURAL AND COASTAL PLAIN PROTECTION ACT''

                              ----------                              


                        Tuesday, March 26, 2019

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 1324, Longworth House Office Building, Hon. Alan Lowenthal 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lowenthal, Levin, Cunningham, 
DeGette, Huffman; Gosar, Lamborn, Westerman, and Hern.
    Also present: Representative Young.
    Dr. Lowenthal. The Subcommittee on Energy and Mineral 
Resources will come to order.
    First, I want to welcome all the guests and all of our 
panelists for coming. I appreciate that.
    We are meeting today to hear the testimony on the prospect 
of oil and gas development in the Arctic National Wildlife 
Refuge, and on H.R. 1146, Mr. Huffman's Arctic Cultural and 
Coastal Plain Protection Act. And I am proud to be 1 of the 115 
co-sponsors of that legislation.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member, or their designees.
    I am going to ask unanimous consent that all other Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Subcommittee Clerk by 5 p.m. today.
    Hearing no objection, so ordered.

   STATEMENT OF HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. As I mentioned just at the beginning, I 
would like to welcome all of our witnesses, particularly those 
from Alaska and from the Yukon, who have traveled a great 
distance to be here so their voices could be heard at this 
hearing today.
    The question about how to approach the Coastal Plain of the 
Arctic National Wildlife Refuge has been going on for decades.
    For the oil and gas industry, it is a promising cash cow, 
with billions of dollars of oil awaiting to be sold. But for 
others, such as myself and the majority of Americans, it is a 
fragile ecosystem with exceptional wilderness values that is 
considered the biological heart of the Arctic Refuge, a place 
that the Fish and Wildlife Service has said is, and I quote, 
``the most biologically productive part of the Arctic Refuge 
for wildlife, home to polar bears, caribou, hundreds of species 
of migratory birds, and countless other species.''
    And for the Gwich'in people, it is simply sacrosanct. They 
call it, ``the sacred place where life begins.'' A number of 
their leaders are here today to tell us more about the 
importance of the Coastal Plain to their history and to their 
way of life.
    I think we should all be able to agree that decisions about 
the future of the Arctic Refuge should be made thoughtfully, 
carefully, and with an understanding that this is a one-way 
street.
    Oil and gas development, particularly on the tundra in the 
Arctic, is irreversible. We only need to look at the 
development to the west of the Coastal Plain to see the 
incredible impact--or rather, impacts, not just impact--that 
are caused by oil and gas development, where exploration from 
the 1980s left scars that can still be seen today. The impacts 
of any new development in the area will be there for millennia.
    Because of the exceptional character of the area and its 
importance to Alaska Natives and Canadian First Nations, it was 
protected by bipartisan efforts for decades. But the way the 
Coastal Plain was forced open in the 2017 tax bill was not 
thoughtful. In fact, it was barely even thought about.
    This unrelated provision stuck into a tax cut for 
billionaires on the questionable rationale that it would help 
offset the cost. But, in fact, the only way congressional 
Republicans have tried to pay for their tax bills at all is 
through this.
    But destroying a wilderness to get a $1 billion offset to a 
$1.5 trillion tax bill is clearly not about fiscal 
responsibility. It was simply about getting this through the 
Senate with only 50 votes, with no vote on protecting the 
Refuge allowed on the House Floor, no debate at all, as a 
matter of fact.
    And all this time, we have never heard the proponents of 
drilling on the Arctic Refuge explain why now. Even the oil and 
gas industry and conservatives--conservatives who are members 
of think tanks--did not call for opening the Refuge in their 
energy recommendations to the incoming Trump administration.
    Let's be clear. We are producing record levels of oil in 
this country. The biggest problem for the oil and gas industry 
is not trying to find enough places to drill. It is getting 
enough pipelines and dock space to be able to export even more 
than the 3 million barrels a day that we are currently shipping 
overseas.
    An economic analysis for the Attorneys General of 15 states 
and the District of Columbia found that any oil produced from 
the Coastal Plain would not be used in the United States. 
Rather, it would be sold onto international markets. So, we 
should destroy a great American wilderness that is sacred to 
indigenous peoples so that ConocoPhillips or BP or ExxonMobil 
can sell more oil to China, India, and Japan?
    There is absolutely no need to open the Arctic Refuge to 
oil and gas drilling.
    But it is as if the congressional Republicans were so out 
of new energy ideas, they had no choice but to recycle theirs 
from 15 years ago, whether it makes sense now or not. I will 
tell you that it doesn't make sense, and we should protect the 
Arctic Refuge Coastal Plain, and not hand it over to the 
highest corporate bidder.

    [The prepared statement of Mr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, Chair, Subcommittee 
                    on Energy and Mineral Resources
    The Subcommittee on Energy and Mineral Resources will come to 
order. The Subcommittee is meeting today to hear testimony on the 
prospect of oil and gas development in the Arctic National Wildlife 
Refuge, and on H.R. 1146, Mr. Huffman's Arctic Cultural and Coastal 
Plain Protection Act--and I am proud to be 1 of the 115 co-sponsors of 
that legislation.
    I would first like to welcome all of our witnesses, particularly 
those from Alaska and the Yukon, who have traveled a great distance to 
be here so that their voices could be heard at this hearing today.
    The question about how to approach the Coastal Plain of the Arctic 
National Wildlife Refuge has been going on for decades. For the oil and 
gas industry, it is a promising cash cow, with billions of dollars of 
oil just waiting to be sold. But for others, such as myself and the 
majority of Americans, it is a fragile ecosystem with exceptional 
wilderness values that is considered the biological heart of the Arctic 
Refuge--a place that the Fish and Wildlife Service has said is, ``the 
most biologically productive part of the Arctic Refuge for wildlife, 
home to polar bears, caribou, hundreds of species of migratory birds, 
and countless other species.''
    And for the Gwich'in people, it is simply sacrosanct. They call it 
``the sacred place where life begins.'' A number of their leaders are 
here today to tell us more about the importance of the Coastal Plain to 
their history and their way of life.
    I think we should all be able to agree that decisions about the 
future of the Arctic Refuge should be made thoughtfully, carefully, and 
with an understanding that this is a one-way street.
    Oil and gas development, particularly on the tundra in the Arctic, 
is irreversible. We only need to look at the development to the west of 
the Coastal Plain to see the incredible impacts that are caused by oil 
and gas development, where exploration from the 1980s left scars that 
can still be seen today. The impacts of any new development in the area 
would be there for millennia.
    Because of the exceptional character of the area and its importance 
to Alaska Natives and Canadian First Nations, it was protected by bi-
partisan efforts for decades. But the way the Coastal Plain was forced 
open in the 2017 tax bill was not thoughtful. In fact, it was barely 
even thought of. This unrelated provision stuck onto a tax cut for 
billionaires on the questionable rationale that it would help offset 
the cost. In fact, it's the only way congressional Republicans tried to 
pay for their tax bill at all. But destroying a wilderness to get a $1 
billion offset to a $1.5 trillion tax bill is clearly not about fiscal 
responsibility.
    It was simply about getting this through the Senate with only 50 
votes. With no vote on protecting the Refuge allowed on the House 
Floor. No debate allowed at all, as a matter of fact.
    And all this time we have never heard the proponents of drilling on 
the Arctic Refuge explain: why now? Even the oil and gas industry and 
conservative think tanks didn't call for opening the Refuge in their 
energy recommendations to the incoming Trump administration.
    We're producing record levels of oil in this country. The biggest 
problem for the oil and gas industry isn't trying to find enough places 
to drill. It's getting enough pipelines and dock space to be able to 
export even more than the 3 million barrels a day that we are currently 
shipping overseas.
    An economic analysis done for the Attorneys General of 15 states 
and the District of Columbia found that any oil produced from the 
Coastal Plain would not be used in the United States. Rather, it would 
be sold into international markets.
    So, we should destroy a great American wilderness that is sacred to 
indigenous peoples so that ConocoPhillips or BP or ExxonMobil can sell 
more oil to China, India, and Japan?
    There is absolutely no need to open the Arctic Refuge to oil and 
gas drilling.
    It's as if congressional Republicans were so out of new energy 
ideas, they had no choice but to recycle theirs from 15 years ago, 
whether it made sense now or not. I will tell you that it doesn't make 
sense, and we should protect the Arctic Refuge Coastal Plain, not hand 
it over to the highest corporate bidder.
    With that, I look forward to the testimony from our witnesses, and 
I now recognize Ranking Member Gosar for his opening statement.

                                 ______
                                 

    Dr. Lowenthal. With that, I look forward to the testimony 
from our witnesses, and now I recognize Ranking Member Gosar 
for his opening statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. I thank you for yielding, Mr. Chairman, and 
thank all of you that have traveled so far to be here today, 
especially those who have traveled all the way from the Alaskan 
North Slope. I, myself, have been to the North Slope, so I 
understand the distance, and appreciate you taking the time to 
share your perspective on an important topic.
    Today, this Subcommittee will consider a bill sponsored by 
my colleague, Representative Jared Huffman, known as the Arctic 
Cultural and Coastal Plain Protection Act. This legislation 
would eliminate provisions in the Tax Cuts and Jobs Act of 2017 
authorizing energy development in the 1002 Area of the Arctic 
National Wildlife Refuge.
    Alaska's North Slope contains an abundant supply of oil and 
natural gas, and has long provided Alaska and the Lower 48 
states with affordable, domestically sourced energy. In 
addition to providing billions in revenues for schools and 
infrastructure and other public services, the oil and gas 
industry in Alaska serves as a significant source of 
employment, supporting nearly one-third of the jobs in the 
state.
    Nevertheless, the previous administration did everything in 
its power to make sure that much of the North Slope remained 
untapped, including the national petroleum and the energy-rich 
region of the Arctic National Wildlife Refuge known as the 1002 
Area.
    Recognizing the potential for job creation, revenue 
generation, and increased domestic energy production, the 115th 
Congress acted with support of the current administration to 
open this small corner of the Refuge for any energy exploration 
after decades of study and debate.
    When Congress established the Refuge in 1980 it recognized 
the potential for oil and gas development in the 1002 Area, 
also known as the Coastal Plain. This region, which spans just 
1.57 million acres of the 19 million-acre Refuge, was 
specifically set aside by Congress for an assessment of its 
recoverable resources.
    The Reagan administration noted the region's capacity for 
robust production, and recommended full energy development of 
the 1002 Area, noting the need to balance this new development 
with access to the Refuge for subsistence and recreational 
purposes. Congress limited surface development impacts to 2,000 
acres. That is roughly one-fifth the size of the Dulles 
Airport.
    Once operational, energy production in ANWR is estimated to 
support between 55,000 and 130,000 jobs over the life of 
production, and have the impact of $1.1 billion from lease 
sales over the next decade.
    I would like to point out that not one part of the Coastal 
Plain region of ANWR contains wilderness. In fact, the region 
has been continuously occupied by the Inupiat people for 
millennia. The Native Village of Kaktovik is located within the 
Coastal Plain, and is the closest neighboring community to any 
potential oil and gas development in the region.
    Notably, Mr. Huffman's legislation before us today makes no 
mention--not one--of the Village of Kaktovik or the Inupiat 
people. That is why we, Committee Republicans, have invited 
witnesses representing the Village of Kaktovik and the Inupiat 
communities on the North Slope to testify before us today. They 
own the land, they live and work in the Coastal Plain, and they 
are directly impacted by decisions made by Congress regarding 
the use of their land. Their voices are crucial to this 
conversation, and I look forward to hearing their testimony 
today.
    With that, I am going to yield the rest of my time to the 
gentleman from Alaska, Mr. Young.

    Mr. Young. Thank you for yielding. And Mr. Chairman, I will 
copy the words of Mr. Gosar, because it was not a wilderness, 
it has never been a wilderness, and it was set aside by a 
Congress led by Mo Udall and John Seiberling, the leading 
environmentalists for drilling, when the Congress decided to do 
so, and then Congress decided it. I passed it out of the House 
13 times. It is the right thing to do.
    And I will tell you, Mr. Chairman, I want to believe the 
people. Not the Gwich'in, because they are not the people. They 
are 400 miles away. I am talking of the Inuits that live there. 
That is their land, it has always been their land. And to 
totally ignore them in any mention of their occupancy is wrong 
in this report, and including in your written statement. It is 
wrong.
    These are the Alaskan Natives directly impacted, not the 
Gwich'in, and that is my tribe. My wife was Gwich'in, my 
daughters are Gwich'in. We have a few Gwich'in that make a 
living out of this, by promoting something that is wrong, by 
saying we want to take away from their brothers. That is wrong.
    You have divided two tribes, two tribes. This isn't the 
people that live there. If not, you are not representative of 
all.
    That is all I ask you to do. Listen to them. Hear what they 
say. Not someone who is living in Fairbanks. It is not someone 
that has not killed a caribou in 10 years and probably doesn't 
have a license. That is wrong. Think about that when you say we 
want to save the culture. Save the culture of the people, not 
those that are foreigners, who are living away from the area. 
These are not the Natives directly affected.
    With that, I yield back.
    Dr. Gosar. I thank the gentleman. And I just want to say 
that when you visit and see, you understand so much. And I want 
to thank the gentleman from Alaska for inviting us up 2 years 
ago. It was a fabulous trip, eye-opening.
    I yield back.
    Dr. Lowenthal. I will introduce today's witnesses.
    First we have Ms. Bernadette Demientieff, Executive 
Director of the Gwich'in Steering Committee.
    Next is Chief Galen Gilbert, from the Arctic Village 
Council in Arctic Village, Alaska.
    Then Chief Dana Tizya-Tramm--I hope I pronounced it right--
from the Vuntut Gwitchin First Nation in Old Crow from Yukon, 
Canada.
    Next is Chief Victor Joseph, Chairman of the Tanana, and he 
is also the Chairman of the Tanana Chiefs Conference.
    Then there is Mr. Sam Alexander, a Gwich'in leader and 
veteran.
    And finally, Mr. Fenton Rexford, advisor to the Mayor of 
the North Slope Borough, and a tribal member of the Native 
Village of Kaktovik.
    Let me remind the witnesses that they must limit their oral 
statements to 5 minutes, but their entire written statements 
will appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light will come on. Your 
time will have expired when the red light comes on, and I will 
ask you to please complete your statement.
    I will also allow the entire panel to testify before 
questioning the witnesses.
    The Chair now recognizes Ms. Demientieff for 5 minutes.

   STATEMENT OF BERNADETTE DEMIENTIEFF, EXECUTIVE DIRECTOR, 
         GWICH'IN STEERING COMMITTEE, FAIRBANKS, ALASKA

    Ms. Demientieff. Thank you to the members of the Committee 
for having me testify today. I would like to acknowledge the 
Piscataway Tribe, whose lands we are on.
    Shrooshii Bernadette Demientieff oozhii [speaking Native 
language]. I am Bernadette Demientieff, the Executive Director 
for the Gwich'in Steering Committee. I am Gwich'yaa Gwich'in 
and a member of the Gwichyaa Zhee Gwich'in Tribal Government 
from Fort Yukon, Alaska. I am a mother of five and a 
grandmother of five. On behalf of the Gwich'in Nation, I am 
speaking today in support of H.R. 1146.
    Founded in 1988, the Gwich'in Steering Committee is the 
unified voice of the Gwich'in speaking out to protect the 
calving grounds of the Porcupine caribou herd. We represent 
8,000 Gwich'in in 15 communities of Alaska and Canada. The 
Coastal Plain of the Arctic Refuge is the calving grounds of 
the Porcupine caribou herd.
    Protection of the calving and nursery grounds on the 
Coastal Plain is a human rights issue for the Gwich'in Nation. 
Our human rights are protected by international law, which says 
``by no means shall a people be deprived of their own means of 
subsistence.''
    Oil and gas activities on the Coastal Plain is a direct 
attack on the Gwich'in way of life, and our human rights.
    We call the Coastal Plain ``Iizhik Gwats'an Gwandaii 
Goodlit,''--the Sacred Place Where Life Begins. This name shows 
the great significance of this area to the Gwich'in people. We 
are caribou people. We carry a piece of the caribou in our 
heart, and the caribou carry a piece of us in their heart. And 
there was a time when we were able to communicate with the 
caribou. There was a vow that we would take care of each other. 
To honor this, we have been taught that we must take care of 
the caribou. And in return, they will take care of us. The 
spiritual connection we have with the caribou is very much 
real. The survival of the Gwich'in depends on the survival of 
this herd.
    The caribou are the foundation of our culture and our 
spirituality. They provide food, clothing, and tools. They are 
the basis of our songs, stories, and our dances. The ancestral 
homeland of the Gwich'in and the migratory route of the 
Porcupine caribou herd are identical. For thousands of years we 
migrated with the caribou. We settled along the migratory road 
so that we could continue to live and thrive off of them. This 
area is sacred to our people, so sacred that during the years 
of food shortage we still honored the calving grounds and never 
stepped foot on the Coastal Plain.
    Our elders recognized that oil development in the Porcupine 
caribou herd's calving grounds was a threat to the Gwich'in 
people. In 1988, for the first time in over 100 years, our 
elders and chiefs gathered. They directed us to protect the 
calving grounds, which is known to you as the Arctic National 
Wildlife Refuge Coastal Plain.
    Our elders directed us to do this in a good way. That means 
to work respectfully, but not to compromise our position. And 
every 2 years we come together to reaffirm our commitment to 
protect the calving grounds from oil and gas development. 
Protecting the Coastal Plain is protecting our identity and our 
human rights. It is our fundamental human right to continue to 
feed our families on our ancestral lands, and to practice our 
traditional way of life.
    For us, this is a matter of physical, spiritual, and 
cultural survival. This is all interconnected. I am here today 
for my children, my grandchildren, and my future ancestors. It 
is their human right to have caribou. It is their human right 
to keep their identity. The Porcupine caribou herd is the heart 
of our people, our food security, and our way of life. We are 
not asking for anything but to keep our identity and practice 
our way of life.
    Our elder, Jonathon Solomon said, ``It is the belief that 
the future of the caribou and the future of the Gwich'in are 
the same. Harm to the Porcupine caribou herd is harm to the 
Gwich'in culture and millennia-old way of life.''
    I ask that you quickly pass this legislation to protect the 
human rights and our way of life.
    On behalf of the Gwich'in Nation I say thank you very much 
for having us. Mahsi'choo.

    [The prepared statement of Ms. Demientieff follows:]
   Prepared Statement of Bernadette Demientieff, Executive Director, 
             Gwich'in Steering Committee, Fairbanks, Alaska
    Chairman Lowenthal, Ranking Member Gosar, members of the 
Subcommittee, thank you for the opportunity to speak to you today on 
this very important piece of legislation, the Arctic Cultural and 
Coastal Plain Protection Act, H.R. 1146.
    Shrooshii Bernadette Demientieff oozhii, I am the Executive 
Director of the Gwich'in Steering Committee. I am Gwich'yaa Gwich'in 
and a member of the Gwichyaa Zhee Gwich'in Tribal Government from Fort 
Yukon, Alaska. My mother is Betty Flitt from Fort Yukon. My great 
grandmother was Marcis (Horace) Moses from Old Crow, Yukon Territories, 
Canada, and my grandfather was Daniel Horace from Fort Yukon. I have 
five children and five grandchildren. I am here at the direction of my 
elders on behalf of the Gwich'in Nation of Alaska and Canada.
    Founded in 1988, the Gwich'in Steering Committee is the unified 
voice of the Gwich'in Nation speaking out to protect the Coastal Plain 
of the Arctic National Wildlife Refuge. We represent the communities of 
Arctic Village, Venetie, Fort Yukon, Beaver, Chalkyitsik, Birch Creek, 
Stevens Village, Circle, and Eagle Village in Alaska, and Old Crow, 
Fort McPherson, Tsiigehtchic, Aklavik, and Inuvik in Canada. Our work 
is to protect the Coastal Plain from any disturbance or destruction.
    Protection of the birthing and nursery grounds on the Coastal Plain 
is a human rights issue for the Gwich'in Nation. Our human right is 
upheld by the U.N. Declaration on the Rights of Indigenous Peoples and 
its International Covenant on Civil and Political Rights, which states, 
``by no means shall a people be deprived of their own means of 
subsistence.'' This principle must be respected. We rely on the 
Porcupine Caribou and the Porcupine Caribou rely on the Coastal Plain 
as their calving and nursery grounds. Oil and gas activities on the 
Coastal Plain is a direct attack on our ways of life and to our human 
rights.
    We call the Coastal Plain ``Iizhik Gwats'an Gwandaii Goodlit''--
``the Sacred Place Where Life Begins.'' This name demonstrates the 
great significance of this area to the Gwich'in people. We are caribou 
people. We believe that we each have a piece of caribou in our heart 
and the caribou have a piece of us in their heart. There was a time 
when we were able to communicate with the caribou and there was a vow 
that we would take care of each other. To honor this, we have been 
taught that we must take care of the caribou and that, in turn, the 
caribou will take care of us. This spiritual connection we have with 
the caribou is very real. The survival of the Gwich'in depends on the 
survival of this herd.
    The caribou are the foundation of our culture and our 
spirituality--they provide food, clothing, and tools, and are the basis 
of our songs, stories, and dances. The ancestral homeland of the 
Gwich'in and the migratory route of the caribou are identical (see 
Attachment 1). For thousands of years, we migrated with the caribou. 
When we were forced to settle in villages, we settled along the 
migratory route. If you look at the map attached to this statement, you 
will notice that one place that the caribou go that we do not is the 
Coastal Plain. This area is sacred to our people, so sacred that during 
the years of food shortage we still honored the calving grounds and 
never stepped foot on the Coastal Plain.
    The Coastal Plain of the Arctic Refuge is very important to the 
caribou. Drilling there would cause lower birth rates and threaten 
migrations, risking everything we hold dear. Pregnant females come to 
the Coastal Plain to give birth in May and early June. They have up to 
40,000 calves in a 2-week period. The food on the Coastal Plain helps 
the mothers recover from birth and provides rich milk and nutrition for 
the new calves. Mosquitos can kill a newborn calf. The breezes on the 
Coastal Plain protect the calves from being attacked. The Coastal Plain 
also has fewer predators than areas to the south. A calf that is only a 
few days old can run faster than a wolf, but there would be a 
significant risk to the caribou if they had to leave the Coastal Plain 
to have their calves and raise them in other areas where there are more 
predators.
    Our elders recognized that oil development in the Porcupine Caribou 
Herd's calving and nursery grounds was a threat to the Gwich'in people. 
That is why, in 1988, our Nation came together for the first time in 
over a hundred years. Our elders called together the chiefs of all of 
the Gwich'in villages for a traditional gathering. We gathered in 
Vashraii K'oo and decided that we would speak with one voice to protect 
the Coastal Plain. That unified voice is expressed in a formal 
resolution, Gwich'in Niintsyaa (see Attachment 2). This resolution 
calls on the United States to recognize the rights of the Gwich'in to 
continue our way of life and permanently protect the calving grounds of 
the Porcupine Caribou Herd. We come together every 2 years to reaffirm 
our commitment to protecting the Coastal Plain. We convened last summer 
in Tsiigehtchic, Northwest Territories, Canada. We sang, we danced, we 
shared food and stories. During the Gathering, our Nation voted 
unanimously to reaffirm our commitment to protecting the calving 
grounds.
    Our elders directed us to ``do it in a good way.'' Following their 
guidance, the Gwich'in Steering Committee has worked for over three 
decades to protect this sacred place so that our people have a future 
in our homelands. Protecting the Coastal Plain is protecting our 
identity and our human rights. It is our fundamental human right to 
continue to feed our families on our ancestral lands and practice our 
traditional way of life. For us, this is a matter of physical, 
spiritual, and cultural survival.
    For me, this issue has also brought me back to my identity and my 
heritage. While I am from Fort Yukon, and spent many summers in 
Venetie, I lost my way as a teenager and young woman. I moved 
spiritually and culturally away from my people and what was important. 
Only when I began to work at the Gwich'in Steering Committee, did I 
return to my rightful place. I remember one trip to Arctic Village I 
went up to a mountain called Duchanlee. I felt so overwhelmed, I just 
started crying. I don't know why. I asked Creator for forgiveness and 
said that I am here now to share in my responsibility as a Gwich'in.
    I don't choose to travel thousands of miles each year and spend 
time away from my family; I was forced into a corner. I am forced to 
advocate for protecting the calving grounds of the Porcupine Caribou 
Herd. I do this work for my children and my grandchildren; it is their 
birthright to have caribou. I do this work because it is my 
responsibility as a Gwich'in; our pact with the Porcupine Caribou 
requires me to take care of them as they have taken care of us.
    We have occupied these areas for thousands and thousands of years, 
and we will be the first to be impacted if oil and gas activities 
occur. Our elders are our scientists. They have hunted and lived off 
the land far longer than any western researcher. Our science and our 
traditional knowledge tells us that oil and gas leasing, exploration, 
and development will damage the calving grounds. It will impact the 
quality, health, and availability of our traditional resources, like 
caribou and birds. We know that oil and gas activities will also impact 
the air, water, and lands. We have watched as other areas on the North 
Slope dramatically changed because of industrial development. These 
changes continue to become more widespread and intense with every 
passing year, as development expands. Places that used to support 
indigenous communities and ways of life no longer do. Animals are 
showing signs of sickness, and are not following their traditional 
migratory paths. We are seeing great changes in our land and animals as 
a result of climate change, which is impacting Alaska more intensely 
than the Lower-48.
    We must protect the Coastal Plain to protect our food security. 
``Gwich'in'' means ``people of the land.'' We are real people. We have 
jobs, families and children. We live off the land. We eat moose, fish, 
birds, berries, medicines, and of course, caribou. Western food is very 
expensive in our villages and it is not healthy for us to eat. When we 
do not have our traditional foods, our people get sick. When we cannot 
share foods within communities and between our communities, our culture 
suffers. When we cannot practice our traditional ways, our youth cannot 
learn their heritage.
    People have said that you can have development on the Coastal Plain 
and take care of the plants and animals. People have said that you can 
have development on the Coastal Plain and the caribou will not be 
impacted, that they will even like the pipelines and roads. People tell 
us that the technology is so good now that there will be no harm to 
land, air, and water. But as Gwich'in, we know that is not true. And it 
is not a risk we can afford to take. Because if you take that risk and 
are wrong, we are what is lost--the Gwich'in people.
    I am here today because our congressional delegation has not 
listened to us or respected our human rights. The Coastal Plain is not 
just a piece of land with oil underneath. It is the heart of our 
people, our food, and our way of life. Our very survival depends on its 
protection. Our children, our future generations, deserve to see the 
world the way it was in the beginning, not just when we are done with 
it.
    I am here today because the process that the Bureau of Land 
Management is taking to hold a lease sale this year is trampling our 
human rights. The agency is not respecting our knowledge, is not 
responding to our requests, and is not meeting its obligations under 
the law. Instead, the agency is rushing to lease the calving grounds 
without regard to the risk it poses to us and our villages.
    I want to publicly state that the Native corporations do not speak 
for us. They are the ones who will benefit from development while the 
tribes live with the aftermath. Our elders taught us to respect and 
honor our lands. They did not encourage us to fight each other for oil 
and gas development; that is just self greed.
    We are not asking for anything more than the ability to hold on to 
our identity; to be able to practice our way of life, which has 
sustained us since time immemorial; to be able to pass our traditions 
on to our children and to their children; and to continue to live and 
thrive in our homelands. That is what is at stake for the Gwich'in 
people.
    That is why the Arctic Cultural and Coastal Plain Protection Act is 
so important. As our elder Jonathon Solomon said ``It is our belief 
that the future of the Gwich'in and the future of the Caribou are the 
same. Harm to the Porcupine Caribou Herd is harm to the Gwich'in 
culture and millennia-old way of life.''
    We thank the millions of Americans who stand with us in support of 
protecting the Coastal Plain. We thank the more than 200 Alaska Native 
and Tribal organizations and the many Native American tribes who have 
resolutions supporting the Gwich'in. We thank every Member of Congress 
who is standing in solidarity with the Gwich'in Nation by co-sponsoring 
the bill.
    I ask that you quickly pass this legislation to protect our human 
rights and our way of life. Mahsi'choo for the opportunity to address 
you today.

                                 *****

                              ATTACHMENT 1
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 *****

                              ATTACHMENT 2

                        Gwich'in Niintsyaa 2018
                Resolution to Protect the Birthplace and
             Nursery Grounds of the Porcupine Caribou Herd

WHEREAS:

    For thousands of years, the Gwich'in people of northeast Alaska and 
northwest Canada, have relied on caribou for food, clothing, shelter, 
tools and life itself, and today the Porcupine Caribou Herd remains 
essential to meet the nutritional, cultural and spiritual needs of our 
People; and

WHEREAS:

    The Gwich'in have the inherent right to continue our own way of 
life; and that this right is recognized and affirmed by civilized 
nations in the international covenants on human rights. Article 1 of 
the International Covenant of Civil and Political Rights, ratified by 
the U.S. Senate, reads in part:

        ``. . . In no case may a people be deprived of their own means 
        of subsistence''; and

WHEREAS:

    The health and productivity of the Porcupine Caribou Herd, and 
their availability to Gwich'in communities, and the very future of our 
People is endangered by proposed oil and gas exploration and 
development in the calving and post-calving grounds in the Arctic 
National Wildlife Refuge; and
WHEREAS:

    The entire Gwich'in Nation was called together by our Chiefs in 
Arctic Village June 5-10, 1988 to carefully address this issue and to 
seek the advice of our elders; and

WHEREAS:

    The Gwich'in people of every community from Arctic Village, 
Venetie, Fort Yukon, Beaver, Chalkyitsik, Birch Creek, Stevens Village, 
Circle, and Eagle Village in Alaska; from Old Crow, Fort McPherson, 
Tsiigehtchic, Aklavik, and Inuvik in Canada have reached consensus in 
their traditional way, and now speak with a single voice; and

WHEREAS:

    The Gwich'in people and Chiefs of our communities have met 
biennially since 1988 to re-affirm this position guided by the wisdom 
of our elders; and met again in 2018 in Tsiigehtchic, Northwest 
Territories, Canada, now re-affirm our position.

NOW THEREFORE BE IT RESOLVED:

    That the United States President and Congress recognize the rights 
of the Gwich'in people to continue to live our way of life by 
prohibiting exploration and development in the calving and post-calving 
grounds of the Porcupine Caribou Herd; and

BE IT FURTHER RESOLVED:

    That the 1002 area of the Arctic National Wildlife Refuge be made 
Wilderness to protect the sacred birthplace of the caribou.

Passed unanimously on the 26th day of June, 2018 in Tsiigehtchic, 
Northwest Territories, Canada.

                                 *****

Additional Materials: A Moral Choice for the United States: The Human 
Rights Implications for the Gwich'in of Drilling in the Arctic National 
Wildlife Refuge (2005), available at http: / / ourarcticrefuge.org / 
wp-content / uploads / 2012 / 10 / GSC humanrightsreport.pdf.

                                 ______
                                 

    Dr. Lowenthal. Thank you very much.
    The Chair now recognizes Chief Gilbert for 5 minutes.

  STATEMENT OF THE HON. GALEN GILBERT, CHIEF, ARCTIC VILLAGE 
                COUNCIL, ARCTIC VILLAGE, ALASKA

    Mr. Gilbert. Good afternoon. My name is Galen Gilbert, and 
I am the first Chief of Arctic Village. I am the son of Brenda 
and Gregory, the late Gregory Gilbert, and the grandson of 
Reverend Trimble and Mary Gilbert. I live in Arctic Village 
with my fiancee, Jessica, and our three daughters.
    Before I begin my full testimony, I would like to thank the 
Chair and the Committee for hosting us.
    The Neets'aii Gwich'in of Arctic Village and Venetie are 
part of a larger Gwich'in Nation, and we stand united on this 
issue. The Neets'aii have rejected both city governments and 
Native corporations. We are governed by our tribal governments 
and live on 1.8 million acres of land that our tribe owns. We 
opted out of the Alaska Native Claims Settlement Act because we 
wanted to continue being tribal and landowners. Our way of life 
is based on our relationship to the land. We must care for and 
respect the land and animals given to us by the Creator.
    Iizhik Gwats'an Gwandaii Goodlit is a sacred and important 
place. It has historic value as a place where Gwich'in have 
traveled, camped, hunted, and traded since the beginning of 
time.
    Our cultural practices are important to maintaining our 
identity, and a big part of that is our connection with the 
caribou. Development in the Coastal Plain is a direct attack on 
our Gwich'in culture. Just the idea of development is causing 
stress and fear in my village.
    The caribou that calve on the Coastal Plain are the primary 
source of our tribal members' subsistence. They make it 
possible for us to live within our traditional homelands. 
Caribou are the backbone of the Gwich'in life and culture. They 
provide for the physical, cultural, and spiritual health of my 
tribe. We take care of the caribou because we need them.
    I live in Arctic Village and I speak on behalf of my 
people. Our way of life is dependent on the Porcupine caribou 
herd. It is more than providing food; the herd provides a basis 
for our identity. Our way of life provides positive, social, 
and emotional benefits that extend far beyond just putting food 
on the table.
    One of the most important values we have as the Neets'aii 
is when a young hunter harvests their first caribou, they then 
take that meat and share it with everyone in the community. 
This act passes on our values, and ensures good luck in their 
life as providers.
    Iizhik Gwats'an Gwandaii Goodlit is not only a place of 
birth. It is also a place of our peace. Our people have a story 
of my great-great-grandfather, Dajalti', who was a leader long 
ago. During the conflict between the Neets'aii and the Inupiat, 
Dajalti' led the Neets'aii north, over the Brooks Range, into 
the Coastal Plain. From there, he went to the coast alone to 
meet with the Inupiat. At their meeting, he met the Inupiat 
leaders and they made an end to the war. Our stories tell us 
this is the last time there was a conflict between the 
Neets'aii and the Inupiat.
    The Coastal Plain is the most important natural, cultural, 
and subsistence resources to our tribe and to the Gwich'in 
people, as a whole. It is not just a place on the map for our 
people. It is the foundation of our entire life. From it we 
have our caribou, our stories, and our identity. For our 
tribes, this is not just an issue of the conservation versus 
development. We just don't see it in that way. This is about 
our conservation versus our desire as Native people to live the 
way of life that we choose. We choose to settle where we did 
because we know that is where the caribou go. We established 
our reservation to ensure we would keep our land and culture.
    In closing, our identity, culture, and our way of life are 
at stake. Like our ancestors, we will never give up. We will 
never stop fighting to protect the Coastal Plain, the animals 
that depend on it, and the way of life. We speak for those that 
came before us and for those that will come after.
    Arctic Village fully supports H.R. 1146 and I urge the 
Committee to move this bill forward. We only ask for the right 
to live the way we have always lived as the Neets'aii Gwich'in. 
Mashhi'.

    [The prepared statement of Mr. Gilbert follows:]
 Prepared Statement of Chief Galen Gilbert, First Chief of the Arctic 
                Village Council, Arctic Village, Alaska
                              introduction
    My name is Galen Gilbert and I am the First Chief of the Arctic 
Village Council, a federally recognized tribe. I am the son of Brenda 
Gilbert and the late Gregory Gilbert and the grandson of Rev. Trimble 
and Mary Gilbert; Alan and the late Margaret Tritt of Arctic Village. I 
am 30 years old and have lived in Arctic Village all of my life. Arctic 
Village is one of two Neets'aii Gwich'in villages located on the former 
Venetie Indian Reserve, a 1.8 million acre land base that our Tribal 
Government now owns in fee simple.
    Before I begin my full testimony today, I would like to thank the 
Chair and the Committee for hosting me today in Washington, DC. It is a 
long way from Arctic Village to here and I greatly appreciate the 
hospitality you all have shown me and my fellow panelists. I would also 
like to recognize the presence of my fellow Chiefs here today: Chief 
Dana Tizya-Tramm of the Vuntut Gwitchin First Nation and Chief/Chairman 
Victor Joseph of the Tanana Chiefs Conference.
    At the outset, I would like to state the position of my Tribal 
Government on this issue: we unequivocally oppose the proposed oil and 
gas leasing program set out in the Tax Cuts and Jobs Act of 2017. The 
Coastal Plain of the Arctic National Wildlife Refuge is one of the most 
important natural, cultural, and subsistence resources to our Tribe and 
to the Gwich'in people as a whole. This is reflected in the Gwich'in 
name for the Coastal Plain: Iizhik Gwats'an Gwandaii Goodlit, or ``the 
sacred place where life begins.'' Oil and gas development in this area 
is wholly incompatible with the Gwich'in worldview. The caribou that 
calve within the Coastal Plain are the primary source of our Tribal 
members' subsistence harvests--the keystone species that has made it 
possible for us to live within our traditional areas from time 
immemorial to the present. Any impacts to those animals, from changes 
in migration patterns, lower fertility rates, and/or loss of habitat, 
will be felt by the Neets'aii Gwich'in in Arctic Village and Venetie.
                         the neets'aii gwich'in
    The term ``Neets'aii Gwich'in'' refers to the descendants of those 
families who traditionally occupied the territory south of the Brooks 
Range between the Chandalar and Coleen Rivers. The Neets'aii are a 
subset of the larger Gwich'in Nation whose territory extends from what 
is now known as the northeastern Interior of Alaska to the Yukon and 
Northwest Territories of Canada. The term ``Gwich'in'' refers generally 
to a people; however, when coupled with place-name identifiers, it 
literally translates to the people of a certain location. At present, 
the Gwich'in occupy 12 villages located along the Yukon, Chandalar, 
Porcupine, Black, Arctic Red, Mackenzie, and Peel Rivers and their 
tributaries.
    The experiences of the Neets'aii Gwich'in, as compared to other 
Alaska Native groups, are unique in some important respects. Most 
notably, the Neets'aii hold fee simple title to 1.8 million-acres and 
have rejected both municipal governments and Native corporation 
structures. Today, the communities of Arctic Village and Venetie are 
independently governed by their respective Tribal governments, the 
Arctic Village Council and the Venetie Village Council. The land base 
is jointly managed by a third Tribal entity, the Native Village of 
Venetie Tribal Government.
    For most of our history, Neets'aii people lived in scattered camps 
moving in relation to seasonal resources. Traditional housing models 
such as neevyaa zhee (caribou skin tents) and, later, canvas tents were 
designed to be transportable enabling families to move between 
customary use areas. Life in those days cycled through periods of 
abundance and scarcity. A prominent theme of our oral history is the 
struggle against starvation. Each season posed unique challenges that 
often required Neets'aii families to continually evaluate and adjust 
their plans. Sometimes this meant camping together and other times 
apart. Sometimes it meant moving to areas that were known to be 
productive in terms of harvesting and other times it meant taking 
calculated risks in terms of where and when to move.
    The pattern of life for Neets'aii people in a pre-settlement 
context generally followed the four seasons: shin (summer-time), 
khaiits`a' (fall-time), khaii (winter-time), and shreenyaa (spring-
time). Not all camps followed the same patterns of movement. Different 
families had their own customary use areas for hunting, trapping, and 
fishing. While most families operated from a seasonal blueprint, plans 
had to be continually adjusted to account for changes in weather, 
resource availability and other external factors.
    Around the turn of the 20th century, certain locations became more 
prominent in terms of supporting several Neets'aii families at a given 
time. Arctic Village (or Vashraii K'oo as it is known in Gwich'in 
meaning ``creek along a steep bank'') was a traditional fishing spot 
which later was strategically chosen as a site for a permanent 
settlement due to the supply of both animals and fish. Venetie (or 
Viihtaii) was similarly chosen due to the regular crossing of moose, 
caribou, and other migrating animals. The first cabin constructed in 
Arctic Village occurred in 1909 however many years would pass before 
the community became a year-round place of residence. Most Neets'aii 
families continued to maintain seasonal camps or traplines along the 
Koness, Sheenjek, Wind and other rivers.
    Since contact, the traditional territory of the Neets'aii Gwich'in 
has been threatened by numerous forces including encroachment, 
ownership transfers, and resource extraction. In a (post)colonial 
context, the Neets'aii Gwich'in have frequently found themselves to be 
in value-conflict with others, particularly on issues relating to the 
use and management of lands and resources.
           our connection to izhik gwats'an gwandaii goodlit
    The living history of the Neets'aii Gwich'in is embedded within 
googwandak (our stories) that have been passed down between generations 
for as long as anyone can remember. Gwich'in people, in general, are 
natural storytellers, and for many decades outside researchers have 
busied themselves with documenting our stories, traditions, hardships, 
and ways of life that seemed to them to be quickly disappearing. The 
existing literature on the Neets'aii Gwich'in has overwhelmingly been 
dominated by non-Gwich'in authorship, and the outcome has been mixed. 
Though some of the literature offers interesting insights into 
Neets'aii culture and experiences post-contact, it invariably requires 
critical reading and careful consideration of the author, their 
intended audience, and the extent to which Neets'aii people were 
involved in the co-creation of documented knowledge. It is from 
googwandak that the Neets'aii Gwich'in have come to know the meaning of 
Iizhik Gwats'an Gwandaii Goodlit, what you call the ``Coastal Plain'' 
or the ``1002 area.''
    ``We have always, for countless generations, governed our own 
people our own Indian way, according to Gwich'in traditional customs.'' 
\1\ Our way of life is based on a unique relationship with the land. We 
are a people of place with extraordinarily strong ties to our 
traditional territory and are guided by a desire to exercise 
stewardship over the places our ancestors called home.\2\ We must care 
for and respect the land and animals given to us by the Creator and 
left for us by our ancestors.\3\ According to our elder Gideon James, 
``The very purpose of [the Native Village of Venetie] tribal government 
was for the tribe to maintain control over their land and water and to 
be able to continue to practice their spiritual and cultural 
activities.'' \4\
---------------------------------------------------------------------------
    \1\ Arctic Village Council, Nakai't'in'in: ``Do It Yourself!'' A 
Plan for Preserving the Cultural Identity of the Neets'aii Gwich'in 
Indians of Arctic Village, 36 (1991).
    \2\ Charlene Barbara Stern, From Camps to Communities: Neets'aii 
Gwich'in Planning and Development in a Pre-and Post-Settlement Context 
118 (2018).
    \3\ Arctic Village Council, supra, at 33.
    \4\ Arctic Village Council, supra, at 45.
---------------------------------------------------------------------------
    We have always regarded Iizhik Gwats'an Gwandaii Goodlit as sacred 
and important. It has historical significance as a place where Gwich'in 
have traveled, camped, hunted, and traded since time immemorial. Today, 
we avoid Iizhik Gwats'an Gwandaii Goodlit to reduce the chances of 
disrupting caribou calving and to ensure future successful harvesting. 
It continues to be associated with our cultural practices and belief 
system and is important to maintaining our cultural identity. Our 
cultural identity as caribou people is intertwined with the Porcupine 
Caribou Herd's calving areas in the Coastal Plain. Development in the 
Coastal Plain constitutes a direct attack on Gwich'in culture. Proposed 
oil and gas development in the Coastal Plain is already negatively 
impacting us through stress and fear for our way of life and cultural 
identity.
    ``We are the caribou people since the beginning of time.'' \5\ The 
caribou that calve on the Coastal Plain are the primary source of our 
Tribal members' subsistence harvests--the keystone species that has 
made it possible for us to live within our traditional homelands for 
countless generations. Caribou form the backbone of Gwich'in life and 
culture, providing for the physical, cultural, and spiritual health and 
well-being of our Tribal members. We adhere to the traditional laws and 
practices surrounding the stewardship of resources, which emphasize 
respect and relational accountability for all life forms.\6\ We take 
care of the caribou because we need them. It is our responsibility to 
provide for the needs of present and future generations. ``[W]hat we do 
is not really for us but for our children's and our grandchildren's 
futures.'' \7\
---------------------------------------------------------------------------
    \5\ BLM, Transcript, Coastal Plain Oil and Gas Leasing Program EIS 
Public Scoping Meeting: Arctic Village, Alaska 49 (May 24, 2018) 
(statement of Jewels Gilbert).
    \6\ Stern, supra, at 121.
    \7\ Arctic Village Council, supra, at 38.
---------------------------------------------------------------------------
    Our way of life is dependent on the Porcupine Caribou Herd, 
including our reliance on caribou for subsistence. The act of 
harvesting and providing traditional subsistence resources has positive 
psychological health benefits both at the individual and community 
levels. Hunting, fishing, picking berries, and other land-based 
traditions hold mental, social, and emotional benefits that extend far 
beyond the actual harvest.\8\ Our subsistence resources and practices 
are an essential component of our relationships with one another. Our 
people share among each other and help out those in need. Sharing 
reinforces our kinship ties with family and the community. For example, 
during community potlatches it is common knowledge among our people 
that elders are the first to be served food. Similarly, when boys 
harvest their first vadzaih (caribou) or dinjik (moose), families know 
to distribute the meat around the community. Any impacts to caribou and 
the other migratory animals that depend on the Coastal Plain, will have 
significant adverse social, cultural, spiritual, and subsistence 
impacts on our Tribes and Tribal members.
---------------------------------------------------------------------------
    \8\ Stern, supra, at 119.
---------------------------------------------------------------------------
    ``We will oppose any efforts by outsiders, which we believe 
threatens our land, our animals, or our traditional way of life.'' \9\ 
Oil and gas development in the Coastal Plain is wholly incompatible 
with the Gwich'in worldview. Our identity, culture, and way of life are 
at stake. Like our ancestors, we will never give up. We will never stop 
fighting to protect the Coastal Plain, the animals that depend on it, 
and our way of life.
---------------------------------------------------------------------------
    \9\ Arctic Village Council, supra, at 33.
---------------------------------------------------------------------------
    Iizhik Gwats'an Gwandaii Goodlit is not only a place of birth, it 
is also a place of peace. My great-grandmother was Maggie Gilbert. She 
passed on the story to my grandfather Trimble of our ancestor Dajalti', 
who was a leader of our people long ago. During a conflict between the 
Neets'aii and the Inupiat, Dajalti' led the Neets'aii north over the 
Brooks Range into what we now call Iizhik Gwats'an Gwandaii Goodlit. 
From there, Dajalti' and his people made camp, and he struck out to the 
coast alone to meet with the Inupiat. At their meeting, Dajalti' met 
the Inupiaq leaders and they made an end to the war. Our stories tell 
us this is the last time there was conflict between the Neets'aii and 
the Inupiat. All of this occurred in the land you now call the Coastal 
Plain.
[GRAPHIC] [TIFF OMITTED] T5816.002

ajalti' makes a speech to thousands of Eskimos on the Arctic Coast 
                             to end the war

                     (Illustration by Kathy Tritt)

                our experience in the blm's nepa process
    When the Bureau of Land Management (BLM) initiated its review 
process under the National Environmental Policy Act (NEPA) last year, 
our Tribes made a controversial decision: our Councils agreed we would 
each become ``cooperating agencies'' in the NEPA process. We made this 
choice, not to support the development of oil and gas in the Refuge; an 
outcome that our Tribes unequivocally oppose. Rather, we sought to sit 
at the table as equals with the BLM to provide a direct link between 
the agency and the Tribes so that the BLM's Draft Environmental Impact 
Statement (DEIS) would be the kind of comprehensive and thorough report 
that our people deserve. That was not, however, our experience in this 
process.
    At the outset, the BLM's review process was destined to be 
inadequate. This was a self-inflicted injury by the agency itself by 
laying out a timeline for completion that is unparalleled in Alaska. 
Our Tribes continually expressed our concerns about the BLM's 
compressed timeline for completing this DEIS, and routinely advised the 
agency that the speed at which it was working was undermining the 
integrity of the NEPA process and creating significant barrier to our 
Tribes' meaningful participation. Despite our Tribes' good faith 
participation in this process, the BLM has consistently rebuffed the 
Tribes' substantive comments and concerns. The DEIS's wholly inadequate 
analysis of the proposed leasing program's impacts on cultural and 
subsistence resources reflects the BLM's continued failure to 
adequately consider and address our Tribes' concerns.
    One potentially positive note in this process, was the BLM's 
willingness to fund our Tribes' effort to translate sections of the 
DEIS into written Gwich'in. In our villages, our Native language is 
still widely spoken and read, and indeed for many, English is their 
second language. However, the BLM's priority focus on completing this 
process as quickly as possible once again hindered any possibility of 
Tribal success. In order to fund this project, the BLM had to establish 
a section 638 self-governance contract with my Tribe. This contracting 
process takes time, especially when there is, as was the case here, no 
prior contracting relationship between the Federal agency and the 
tribal government. Between the lengthy bureaucracy and the recent 
government shutdown, the funding for the translation effort did not 
make it to the Tribes until late January 2019, well into the BLM's 
comment period for the DEIS. Because of the delay in funding, the 
Tribes were unable to translate the entire draft environmental impact 
statement, and the translation of selected sections of the DEIS was not 
available until March 10, 2018--three days before the DEIS comment 
deadline.
    During the shutdown, the Tribes requested that the BLM extend the 
comment period to provide sufficient time to produce an accurate and 
understandable translation. The Tribes also informed the BLM that not 
extending the comment period to provide sufficient time for translation 
would severely hinder the participation of tribal members and other 
Gwich'in people who speak Gwich'in as their first language. The BLM 
ignored the Tribes' requests. The BLM's decision to continue to work on 
the DEIS during the government shutdown--but to not provide timely 
funding for translators or additional time for translation--
disenfranchised tribal members and other Gwich'in people from the 
public comment process. Funding the translation efforts while 
simultaneously not providing adequate time to translate the DEIS 
demonstrates, in my view, how the BLM views trust responsibility to our 
Tribes.
    Finally, while BLM officials did commit to and attend government-
to-government ``consultations'' in Arctic Village and Venetie, I want 
the Committee to understand these sessions did not live up to our 
expectations as Tribal Nations and did not live up the Federal 
Government's trust responsibilities to Tribes. Rather, these sessions 
consisted of BLM representatives and their consultants arriving in the 
village and meeting with the Councils for what was essentially a 
``listening session.'' Questions asked by Council members often went 
unanswered, information presented by the agency was little more than 
information previously available to the public, and little if any of 
our Tribes' requests were followed up on by the agency. Our Tribes 
provided literature, posters, and other documents at these meetings for 
the BLM and their consultants to review, however they did not review 
them even after our elders reminded them of the importance of this 
information. Our Tribes' have come to view these ``consultation'' 
sessions as mere ``box-checking'' exercises by the agency. It seems to 
me that the BLM measures the effectiveness of government-to-government 
consultation in terms of quantity not quality. That is not, in any way 
shape or form, how the trust responsibility should work.
                               conclusion
    In closing, I would like to thank the Committee again for inviting 
me to testify today. I must share that this has not been easy for me to 
do. I have three small daughters back home as well as the rest of my 
family and my village. It is hard to come all this way and to talk 
about this issue. But, I am doing it for my people and that makes it 
all worth it. Iizhik Gwats'an Gwandaii Goodlit is not just a place on a 
map for our people. It is the foundation for our entire way of life 
back home. From it, we have our caribou, our stories, and our identity. 
For our Tribes, this is not just an issue of conservation versus 
development. We just do not see it that way. For us, this is about our 
desire as a tribal people to continuing living a way of life that we 
chose for ourselves. We chose to settle where we did because we knew 
that is where the caribou go. We established our reservation to ensure 
we would keep that land. We did not participate in the Alaska Native 
Claims Settlement Act of 1971 because we wanted to continue being 
Tribal landowners. And today, we want to carry on that legacy by 
protecting the place that provided for our people throughout our 
history: Iizhik Gwats'an Gwandaii Goodlit. No one, from any walk of 
life, has the right to deny our people the right to be who we are or 
believe what we believe. Iizhik Gwats'an Gwandaii Goodlit is not just 
the sacred place where caribou life begins. It is the sacred place 
where all life, including the lives of the Neets'aii, begin. And we 
will never stop in our effort to protect it.

    Mashhi' Cho (Thank you).

                                 ______
                                 

    Dr. Lowenthal. Thank you.
    The Chair now recognizes Chief Tizya-Tramm for 5 minutes.

STATEMENT OF THE HON. DANA TIZYA-TRAMM, CHIEF, VUNTUT GWITCHIN 
                FIRST NATION, FAIRBANKS, ALASKA

    Mr. Tizya-Tramm. Chairman Lowenthal, Ranking Member Gosar, 
members of the Subcommittee and of the Piscataway-Conoy people 
whose traditional territory we are on today. Mashhi' cho for 
the opportunity to speak with you in favor of this piece of 
legislation, which is critical to the future of my people.
    I notice in the paintings on your walls you have a buffalo 
people. Well, I am proud to sit in front of you today as a 
caribou people, as Gwich'in. And nobody speaks on behalf of 
Gwich'in, except our Gwich'in leaders.
    My name is Dana Tizya-Tramm, grandson of Clara Linklater 
and Old Peter Tizya. I am the Chief of the Vuntut Gwitchin 
First Nation of the Yukon in Canada. But no border separates 
the Gwich'in, and we speak in unity in protection of the 
Porcupine caribou herd.
    Long ago, the Gwitchin followed the caribou to see where 
they went and to learn their ways. They led us to the Northeast 
Coastal Plains of what you now call Alaska. It is here we 
became one with the caribou. We did this by exchanging half of 
our heart with half of the caribou's own. And in this way we 
would always know where the other was. In this way, we would be 
connected forever.
    The immense value of the birthing grounds was recognized on 
this day over a millennia ago, and why today the Gwitchin call 
it Iizhik Gwats'an Gwandaii Goodlit, the Sacred Place Where 
Life Begins. If you drill in this sacred place, it will destroy 
the caribou, and therefore, destroy the Gwich'in.
    Our nation stretches from Alaska throughout Northern Yukon 
and into the Northwest Territories of Canada. Vahdzaii, 
caribou, is known as the lifeblood of our people and our 
connection to them. We are a people who belong to these lands 
and waters, and to the animals who share them with us. The 
Vuntut Gwitchin define themselves by the life-giving lakes in a 
region in the Yukon called the Crow Flats. The term Vuntut 
Gwitchin literally translates to ``Those Who Dwell Among the 
Many Lakes.''
    The Gwitchin in Northeast Alaska call themselves the 
Gwichyaa Gwich'in, Those Who Dwell in the Flats, and so on. 
Every region, the identity of our people is reflected in our 
names to represent the body of our persons, and the deep 
understanding of our belonging to these lands. We are all 
Gwich'in, and we are a caribou people.
    Our entire nation as a northern Arctic people, and 
especially our hunters, trappers, and gatherers, can tell you 
of the immense changes our lands are subjected to under the 
breaking weight of changing climate. Our lands are now 
slumping, entire lakes draining, and even entire rivers 
reversing, as the permafrost and glaciers that held our ancient 
lands together are now melting and eroding at accelerating 
rates.
    Protected lands will give animals the chance to survive our 
changing climate on our lands. Development in the calving 
grounds of the Porcupine caribou will further threaten the fate 
of the herd and the fate of my people and our Nation.
    The herd is the sustenance of our very being, mind, body, 
and spirit. Our people know where we come from, and we can see 
the exponential pace at which this new world is affecting us, a 
world that seeks dominion over the lands, animals, and 
resources that is at odds with our traditional way of life, 
which teaches a respectful relationship with each. The complete 
change of our lands and culture leaves us in possibly one of 
the most important junctures in our history--the question 
being, will the velocity of these changes and development 
swallow our people's future, our relationship, and our 
ancestors?
    This bill directly addresses Gwich'in human rights. This 
bill will restore protection to a sacred land and life cycle 
that Gwich'in have always recognized since time immemorial and, 
if passed, will respect the caribou and the Gwich'ins' 
continued journey together in this world.
    Since 1988, upon our elders' direction, we have tirelessly 
advocated and worked to protect these lands and our ancient way 
of life from the needless development. I am here today to 
testify that this development on the Coastal Plain amounts to 
the cultural genocide of the entire Gwich'in Nation. We have 
lived in balance with the Porcupine caribou herd since before 
any mark of modern history, and now development threatens to 
destabilize all of this.
    At one of the most important points in our collective human 
history, it is now your turn to stand with the Gwich'in Nation, 
the Porcupine caribou herd, and these lands. We have done our 
work. Now it is up to you to respect, honor, and value the 
lives of us all by passing this bill. Mashhi'.

    [The prepared statement of Mr. Tizya-Tramm follows:]
    Prepared Statement of Dana Tizya-Tramm, Chief, Vuntut Gwitchin, 
                           Fairbanks, Alaska
    Long ago the Gwitchin followed the caribou to see where they went 
and to learn their ways. They lead us to the Northeast Coastal Plains 
of what is now called ``Alaska.'' It is here that we made treaty, it is 
here we became one. We did this by the exchange of half of one 
another's heart. In this way we would always be connected, forever. The 
immense value of their calving grounds was recognized on this day over 
a millennia ago, and why today all Gwitchin call it, ``Iizhik Gwats'an 
Gwandaii Goodlit,'' ``the Sacred Place Where Life Begins.''
    Among the Gwitchin the expanse from the Northeast of Alaska, 
through Northern Yukon Territory, to the mid-Western region of the 
Northwest Territories, vahdzaii (caribou) is known as the lifeblood of 
our people, as well as our connection to them. As a people who define 
themselves by the life giving lakes in a region called the ``Crow 
Flats'' the term ``Vuntut Gwitchin'' literally translates to ``They Who 
Dwell Among the Many Lakes,'' and the Gwitchin in Northeastern Alaska 
residing in the ``Yukon Flats'' refer to themselves as the ``They Who 
Dwell in the Flats'' and so on, every region of our people their 
identity, reflected in our names that represents the body of our 
persons, and the deep understanding of our person, and its connection 
to our lands, but we are all a caribou people.
    As a young man today I can see our past traditional world as we 
were the last to have made contact with the ``oonjit'' (outsiders) or 
``white people'' which were the colonial explorers. I can see where our 
people came from and the exponential pace at which this new world has 
affected us. A world that seeks dominion over the lands, animals, and 
resources opposed to our traditional one that teaches that we must have 
a respectful relationship with each. The respect taught to us by our 
ways so strict that we are never, ever to laugh, or make fun of any 
animal. Now we must carry our traditional values and principles taught 
by our traditions and elders from the past into the future in a way in 
which they may be realized in contemporary ways. The onslaught of 
technology, alcohol, drugs, and outside pressures from our new non-
indigenous partners and their new world is completely changing the 
ancient world of our culture and lives leave us in possibly one of the 
most important points in our people's history. How will we continue our 
way with the land, waters and animals? Will we be able to balance the 
best of both of these worlds to gift our coming generations a totally 
balanced and new world in which we have woven our traditional guiding 
principles into new works? Or will the velocity of alcohol, drugs, and 
new influences swallow our people, our identities, our relationships, 
our connections to our ancestors and future generations?
    The Vuntut Gwitchin First Nation Signed our Self-Government 
Agreement with the Crown of Canada in 1995 establishing our own 
government, the certainty of our lands, as well as the laws that govern 
this relationship and the frameworks that we are to build from 
together. This mechanism defines our peoples right to self-
determination, and self-governance and from this we have thrived as a 
people free from the confines of the ``Indian Act'' under Canadian law. 
This however is not how our relationship began and we have a 
significant legacy of changes both good and bad, both chosen and 
forced. When it comes to our lands specifically we created ``Special 
Management Areas'' and even large swaths of lands in our traditional 
territories designated as Federal parks although we still retain the 
right to harvest within these lands. Through our agreement and 
partnership with the Canadian Government we have protected all of our 
headwaters and the most important lands that sustained flora and fauna.
    As a leader of my people I must say now, to be retained by outside 
people, government, and systems of my people that the development of 
the ``1002'' lands as designated by ANILCA, known to my people as 
``Iizhik Gwats'an Gwandaii Goodlit'' is certainly the highest practice 
of cultural genocide of the entire Gwitchin Nation as it will lead to 
the destabilization of the Porcupine Caribou herd which carries the 
spirit, intent, and founding of our nation as a people. No word on any 
format can replace the meaning of the last, and largest land animal 
migration left today that drives northern arctic ecosystems in which we 
belong to. No words can ever truly convey to people in which I am 
mandated to convince to support the protection of these lands to side 
with a people they know nothing about to understand that our existence 
is dependant on an animal as humble as the caribou. On behalf of my 
people I plead that we be recognized, that our internationally 
recognized human rights be honoured, that our international agreements 
between Canada and the U.S.A. are honoured, that from the misty 
fundamental place from whom ever reads this helps to protect the most 
fundamental part of who my people are because obviously this is beyond 
just our control, and is now in your hands. Support this legislation 
that will not just stop oil and gas development of the ``1002'' lands, 
but will ensure the living of an ancient ecosystem and an ancient 
people that depend on them.

                                 ______
                                 

    Dr. Lowenthal. Thank you.
    The Chair now recognizes Chief Joseph for 5 minutes.

  STATEMENT OF THE HON. VICTOR JOSEPH, CHIEF/CHAIRMAN, TANANA 
              CHIEFS CONFERENCE, FAIRBANKS, ALASKA

    Mr. Joseph. Thank you, Chairman Lowenthal, Ranking Member 
Gosar, and members of the Subcommittee, I appreciate the 
opportunity to testify today.
    My name is Victor Joseph. I serve as the Chief Chairman at 
Tanana Chiefs Conference (TCC). TCC is a non-profit consortium 
of 42 members, of which 37 are federally recognized tribes. Our 
region includes the Gwich'in Nation. TCC is governed by tribal 
leaders who provide oversight and guidance in the management of 
TCC. Our tribes stand united with the Gwich'in Tribes in 
opposition of all oil and gas activities on the Coastal Plain 
of the Arctic National Wildlife Refuge.
    You have heard firsthand from the Gwich'in leaders why the 
birthing grounds for the Porcupine caribou herd is so important 
to their existence as a people. TCC joins the comments provided 
by my fellow panelists.
    The purpose of my testimony today is to provide the 
Subcommittee with an overview of how the complex legal history 
of Alaskan tribes have impacted our ability to continue our way 
of life. The history reinforces why protecting the Coastal 
Plain is so important.
    Alaska is often misunderstood, even by those who live in 
the state. Alaska Native tribes have always existed, and 
continue to exist, despite our lands being stripped from tribal 
sovereign authority when Congress passed the Alaska Native 
Claims Settlement Act, ANCSA, in 1971. ANCSA created profit-
making Alaska Native Corporations to receive over 45 million 
acres of land. Tribes were not mentioned anywhere in that Act. 
But there are 229 federally recognized tribes in the state of 
Alaska.
    To be clear, the ANCSA corporations are not tribes or 
tribal governments. While some hail ANCSA as a success because 
of their financial successes of the for-profit corporations it 
established, it has made it extremely difficult for tribes to 
have a meaningful role in wildlife and resource management. The 
lack of co-management often creates hunting and fishing 
regulations that criminalize our people for doing what we have 
been doing since time immemorial, living off the land and 
practicing our religious and spiritual rights.
    In Alaska, Native communities harvest approximately 22,000 
tons of wild foods each year, and an average of 370 pounds per 
person. Our spirituality and culture is deeply rooted in 
harvesting of these wild foods, and sharing them within our 
communities.
    A decade after ANCSA, Congress sought to protect Alaska 
Native hunting and fishing rights by enacting the Alaska 
National Interest Lands Conservation Act, ANILCA. To be direct, 
ANILCA has failed to protect the Alaska Native way of life. The 
complex legal landscape is the backdrop in the fight to protect 
the calving grounds for the Porcupine caribou herd, and the 
ability of the Gwich'in Nation to exist.
    The TCC tribal leadership recently reaffirmed its 
resolution, which calls on Congress and the President to 
permanently protect the calving grounds of the Porcupine 
caribou herd. TCC urges Congress to return to the strong 
support of protecting the Refuge, including the sensitive 
Coastal Plain. This place is one of the most sacred locations 
to the Gwich'in people. Its protection is necessary for their 
continued way of life.
    When TCC opposed the Tax Act, we warned that the NEPA 
process would be truncated, and the Native tribal voice 
silenced in any plan. Unfortunately, we were right. That is 
exactly what is happening.
    The Tanana Chief Conference concludes that protecting the 
Coastal Plain and setting it aside as wilderness is the best 
and highest use of the fragile area. It preserves the intact 
ecosystem critical to both the caribou and the Gwich'in people. 
This way of life is dependent on the herd and each other.
    We hope that you agree, and will advocate for the 
protection of the Arctic National Wildlife Refuge Coastal 
Plain, its wildlife, and the indigenous people who are so 
closely linked to it.
    Thank you for this opportunity.
    [Speaking Native language.]

    [The prepared statement of Mr. Joseph follows:]
Prepared Statement of Victor Joseph, Chief and Chairman, Tanana Chiefs 
                     Conference, Fairbanks, Alaska
    Chairman Lowenthal, Ranking Member Gosar, members of the 
Subcommittee, on behalf of the Tanana Chiefs Conference (TCC), I 
appreciate the opportunity to testify before the Subcommittee regarding 
``The Need to Protect the Arctic National Wildlife Refuge Coastal 
Plan'' on H.R. 1146. TCC is a non-profit intertribal consortium of 37 
federally-recognized Indian tribes and 41 communities located across 
Alaska's interior including the tribes of the Gwich'in Nation of Arctic 
Village, Venetie, Fort Yukon, Beaver, Chalkyitsik, Birch Creek, Circle 
and Eagle Village. TCC serves approximately 18,000 tribal members in 
Fairbanks where TCC headquarters is located, and in the rural villages 
in Alaska's vast interior, located along the 1,400 mile Yukon River and 
its tributaries. Over 100 years ago, TCC was formed when tribal leaders 
of the interior met with Federal officials and strategically created a 
unified tribal voice to ensure the tribes received adequate health 
care, employment, education, and protection of our traditional 
territories in order to continue hunting and fishing practices.
    Today, TCC aims to meet the health and social service needs of 
tribes and tribal members throughout the region, which covers 235,000 
square miles here in the Interior of Alaska, with our Health Services 
covering 185,000 square miles. Our region covers 37 percent of the 
state, an area that is just slightly smaller than Texas. TCC is 
governed by the Full Board, Executive Board, Health Board and 
Traditional Chiefs who provide oversight and guidance in the management 
of TCC. In addition, at TCC's Annual Convention, TCC member tribes 
deliberate and pass resolutions that guide TCC through the coming 
years. I serve as Chief/Chairman of TCC, elected by our tribal 
delegates, I am a Tanana tribal member. As the Chief/Chairman, I have 
the honor to serve our region, represent the tribes, and to carry out 
the intent and legacy of the founding TCC chiefs.

    We stand united with the Gwich'in Tribes in opposition to all oil 
and gas activities on the Coastal Plain of the Arctic National Wildlife 
Refuge. Each year, the Coastal Plain acts as the birthing grounds for 
the Porcupine Caribou Herd. Our people live in remote villages on the 
migratory route of the caribou. Tribal citizens across our Region rely 
on these animals for their physical, cultural, and spiritual health. 
The proposed oil and gas leasing and subsequent exploration and 
development will undoubtedly directly and significantly impact the 
quality, health, and availability of those traditional subsistence 
resources, such as caribou, fish, and birds, and therefore the Gwich'in 
way of life.
    We join the comments provided by my fellow panelists. The purpose 
of my testimony is to provide the Subcommittee with an overview of how 
the complex legal history of Alaskan tribes have impacted our ability 
to continue a subsistence lifestyle and reinforce why protecting the 
Coastal Plain is so important.
    Alaska is often misunderstood even by those who live in the state. 
Alaska Native tribes have always existed and continue to exist despite 
our lands being stripped from tribal sovereign authority when Congress 
passed the Alaska Native Claims Settlement Act (ANCSA) in 1971. Tribes' 
inherent powers of self-governance over tribal citizens have long been 
recognized, and there is no evidence that Congress intended to 
extinguish Alaska Tribes' powers in enacting ANCSA.\1\ Federal courts 
have likewise concluded that tribes in Alaska retain inherent sovereign 
authority.\2\ There are 229 federally-recognized tribes in Alaska. As a 
general matter, sovereign governments have authority, or jurisdiction, 
over citizens, over land, and over people who enter their land. This 
``dual nature of Indian sovereignty'' derives from two intertwined 
sources: tribal citizenship and tribal land. These two aspects of 
jurisdiction, or authority, while intertwined, have been ``teased 
apart'' in Alaska.\3\
---------------------------------------------------------------------------
    \1\ John v. Baker, 982 P.2d 738, 753 (Alaska 1999) (``Congress 
intended ANCSA to free Alaska Natives from the dictates of ` ``lengthy 
wardship or trusteeship,'' ' not to handicap tribes by divesting them 
of their sovereign powers.'').
    \2\ Native Vill. of Venetie I.R.A. Council v. Alaska, 944 F.2d 548, 
556-59 (9th Cir. 1991); Native Vill. of Venetie I.R.A. Council v. 
Alaska, 994 WL 730893, at *12-21 (D. Alaska, Dec. 23, 1994); Kaltag 
Tribal Council v. Jackson, 344 F. App'x 324 (9th Cir. 2011).
    \3\ John, 982 P.2d at 754; Kaltag Tribal Council v. Jackson, 344 F. 
App'x at 325 (9th Cir. 2011) (``Reservation status is not a requirement 
of jurisdiction because `[a] Tribe's authority over its reservation or 
Indian country is incidental to its authority over its 
members.''(quoting Venetie, 944 F.2d at 559 n.12)).
---------------------------------------------------------------------------
    ANCSA created 12 regional profit-making Alaska Native corporations 
and over 200 village, group, and urban corporations to receive what 
would end up being around 45.5 million acres of land along with about a 
billion dollars cash payment. Tribes were not mentioned in the Act. To 
be clear, the ANCSA corporations are not tribes or tribal governments. 
While some hail ANCSA as a success because of the financial success of 
the for-profit corporations it established, ANCSA's purported 
elimination of aboriginal hunting and fishing rights has had 
devastating effects on Alaska Native way of life, and has made it 
extremely difficult for tribes to have a meaningful role in resource 
management by virtue of our reserved tribal rights.\4\ The lack of co-
management often creates hunting and fishing regulations that 
criminalize our people for doing what we have been doing since time 
immemorial--subsisting off the land and practicing our religious and 
spiritual beliefs. In Alaska, Native communities harvest approximately 
22,000 tons of wild foods each year, an average of 375 pounds per 
person.\5\ Our spirituality and our culture is deeply rooted in 
harvesting these wild foods, and sharing them within our communities.
---------------------------------------------------------------------------
    \4\ Robert T. Anderson, Sovereignty and Subsistence: Native Self-
Governance and Rights to Hunt, Fish, and Gather After ANCSA, 33 Alaska 
L. Rev: 187 (2016), http://digitalcommons.law.uw.edu/faculty-articles/
49.
    \5\ Hearing to Examine Wildlife Management Authority Within the 
State of Alaska Under the Alaska National Interest Lands Act and the 
Alaska Native Claims Settlement Act: Hearing Before the S. Comm. On 
Energy and Nat. Res., 113th Cong. 1 (2013).
---------------------------------------------------------------------------
    While tribes relentlessly advocate for protection of tribal hunting 
and fishing practices and the ceremonies that accompany those 
practices, achieving this without a land base is extremely challenging. 
Much of the land is owned by the ANCSA corporations, and while ANCSA 
corporations are Native owned and operated, their main mission is to 
make profits which is sometimes at odds with tribal cultural and 
spiritual pursuits.

    In the drafting of ANCSA, Alaska Natives communicated that 
protection of our hunting and fishing rights were one of the highest 
priorities.\6\ However, nothing was stated in the Act that clearly 
defined what protections the Alaska Native people would continue to 
have. Congress nevertheless made its promise clear in the Joint Senate 
and House Conference Committee Report accompanying the Act:
---------------------------------------------------------------------------
    \6\ The first Alaska Federation of Natives draft bill emphasized 
subsistence protection and the final Senate version of the land claims 
bill included elaborate provisions protecting Native subsistence. Case, 
supra, at 284.

        The Conference committee after careful consideration believes 
        that all Native interests in subsistence resource land can and 
        will be protected by the Secretary through the exercise of his 
        existing withdrawal authority . . . The Conference Committee 
        expects both the Secretary and the State to take any action 
        necessary to protect the subsistence needs of the Natives.\7\
---------------------------------------------------------------------------
    \7\ H.R. Conf. Rep. No. 92-746, 92nd Cong.; 1st Sess., December 14, 
1971, at 37 reprinted in 1971 U.S.C.C.A.N. 2247, 2250.

    After a decade of failure by the Secretary of the Interior and the 
State of Alaska to protect subsistence needs of Native peoples, 
Congress sought to protect Alaska Native hunting and fishing rights by 
enacting the Alaska National Interest Lands Conservation Act 
(ANILCA).\8\ ANILCA has two purposes: first, ``to set aside land in 
order to preserve the natural features and resources of those lands and 
waters for present and future generations,'' and second ``to protect 
the resources related to subsistence need and provide the opportunity 
for rural residents engaged in a subsistence way of life to continue to 
do so.'' \9\ The Act professed to protect Native lifestyles and did so 
under ``its constitutional authority over Native affairs and its 
constitutional authority under the property and commerce clause.'' \10\ 
Decades after ANCSA and ANILCA passed, neither the Department of the 
Interior nor the State of Alaska have lived up to Congress' 
expectations to protect Alaska Native hunting and fishing practices.
---------------------------------------------------------------------------
    \8\ Alaska National Interest Lands Conservation Act, 16 U.S.C.A. 
Sec. Sec. 3111 et seq. (1980).
    \9\ 16 U.S.C.A. Sec. 3101 (b), (c).
    \10\ 16 U.S.C.A. Sec. 3111 (4).
---------------------------------------------------------------------------
    This complex legal landscape is the backdrop in the fight to 
protect the calving grounds of the Porcupine Caribou herd and, 
therefore, the ability of the Gwich'in Nation to exist. In October 27, 
2017, the TCC Tribal leadership reaffirmed its 2015 Board resolution 
(2015-71), passed by the Full Board, which called on Congress and the 
President to permanently protect the biologically rich calving grounds 
of the Porcupine (River) Caribou Herd within the ``1002 Area'' Coastal 
Plain of the Arctic National Wildlife Refuge (ANWR). We stand in unity 
with the Gwich'in People who rely on the Porcupine Caribou for the 
physical, cultural, and spiritual well-being, and who, since 1988, and 
every 2 years thereafter, have unanimously called on the United States 
to protect the 1002 Area ``Coastal Plain'' and respect their 
traditional way of life. The Porcupine Caribou represent food security 
and a way of life to the Gwich'in people who have hunted the caribou 
for thousands of years. Oil and gas development on the Coastal Plain 
will cause disruptions to land and subsistence activities and uses, 
which will have severe social, cultural, and health impacts on the 
Gwich'in people.
    Until recently, the protection of the Arctic National Wildlife 
Refuge enjoyed bipartisan support, dating back to 1960 when President 
Dwight David Eisenhower established the area as the Arctic National 
Wildlife Range, which was expanded in 1980 by President Jimmy Carter 
and renamed a Refuge. TCC urges Congress to return to the strong 
support for protecting the Refuge, including the ecologically sensitive 
Coastal Plain, and the Gwich'in people. In 2017, when TCC opposed, the 
``Alaska Oil and Gas Production Act,'' and inclusion of Arctic Refuge 
drilling in the Tax Act, we warned that the National Environmental 
Policy Act (NEPA) process would be truncated and Native tribal voices 
silenced in any mitigation plan and regulations for the Coastal Plain. 
Unfortunately, we were right; this is exactly what is happening.
    The Bureau of Land Management's (BLM) Draft Environmental Impact 
Statement (draft EIS) fails to acknowledge the significant impact oil 
and gas activities on the Coastal Plain will have on the tribal 
communities that rely on the Coastal Plain for subsistence. The draft 
EIS is wholly inadequate in researching, identifying, analyzing, and 
planning for mitigation of potential impacts as a result of the 
proposed three action alternatives for BLM's implementation of an oil 
and gas program in the Coastal Plain of the Refuge as mandated by the 
Tax Cuts and Jobs Act of 2017, Public Law 115-97. The draft EIS does 
not meet basic legal requirements of a sufficient EIS, and is clearly 
deficient in the Alaska National Interest Lands Conservation Act 
Section 810 preliminary analysis. Each section lacks adequate research 
and analysis of scientific data and traditional knowledge currently 
readily available. Furthermore, it lacks necessary required research 
and analysis to fill existing data gaps.
    The draft EIS is a futile exercise, lacking integrity, and 
concluding potential and cumulative impacts as a result of the proposed 
three action alternatives for the BLM implementation of an oil and gas 
program in the Coastal Plain of the Refuge would be minimal or 
inconsequential to habitat, fish, wildlife, and indigenous people. The 
scoping and draft EIS process have selectively acknowledged science, 
data, technical reports, and public comments that support and validate 
the administration's position, while selectively not including years of 
science, data, technical reports, and indigenous knowledge that clearly 
demonstrate the high likelihood of severe and significant direct and 
cumulative impacts to habitat, fish, wildlife, indigenous peoples, and 
the global environment. This silences Alaska Native voices.
    ANILCA Section 810, subtitled Subsistence and Land Use Decisions, 
outlines the requirements for addressing impacts to subsistence uses of 
resources in the Federal land use decision-making process in Alaska. 
The draft EIS contains an analysis under Section 810 of the ANILCA that 
egregiously fails to recognize the significant impacts to the Gwich'in 
subsistence way of life that are likely to result from oil and gas 
activities on the Coastal Plain. All of BLM's proposed action 
alternatives would result in: displacement impacts on calving and post-
calving PCH caribou; increased calf mortality, and impacts to migration 
patterns, and therefore may substantially restrict and/or reduce the 
abundance and availability of PCH for subsistence uses. Oil and gas 
exploration and development in the heart of the calving and post-
calving grounds of the Porcupine Caribou Herd is a direct threat to 
indigenous culture and the ability to continue the subsistence way of 
life--and yet BLM has wholly ignored these concerns. As a result of 
this finding, BLM does not intend to hold ANILCA 810 hearings in any 
Gwich'in communities, further inhibiting their ability to participate 
meaningfully in this process. This is unacceptable.
    We heard promises when Congress was considering opening the Coastal 
Plain in the Tax Act that BLM would ensure that the Federal process 
meets all legal and moral obligations, allowing Tribal voices to be 
heard and address known impacts to our ways of life. These promises 
were not kept. But no process will change the fact that the proposed 
oil and gas leasing and subsequent exploration and development on the 
Coastal Plain will have significant, serious, and harmful impacts on 
Alaska Native ways of life. As a result, the Tanana Chiefs Conference 
concludes that protecting the Coastal Plain and setting it aside as 
Wilderness is the best and highest use of this fragile ecosystem. It 
preserves an intact ecosystem, critical to both the Porcupine Caribou 
herd and the Gwich'in people, whose way of life is dependent upon the 
herd. The health of the herd and the health of the Tribal communities 
are inextricably dependent.
    H.R. 1146, which repeals the provisions of the Tax Act that opened 
the Coastal Plain to destructive oil and gas activities is an important 
step. We hope you agree and will advocate for protection of the Arctic 
National Wildlife Refuge's Coastal Plain--its wildlife and the 
indigenous people who are so closely linked to it.

    Thank you for the opportunity to address the Subcommittee on this 
important legislation.

                                 *****

                               ATTACHMENT
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


   PROTECT THE PORCUPINE CARIBOU BIRTHPLACE IN THE ARCTIC NATIONAL 
                     WILDLIFE REFUGE COASTAL PLAIN
                         RESOLUTION NO. 2015-71

    WHEREAS, the Arctic National Wildlife Refuge is the birthplace and 
nursery grounds of the Porcupine (River) Caribou Herd; and

    WHEREAS, for countless generations the Gwich'in People relied upon 
the porcupine caribou to meet their cultural, spiritual and subsistence 
needs, and continue to rely on the caribou to meet the needs of their 
people; and

    WHEREAS, the Gwich'in and all Native people have the right to 
continue to live their traditional way of life, and this right is 
recognized in the International Covenants on Human Rights which reads 
in part: ``In no case may a people be deprived of their own means of 
subsistence . . .''; and

    WHEREAS, oil development in the birthplace of the Porcupine Caribou 
Herd would hurt the caribou and threaten the future of the Gwich'in 
People.

    NOW THEREFORE BE IT RESOLVED that the Tanana Chiefs Conference Full 
Board of Directors direct the TCC staff to call on Congress and the 
President to take action to permanently protect the birthplace of the 
Porcupine Caribou Herd in the Arctic National Wildlife Refuge, known as 
the 1002 lands; and

    NOW THEREFORE BE IT FURTHER RESOLVED that this is the standing 
policy of TCC until amended or rescinded.

CERTIFICATION

I hereby certify that this resolution was duly passed by the Tanana 
Chiefs Conference Full Board of Directors on March 19, 2015 at 
Fairbanks, Alaska and a quorum was duly established.

                                                    ___________________

                                                            Pat McCarty
                                                    Secretary/Treasurer

Submitted by: Yukon Flats Subregion

                                 ______
                                 

    Dr. Lowenthal. Thank you.
    And now the Chair recognizes Mr. Alexander for 5 minutes.

STATEMENT OF SAM ALEXANDER, GWICH'IN LEADER, GWICH'IN STEERING 
                  COMMITTEE, FAIRBANKS, ALASKA

    Mr. Alexander. Drin gwinzii, Shoozhri' Sam Alexander 
oozhii, Gwichyaa Zhee gwats'an ihtii, gaa Tanan gwihch'ii. 
Shiyeghan naii Clarence ts'a' Ginny Alexander gaavoozhri', 
Gwichyaa Zhee gwats'an ginlii [Speaking Native language]. Good 
afternoon. My name is Sam Alexander. I am from Fort Yukon, but 
I live in Fairbanks. My parents are Ginny and Clarence 
Alexander from Fort Yukon.
    Chairman Lowenthal, Ranking Member Gosar, and members of 
the Subcommittee, Mahsi' Choo for the opportunity to speak to 
you in favor of H.R. 1146.
    Today, I am here to talk with you about why my people, the 
Gwich'in Nation, continue to fight to protect the Arctic 
Refuge. As a prior U.S. Army Special Forces officer and 
graduate of Dartmouth's Tuck School of Business, my people have 
asked me to speak because of my experience with Western 
society.
    Why do we fight so hard to protect this land? The word 
Gwich'in means ``people of a place,'' and the Refuge is one of 
the places we are from, long before it was a refuge, and long 
before there was a United States.
    The Refuge is very close to my heart, as it is the reason 
for my own existence. My grandmother was orphaned by diseases 
that wiped out her family and brought our tribe to the brink of 
extinction. She was able to survive because she left her home 
and went to live on the land that later became the Refuge. 
There, the land and animals provided for her.
    How do we repay the land for all that it has given us? As 
Gwich'in, we are bound by tradition to be stewards of the land, 
for it has provided us with so much. Stewardship of the land is 
a sacred duty and, as such, one that cannot be entrusted to 
corporations, even if they have the words ``Native'' in front 
of them.
    Beyond our duty to be stewards of this land lays another 
powerful motivator. We protect this land because our connection 
to the land is the basis for our culture. What we eat, what we 
wear, the words that we use, our sense of time and space all 
come from our connection to the land. Our connection with the 
caribou and all creatures of the land sustain our language. How 
we communicate the detailed directions needed to survive on the 
land go beyond general terms such as ``north'' and ``south,'' 
but instead incorporate the features of the land, such as 
traveling up river, oonji', or down the river, oodi'.
    Our concept of time is based on the land's natural cycles. 
For example, we call the month of May Gwiluu Zhrii, which means 
``The Month of Crusted Snow.'' Of course, with climate change, 
we have started to see the crusted snow for which May is named 
now in April. Our knowledge of the land is best understood in 
the language.
    Yet, we are at an inflection point with our language. We 
have fewer and fewer speakers every year, and knowledge is 
being lost. Recognizing this loss, the United Nations has 
declared this the year of indigenous languages. These languages 
are recognized for the value that they bring to our 
understanding of the world.
    But beyond the accumulated knowledge and insight the 
Gwich'in language provides, it gives something more. Diiginjik, 
our language, gives the Gwich'in people a connection to each 
other and our ancestors. We have place names that inform us and 
guide us. My father is from a place called Shoo, which means 
happy, and you can see the light in his eyes when he speaks of 
this place.
    I have heard it said that there can be balanced 
development, but I must not understand what balanced means, 
because so much of the North Slope is already open to 
development. How is opening the remainder creating balance?
    The animals are already under stress, with climate change 
impacting their lives now. As the temperatures stay near the 
freeze-thaw point we are seeing more rain and wet weather. This 
is making one of the mainstays of the caribou diet, lichen, 
inaccessible, as it is buried under ice instead of snow. 
Environmental stresses like this make protection of the calving 
grounds all that much more important, as the caribou are facing 
the unprecedented stress of rapid climate change.
    And it is not just the caribou, but the fish and other 
animals, as well. Drilling the refuge will exacerbate these 
changes.
    How do we know that activity in the refuge will impact 
animal behavior? Our traditional knowledge informs us.
    Once I was moose hunting with my father, an esteemed elder, 
and we were traveling along and saw a bear in the distance. He 
put up his rifle like he was going to shoot it, and then 
dropped his rifle down. I asked him why he didn't shoot the 
bear, and he said, ``Bears are always in front of moose.''
    And I thought to myself, what does that mean? I thought 
maybe he was tired. And we went around the corner, and a bull 
moose is standing right there.
    How could he know that? He knows that because he has spent 
a lot of time on the land, and he learned from his elders our 
traditional knowledge. This is hard-fought knowledge, and has 
to be very accurate in order for it to be of use. Our 
traditional knowledge helps us understand the behavior of 
animals in ways that Western science is only beginning to 
grasp. And this knowledge tells us that oil and gas development 
in birthing grounds of the Porcupine caribou herd will 
devastate them.
    I asked my father what message he thought you needed to 
hear. He said without the caribou, our tribe dies. He didn't 
say without more oil drilling our tribe dies, and he didn't say 
without greater infrastructure and development of the land our 
tribe dies. He said without caribou.
    The caribou bring life to the land. Without caribou the 
Refuge dies. And not just in iizhik gwats'an gwandaii goodlit, 
not just the Coastal Plain, we are talking about the entire 
Refuge. So, a choice must be made, and I hope you make the 
right one. Please pass this important piece of legislation.
    Mahsi' choo. De Oppresso Liber.

    [The prepared statement of Mr. Alexander follows:]
Prepared Statement of Sam Alexander, Gwich'in Leader, Gwich'in Steering 
                      Committee, Fairbanks, Alaska
    Chairman Lowenthal, Ranking Member Gosar, members of the 
Subcommittee, and Chief Swan of the Piscataway Conoy people, Mahsi' 
Choo for the opportunity to speak to you in favor of the Arctic 
Cultural and Coastal Plain Protection Act, H.R. 1146.

    Drin gwinzii, Shoozhri' Sam Alexander oozhii, Gwichyaa Zhee 
gwats'an ihtii, gaa Tanan gwihch'ii. Shiyeghan naii Clarence ts'a' 
Ginny Alexander gaavoozhri', Gwichyaa Zhee gwats'an ginlii.

    Good afternoon, my name is Sam Alexander, I am from Fort Yukon, 
Alaska, but I live in Fairbanks, Alaska. My parents are Clarence and 
Ginny Alexander from Fort Yukon. Today I am here to talk with you about 
why my people, the Gwich'in Nation continue to fight to protect the 
Arctic National Wildlife Refuge.
    As a prior U.S. Army Special Forces Officer and graduate of 
Dartmouth's Tuck School of Business, my people have asked me to speak 
because of my familiarity with the Western society.
    So why are we here? Why do we fight so hard to protect this land? 
The word Gwich'in means people of a place. And the refuge is one of the 
places we are from, long before it was a refuge, long before the United 
States existed. The refuge is very close to my heart, as it the reason 
for my own existence. My grandmother was orphaned by diseases that 
wiped out her family in the early 20th century, diseases that ravaged 
our people and brought us to the brink of extinction. She was able to 
survive because she left her home and went to live on the land that 
later became the Refuge. There, the land and animals provided for her.
    How do we repay the land for all that it has given us? As Gwich'in 
we are bound by tradition to be stewards of the land, for it has 
provided us so much.
    In our traditional way, animals and the land are revered and 
treated with the utmost respect. Our traditional protocol says that 
even the smallest of animals are not to be taken advantage of or 
disrespected. When you take a resource from the land you are supposed 
to leave something in return. For example, mice often store food. They 
hide small piles of wild Indian potato for a later date when they'll 
need it. Food can be scarce, at times in the Arctic. A Gwich'in person 
may help himself to the mice's food, but he knows, in exchange he must 
leave something of value for the mouse. Our values say that just 
because you are human that you are not above the other creations. In 
our way, the mice are no less worthy of respect than you or I.
    Stewardship of the land is a sacred duty, and as such, one that 
cannot be entrusted to corporations, even if they have the words Native 
in front of them.
    Beyond our duty to be stewards of this land lays another powerful 
motivator. We protect this land because our connection to the land is 
the basis for our culture. What we eat, what we wear, what we talk 
about, the words that we use, our sense of time and space all come from 
our connection to the land. Our connection with the caribou and all 
creatures of the land sustain our language. How we communicate the 
detailed directions needed to survive on the land go beyond general 
terms such as north or south, but instead incorporate the features of 
the land, such as traveling up river, oonji', or down the river, oodi'. 
Our concept of time is based on the land's natural cycles. For example, 
we call the month of May Gwiluu Zhrii, which means ``The Month of 
Crusted Snow.'' Of course, with climate change, we have started to see 
the crusted snow for which May is named in April. Our language contains 
knowledge of the land from time immemorial, and that knowledge is best 
understood in the language.
    And yet we are at an inflection point with our language. We have 
fewer and fewer speakers every year, and knowledge is being lost. This 
loss is being recognized. The United Nations has declared this the year 
of indigenous languages. These languages are recognized for the value 
that they bring to our understanding of the world. But beyond the 
accumulated knowledge and insight the Gwich'in language provides, it 
gives something more. Diiginjik, our language, gives the Gwich'in 
people a connection to each other and our ancestors. We have place 
names that inform us and guide us. Place names that have existed for 
millennia. My father is from a place called Shoo, which means happy, 
and you can see the light in his eyes when he speaks of this place. And 
so what do we want? We want what people have always wanted, to live in 
a place we love, living the way we want with the people that we love 
and cherish.
    I've heard it said that there can be balanced development, but I 
think I must not understand what balanced means, because so much of the 
North Slope of Alaska is already open to development. How is opening 
the remainder creating balance? The animals are already under stress 
now. Climate change is impacting our lives now. As the temperatures 
stay near the freeze-thaw point we are seeing more rain and wet 
weather. This is making one of the mainstays of the caribou diet, 
lichen, inaccessible as it is buried under ice instead of snow. 
Environmental stresses like this make protection of the calving grounds 
all that more important, as the caribou are facing the unprecedented 
stress of rapid climate change. And it is not just the caribou, but the 
fish and other animals as well. Drilling the refuge will exacerbate 
these changes.
    How do we know that activity in the refuge will impact animal 
behavior? Our traditional knowledge informs us. Once I was moose 
hunting with my father, an esteemed elder. We were traveling along and 
saw a bear in the distance. He raised his rifle as if he was he was 
going to shoot it and then stopped. He put his rifle down and said we 
should keep going. I asked him why? And he replied, ``bears are always 
in front of moose.'' And I thought, well what does that mean?! He must 
be tired, because he wasn't making any sense to me. Well we went around 
the corner and sure enough, there was a Bull Moose. How could he know 
this? He knows this because he has spent a lot of time on the land, and 
a lot of time learning from elders our traditional knowledge. That is 
hard fought knowledge, and has to be very accurate in order for it to 
be of use. Our traditional knowledge helps us understand the behavior 
of animals in ways that western science is only beginning to grasp. And 
this knowledge tells us that oil and gas development in birthing 
grounds of the Porcupine Caribou will devastate the herd.
    I asked my father what message he thought you needed to hear. He 
said, without the caribou, our tribe dies. He didn't say, without more 
oil drilling our tribe dies. He didn't say without greater 
infrastructure and development of the land our tribe dies. He said 
without caribou. The caribou bring life to the land. Without caribou 
the refuge dies. And not just in iizhik gwats'an gwandaii goodlit, not 
just the calving grounds on the Coastal Plain, we are talking about the 
entire refuge. So a choice must be made, and I hope you make the right 
one. Please pass this important piece of legislation.

    Mahsi' choo for your time. De Oppresso Liber.

                                 ______
                                 

    Dr. Lowenthal. Thank you.
    The Chair now recognizes Mr. Rexford for 5 minutes.

STATEMENT OF FENTON REXFORD, ADVISOR TO THE MAYOR OF THE NORTH 
   SLOPE BOROUGH, TRIBAL MEMBER, NATIVE VILLAGE OF KAKTOVIK, 
                        KAKTOVIK, ALASKA

    Mr. Rexford. Chairman Lowenthal, Ranking Member Gosar, and 
the members of the Subcommittee, I thank you very much for the 
opportunity to present my comments.
    My name is Fenton Rexford from Kaktovik on Barter Island, 
also known as Barter Island. I was born and raised there, and 
am here to speak to you on behalf of my people and myself.
    Kaktovik is the only community, the only village within the 
boundaries of the Arctic National Wildlife Refuge. We are the 
only village and community located within the Coastal Plain of 
ANWR.
    We agree the human rights of the Gwich'in people must be 
honored and respected. But there are many other tribes in 
Alaska with diverse interests in many resources, including 
caribou, birds, fish, moose, whale, seals, minerals, and even 
the oil and gas.
    Your legislation does not mention at all the human rights 
of the Kaktovik people, the Kaktovikmiut. Your legislation does 
not mention the Kaktovikmiut at all. It doesn't mention the 
Inupiat people of the country there. What about our Inupiat 
human rights? We have human rights, as well as the Gwich'in. 
What about our land, which has been our home since immemorial, 
over 11,000 years? What about our resources? What about our 
interest in the Porcupine caribou herd that we rely on, as well 
as the Gwich'in? What about our voice?
    Do you intend us to disappear, like you have done for the 
Havasupai, the Navajo in creating the Grand Canyon? You 
legislated them out. And with this bill, H.R. 1146, you are 
legislating the Kaktovik people out of this country, or even 
existence.
    Our tribe has over 23 million of acres of homeland that we 
have inhabited and used for hunting, fishing, gathering, and 
raised our families for 11,000 years, from continental divide 
in the Brooks Range to the Arctic Ocean, from the Sagavanirktok 
on the west well into Canada into the east.
    Then the Federal Government showed up in 1867. The United 
States purchased all of Alaska from Russia, even though Russia 
did not exercise dominion over our lands. The U.S. Senate 
ratified the purchase, and Congress funded it.
    In 1947, the U.S. military, a cold war, arrived on Barter 
Island to build a 5,000-foot runway and hangar. We were told to 
move our village, our homes, our ice cellars. Graves and 
cemeteries were bulldozed and filled in.
    In 1950, the Department of the Interior sent their game 
warden to Kaktovik and told my grandfather, ``You are only 
going to be hunting one sheep and one caribou.'' And this was 
70 years ago.
    In 1951, the Village of Kaktovik and most of our island was 
withdrawn for a military reserve by Public Land Order 82.
    In 1953, the military directed our village again to move a 
second time.
    In 1957, an application for the withdrawal of lands to 
create the Arctic Wildlife Range was filed. The first group to 
propose the withdrawal was a sportsmen's hunting group from 
another region of Alaska that wanted to protect their interest 
in our region.
    In 1958, Congress passed the Alaska Statehood Act, which 
did not even protect our interests.
    In 1960, the Secretary of the Interior issued Public Land 
Order 2214, reserving the Arctic National Wildlife Range. The 
Range was established without Kaktovik input, without 
consultation. Our rights to hunt were now restricted further.
    In 1964, the military directed our village again to move 
the third time.
    In 1971, Congress passed the Alaska Native Claims 
Settlement Act. Kaktovik received just four townships of land 
within our region. Congress terminated our aboriginal rights 
and claims to the hunting and fishing rights, as well.
    In 1980, Congress passed the Alaska National Interest Lands 
Conservation Act, which renamed ANWR a ``Refuge,'' and 
increased the size of the refuge, and imposed new restrictions 
on hunting and fishing, and access to the land and gathering 
food for the people. Congress claimed to protect our access to 
the refuge, but we have struggled for 40 years to exercise our 
subsistence rights and our right to travel across the land 
managed by the U.S. Fish and Wildlife Service. Once again, the 
interests of the outside conservation groups have trumped the 
interests of our people.
    We have spent over 40 years lobbying Congress to allow oil 
and gas leasing within the Coastal Plain. Even leasing on our 
own Native lands requires an Act of Congress.
    Since the Federal Government showed up 152 years ago, the 
outside groups have used the Federal Government as a tool to 
assert their own interests in our land. To protect our 
interest, we have formed a powerful government and a voice--the 
non-government organizations--the voice of the Arctic Inupiat, 
to make sure that all our activities within the region return 
benefit to our people and our communities.
    So, as Inupiat, we maintain our traditional values. Our 
culture continues to evolve and adapt to the changing world 
around us. We are not an exhibit in a museum, nor should the 
lands that we have survived and thrived for centuries be locked 
away for the peace of mind from those from far-away places. 
This school of thought amounts to nothing more than green 
colonialism, a political occupation of our land in the name of 
environment, while others exploit the idea of wilderness for 
economic gain.
    I want to end this by saying my grandfather was told in 
1950, before I was born, ``You are allowed only one sheep and 
one caribou,'' and he said this, he has seen a lot, he has seen 
much happen over his life, because they had been living there 
for many years. And then the evil day came, trouble was 
happening, bringing deep worry over the existence of our 
people. It was the only trouble, he said, we have ever had in 
our own long living at Barter Island. Strict game loss had been 
imposed upon him and his people. Our aboriginal rights have 
been taken away.
    This is 50 years ago. And he thought maybe some day. And 
today is the day the game warden will see things our way, and 
protect our way of life. We have human rights, as well.
    Thank you very much.

    [The prepared statement of Mr. Rexford follows:]
Prepared Statement of Fenton Rexford, Advisor to the Mayor, North Slope 
                            Borough, Alaska
    Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee, thank you for the opportunity to present my comments. My 
name is Fenton Rexford and I come from the community of Kaktovik, where 
I was born and raised, to speak to you on behalf of my people and 
myself. Kaktovik is the only community within the boundaries of the 
Arctic National Wildlife Refuge. We are the only community located 
within the Coastal Plain of ANWR.
    The legislation introduced by Congressman Huffman declares that it 
is the policy of the United States to ``sustain'' the Coastal Plain of 
ANWR as a ``natural treasure for the current generation of Americans'' 
and ``to honor and respect the human rights of the Gwich'in.''
    We agree that the human rights of the Gwich'in people must be 
honored and respected. But there are many tribes in Alaska with diverse 
interests in many resources, including caribou, fish, birds, moose, 
whales, seals, minerals, timber, and even oil and gas. There are 32 
caribou herds in Alaska, and every one of those herds deserves to be 
protected, and the rights of the Native people to continue hunting 
those animals also should be respected.
    Within Alaska, we try to balance our use of these resources to 
benefit all communities. But within each region, we try to show respect 
for the people who are from that place.
    Your legislation doesn't mention the human rights of the 
Kaktovikmiut. Your legislation doesn't mention the Kaktovikmiut at all. 
It doesn't mention the Inupiat people. What about our rights? What 
about our land, which has been our home since time immemorial? What 
about our resources? What about our interest in the Porcupine caribou 
herd, on which we rely as well? What about our voice? Do you intend for 
us to disappear? We do not exist in your legislation.
    I would like to give you a short history of our land and our 
relationships with outside groups. Growing up, we considered our 
homelands to extend from the continental divide in the Brooks Range to 
the Arctic Ocean; from the Sagavanirktok River on the west, well into 
Canada on the east.
    Our tribe had over 23 million acres of lands that we have 
inhabited, used for hunting, fishing, gathering, and raised our 
families on for over 11,000 years. Then the Federal Government showed 
up.

    In 1867, the United States purchased all of Alaska from Russia, 
even though Russia did not exercise dominion over our lands. The Senate 
ratified the purchase and Congress funded it.

    In 1947, the military arrived on Barter Island to build a 5,000-
foot runway and hangar. We were told to move our village. Our homes 
were bulldozed and our ice cellars were filled in.

    In 1950, the U.S. Department of the Interior restricted game 
hunting to just one caribou and one sheep per person, restricting our 
ability to feed our families.

    In 1951, the Village of Kaktovik and most of our island was 
withdrawn for a military reserve by Public Land Order 82.

    In 1953, the military directed our village to move a second time.

    In 1957, an application for the withdrawal of lands to create an 
Arctic Wildlife Range was filed. The first group to propose the 
withdrawal was a sportsmen's group from another region of Alaska that 
wanted to protect their interest in our region.

    In 1958, Congress passed the Alaska Statehood Act, which did not 
protect our interest in the land.

    In 1960, the Secretary of the Interior issued Public Land Order 
2214, reserving the Arctic National Wildlife Range. The Range was 
established without Kaktovik's input and without consultation. Our 
rights to hunt were now restricted further.

    In 1964, the military directed our village to move a third time.

    In 1971, Congress passed the Alaska Native Claims Settlement Act. 
Kaktovik receive just four townships of land within our region. 
Congress terminated our aboriginal land claims and our hunting and 
fishing rights.

    In 1980, Congress passed the Alaska National Interest Lands 
Conservation Act, which renamed ANWR a ``Refuge,'' increased the size 
of the Refuge, and imposed new restrictions on hunting and fishing and 
access to the land. Congress claimed to protect our access to the 
Refuge, but we have struggled for four decades to exercise our 
subsistence rights and our right to travel across the land managed by 
the Fish and Wildlife Service. Once again, the interests of outside 
conservation groups have trumped the interests of our people.

    We had to spend more than four decades lobbying Congress to allow 
oil and gas leasing within the Coastal Plain. Even leasing on Native-
owned lands required an Act of Congress.

    Since the Federal Government showed up 152 years ago, outside 
groups have used the Federal Government as a tool to assert their own 
interest in our land. To protect our interests, we have formed a 
powerful government--the North Slope Borough--to make sure that all 
activities in our region return benefit to our people and our 
communities.
    As Inupiat, we maintain our traditional values, while our culture 
continues to evolve and adapt to the changing world around us. We are 
not an exhibit in a museum. Nor should the lands that we have survived 
and thrived from for centuries be locked away for the peace of mind of 
those from faraway places. This school of thought amounts to nothing 
more than green colonialism--a political occupation of our lands in the 
name of the environment while others exploit the idea of Wilderness for 
economic gain.

    Thank you for listening to me. Quyanaq.

                                 ______
                                 

    Dr. Lowenthal. Thank you. I want to thank the panel for 
their testimony. I want to remind the members of the Committee 
that Rule 3(d) imposes a 5-minute limit on questions.
    I am now going to recognize Members for any questions they 
may wish to ask witnesses. I am going to recognize myself for 5 
minutes.
    And, again, I want to thank all of you for being here, as 
we hear from all of you, your deeply heartfelt testimonies. 
Traveling from your villages to Washington, DC, is an extremely 
long trip. But if you listen to some of the proponents of 
drilling, your opposition to drilling in the Arctic Refuge--
those of you that are opposed to it--is, in large part, based 
on your interest in taking just these kinds of trips.
    For example, one of our witnesses in the second panel, Mr. 
Glenn, testified in front of the Senate Energy Committee in 
2017 that, and I quote, ``Big and powerful environmental 
lobby'' is effectively bribing the Gwich'in with again, I 
quote, ``promises of trips around the world and per diem in 
order to oppose drilling on the Coastal Plain and generate 
large donations to the environmental lobby.''
    I have two questions about this. First, how do you respond 
to Mr. Glenn's characterization of how and why you became 
involved with this issue? And second, is there any irony in 
referring to this ``big and powerful environmental lobby'' when 
we are looking at how the oil and gas industry operates on the 
North Slope?
    Mr. Alexander, I want to start with you and then I am going 
to ask any of the other panelists to jump in. I understand you 
have some thoughts about this. Would you like to respond to 
this?
    Mr. Alexander. I do, Mr. Chairman. I would like to make 
something very, very clear to this audience and to everybody 
out there that is listening, and that is Mr. Don Young does not 
represent the Gwich'in. He does not represent the Gwich'in and 
our voice.
    Mr. Young. I represent Alaska.
    Mr. Alexander. He might----
    Mr. Young. I don't represent you, because you don't 
represent----
    Mr. Alexander [continuing]. Have a wife who was Gwich'in, 
but he does not represent the Gwich'in.
    I am here because the elders have sent me to be here. I 
want to be clear on that. The question I will answer, though.
    Dr. Lowenthal. Don't mention the names of people, Members.
    Mr. Alexander. Let us be clear on that.
    What I would like to say is this. I am here, and somebody 
tells me I get to take a trip around the world. I got that 
invitation years ago. It is called the U.S. Army, when I did my 
three tours in Iraq. So, I have seen plenty of the world, and I 
don't need somebody to send me out elsewhere.
    So, you think about that. I have been to combat, I know 
what war is like. And I came home, and I see my people under 
attack. So, what do I do? I do what a warrior does, and I go 
where my people send me, and that is here. That is what I am 
here to do, is to represent us, as Gwich'in people, as the 
warriors that we are. So, let's be clear on that.
    As for this--you think about the oil industry and the 
influence that they have. Imagine that we are here, and we are 
not getting paid to be here. I have a 7-month-old son. If you 
think I want to be here more than I want to be with my son, you 
are out of your mind.
    We are making sacrifices. I paid for my trip getting down 
here with my veterans disability. I made a sacrifice. Everybody 
you see here made sacrifices to be here. To say that we are 
doing this because we are going to get some sort of trip is an 
insult.
    Thank you.
    Dr. Lowenthal. Anyone else wish to respond to this?
    Yes, Chief?
    Mr. Tizya-Tramm. Mashhi' Cho. These comments that you had 
made known are completely convenient for their own prerogative, 
and are wholly inaccurate. And I can tell you, as a people that 
come from a very accurate oral history that spans back to the 
time of wooly mammoths, who can actually point out to 
scientists where they will find these fossils and they are 
found, that it was not long ago where Myrajo, an elder of our 
people, was approached. Her and another elder were approached 
by hunters when planes were flying into our territory, scaring 
our animals, bringing our hunters back with nothing, and they 
came to our two elders and asked what they should do. And it 
was these two elders who called the first gathering of our 
people in 100 years. And from this born was the biannual 
Gwich'in gathering, which we still meet at today. This has 
nothing to do with environmentalists. This is spearheaded by 
Gwich'in for Gwich'in.
    But, really, this leads to a larger point--that this is a 
canary in a coal mine, because what this issue really speaks to 
is a displacement of value. Because these caribou are in 
effect, and for all respectful purposes, a renewable energy 
source. All you have to do is leave them alone. And to go into 
this area, which they have used for 2.1 million years, and set 
up shop would be paramount to trading cold fusion for a tank of 
gas. And I believe that all of us together, as people, have far 
more ingenuity than reductionist thinking and actions such as 
this. Mashhi'.
    Dr. Lowenthal. I now recognize the Ranking Member, Mr. 
Gosar, for 5 minutes of questions.
    Dr. Gosar. Thank you, Mr. Chairman.
    The previous administration took any action they could to 
lock up oil and gas development on the North Slope. For 
residents of the region, this meant lost job opportunities and 
lost revenues. For the United States, this resulted in an 
increased reliance on foreign oil imports, often from 
unfriendly actors.
    As a matter of fact, my colleague, Mr. Huffman's home state 
of California currently relies on foreign resources, mostly 
from Saudi Arabia, to meet over half its rising demand for oil.
    [Slide.]
    Dr. Gosar. If you take a look at the chart on the screen 
you will see that California has been steadily importing less 
and less domestically produced oil from Alaska, and has instead 
increased their dependence on foreign oil from 5 percent to 57 
percent over the last 30 years. Yet, my colleagues want to lock 
up energy development in the 1002 region and further our 
reliance on foreign oil imports.
    By the way, I just want to--this chart is a product of the 
California Energy Commission.
    I think there is a misconception about the scale of 
production we are talking about here, relative to the vastness 
of the Arctic National Wildlife Refuge.
    [Slide.]
    Dr. Gosar. If you look at the second slide, you will see 
how ANWR and the 1002 Area compares to the continental United 
States. Within the orange area, way up there in the upper-right 
corner, you will see how ANWR and the 1002 Area compares to the 
continental United States. Within the orange area is where the 
oil and gas development is now authorized. Surface impacts 
cannot exceed 2,000 acres, which is one-fifth of the size of 
the Dulles airport.
    Mr. Rexford, we have heard testimony today about concerns 
surrounding the potential impact of energy development in the 
1002 Area on local Native populations and subsistence. In fact, 
the bill mentions the Gwich'in people by name, but does not 
mention the Village of Kaktovik. How close is your village to 
the 1002 Area?
    Mr. Rexford. Thank you for the question. We are right smack 
dab in the middle of 1002, the only village and community 
located within the Arctic National Wildlife Refuge.
    Dr. Gosar. Can we have the slide put up, just so that 
everybody has reference?
    [Slide.]
    Dr. Gosar. That is you in the upper right.
    Mr. Rexford. That is us in the upper right. We own 92,000 
acres. As I mentioned earlier, it requires an Act of Congress 
to develop our own private lands. Who in America would have to 
have an Act of Congress to develop their own lands? Nowhere 
else in the world.
    Dr. Gosar. It is crazy. Let me ask you a question. How will 
energy development in the 1002 Area impact the Village of 
Kaktovik?
    Mr. Rexford. Can you say that again?
    Dr. Gosar. How will the development of oil resources in the 
1002 Area affect your village?
    Mr. Rexford. Sir, we have had benefits--earlier, I 
mentioned that we created the North Slope Borough to impose 
income tax to the oil industry. We have created schools, we 
have created jobs, we have created roads. These things we 
didn't have 60, 70 years ago. And the benefits are very good 
for our health. We have education, higher education. So, the 
impact is for the benefit of our future generation of 
Kaktovikmiut.
    Dr. Gosar. I want to ask you again. Looking at this slide, 
that is your village in the upper right corner. Is there any 
other village close to that?
    Mr. Rexford. Not within 100 miles, sir. Nuiqsut is the only 
village within the North Slope Borough that is closest----
    Dr. Gosar. So, I find it preposterous that we would 
introduce a piece of legislation that you weren't even 
consulted?
    Mr. Rexford. We were not consulted that this bill would be 
introduced.
    Dr. Gosar. It is absolutely incredible. And I have been 
there, to the North Slope. To hear and see, functionally, what 
is there is astonishing. I have to commend the former Chairman 
for inviting us up there, because once you see, you will 
understand.
    In another hearing we actually had on government oversight 
last year, we actually started looking at the Russian 
involvement with environmental groups. Because the Russian 
country is a one-trick pony, they are only about energy, and if 
they can stop energy production here, once again, you will see 
maybe California take more Russian oil or Mediterranean or 
Saudi Arabian oil. So, this really has a big impact.
    Can you tell me quickly how you talk about the green 
colonialism again? I think we need to hear that again.
    Mr. Rexford. Yes. Thank you for that question. When the 
Grand Canyon was created, U.S. Congress legislated them out of 
existence. Another example, Glacier National Park. Another 
example, the Hoover Dam, the first dam that was created in 
California kicked out and killed a lot of Indians, 
legislatively.
    So, this legislation is proposing to legislate us out, make 
us non-existent in the bill. And I find that very insulting.
    Dr. Gosar. I thank the Chairman, and I yield back.
    Dr. Lowenthal. Thank you. I want to remind Members to be 
respectful of each other, not to mention people's names in 
their presentations. Other Members try to refrain from doing 
that.
    I now recognize Representative Huffman for 5 minutes of 
questioning.
    Mr. Huffman. I want to thank the Chairman for having this 
very important hearing on the bill. And I am actually pleased 
to hear at least an inkling of concern for consultation with 
indigenous people from some of my colleagues across the aisle. 
It is the first evidence I have heard of any interest in this 
notion of actually treating indigenous people with respect, and 
listening to them. It is too bad that it is limited to Native 
corporations, who sell out in multi-million-dollar ways to big 
oil and gas companies. But, hey, it is a start. Maybe we can 
build on that, and include all indigenous people.
    And I want to thank our witnesses today who have traveled 
so far to join us and tell their story about the importance of 
the Coastal Plain, about this very sacred place to you, about 
this sacred way of life to you and your ancestors. I am sorry 
that you had to suffer the indignity of having your character 
and your motives and even your connection to this place and 
this sacred way of life impugned. That is very unfortunate, 
that you had to hear that. But I am grateful that you are here.
    I think the question before us is if the Federal 
Government, our government, is going to protect one of the last 
great wild places on Earth, a place that solid majorities of 
the American people want us to protect, whether we are going to 
honor the communities that depend on this very special place, 
or if our government is going to be responsible for its 
destruction by auctioning it off to big oil. So, it is a 
question of whose side we are on, indigenous people or 
industrial profit.
    And one of the talking points that we always hear for those 
that want to drill is about the limited footprint. You saw a 
very carefully constructed slide just a moment ago to try to 
make this point. They talk about how it is only 2,000 acres out 
of 1.5 million. They say it is nothing more than a postage 
stamp. But this talking point is incredibly misleading. It is 
hard to say if it is intentional, or if people just don't 
realize what 2,000 acres of oil and gas infrastructure actually 
looks like.
    So, let me show you a chart that actually attempts to 
depict that. And I want to draw your attention to what I hope 
we can cause to appear on the screen here.
    [Slide.]
    Mr. Huffman. It is behind me? Oh, OK. We are going to go 
old school here, we are going analog.
    All right. If you can see the black lines on this map, 
these are roads and pipelines. There are over 200 miles of 
them. They stretch like a spider across the entire Coastal 
Plain, end to end, from the coast to the foothills. There are 
gray boxes on this map that depict drilling pads. There are 
nearly two dozen of those. They are spaced according to state-
of-the-art drilling technology.
    And what people don't realize when they hear ``2,000 
acres,'' is that 1 mile of road only covers roughly 7.5 acres; 
100 miles of road only covers 750 acres. But it creates a 100-
mile-long barrier and a 100-mile-long scar on the landscape. 
And I want people to take a good look at this map, and 
understand this is the development that we are talking about in 
the Coastal Plain. It is not low impact, it is not a tiny 
corner of the Coastal Plain. This is a 200-mile network of 
roads that will completely destroy its current character, the 
character of one of the last great wild places on Earth.
    So, my question is, could any of you discuss what the 
impact of this oil and gas infrastructure development would be, 
and this road network, on the Coastal Plain? What would it mean 
to you?
    Mr. Tizya-Tramm. Mashhi' for the opportunity to speak. I 
can tell you, unequivocally, that it will do irreparable damage 
which we will never recover from. And I have spoken with 
hydrologists, geologists, geoscientists, biologists in this 
work, and it is a resounding no from every one of them. I wish 
I had the time to stress the percentages and the birthing 
rates. And to destabilize that would be to put into question 
the fate of the last largest land animal migration and healthy 
caribou herd in the world.
    And just for your information, the Lower 48 just lost 
another caribou herd, as the last female has now been taken in 
to biologists. So, the Lower 48 no longer has a single caribou. 
This is it. This is our only chance in this very, very 
opportune moment of history in time. Mashhi'.
    Mr. Huffman. Anyone want to add to that?
    Ms. Demientieff. I would like to say that it is going to 
destroy our identity, our way of life, and our food security. 
This is where they calve, this is where they give birth, and 
this is the most sensitive area.
    Mr. Huffman. All right, thank you.
    Mr. Chair, I believe it is important to listen to these 
local voices regarding the impacts of oil and gas development, 
and what that will mean to the Coastal Plain and the way of 
life that it sustains. This is not a postage stamp, it is a 
bullet through the heart of America's Arctic Refuge.
    With that, I yield back.
    Dr. Lowenthal. Thank you. I now recognize Mr. Young for 5 
minutes.
    Mr. Young. Thank you, Mr. Chairman. And I will stick by my 
guns. When I am in the chair, the witnesses will not mention my 
name, because I did not mention theirs. You can ring them out 
of order. I used to sit in that chair. Is that understood?
    Dr. Lowenthal. A statement like that----
    Mr. Young. I just want to make it clear.
    Dr. Lowenthal  [continuing]. I have made already.
    Mr. Huffman. A point of--a parliamentary inquiry. Does this 
standard that my colleague is articulating include mentioning 
where he thinks their hometown is, and disparaging them for not 
living close enough to the Coastal Plain? Because that got 
pretty personal.
    Mr. Young. If you want to argue, I will argue with you 
later, OK?
    Mr. Huffman. OK.
    Mr. Young. All right. We will take care of that little 
problem.
    I just want to thank the panel, although some flew out of 
Fairbanks on a nice, clear airfield. Mr. Fenton had to take and 
get a charter airplane because of the weather.
    And I want to ask you, Mr. Fenton. Do you live in a 
wilderness area?
    Mr. Rexford. No. A lot of laws have been passed, and I have 
heard an inkling, something about creating a wilderness. I do 
not live in a wilderness area, sir.
    Mr. Young. Well, in your testimony you mention the Air 
Force, Fish and Wildlife, roads, airport--that is not a 
wilderness. Yet, this bill would make it a wilderness because 
you weren't consulted. I think that is unfortunate.
    I mean, how long do you think your generations have lived 
there?
    Mr. Rexford. We have lived there many, many thousands of 
years, sir. Even before Moses and Jesus were born.
    Mr. Young. And you took care of the area?
    Mr. Rexford. Say again.
    Mr. Young. You have taken care of the area?
    Mr. Rexford. Oh, yes. We were the stewards. We have been 
stewards of the land for many years.
    Mr. Young. And you have utilized the land to the benefit of 
your people?
    Mr. Rexford. Yes, sir.
    Mr. Young. That is very good, because you live there, these 
are the people that live there. I keep stressing that.
    And I will say again, Mr. Chairman, I have been into this 
business--actually passed this bill 13 times. And I have an old 
saying. When you own a boat, Mr. Huffman, you never go to the 
bow and urinate. You go to the stern. You can catch what I am 
saying.
    Dr. Lowenthal. The Chair now recognizes Mr. Levin for 5 
minutes of questioning.
    Mr. Levin. Thank you, Chair Lowenthal, and thank you again 
to our witnesses for traveling so far in order for us to hear 
your testimony today.
    I am a proud Californian. And in regard to the claim that 
any measure being discussed would increase oil imports in 
California, I would remind my colleagues that my state has made 
an overarching commitment to cut all petroleum use in half by 
2030. And our objective in California is to reduce oil 
consumption, period. Any scare tactics alleging the opposite 
ring hollow.
    That being said, I appreciated the opportunity to hear 
about how drilling would affect your communities, as well as 
the impacts your communities are already feeling, as a result 
of our changing climate.
    Similar to the Arctic, climate change is impacting the 
continental United States, including California. Climate change 
is driving more intense wildfires, increased and more severe 
droughts, and stronger storms.
    To the panel, I understand that NOAA, the National Oceanic 
and Atmospheric Administration, recently released a study 
showing that the Arctic has experienced the 5 warmest years on 
record, and the amount of sea ice in the region is close to its 
all-time lowest level.
    One of my concerns about the Administration's headlong rush 
to start drilling in the Arctic is the climate impacts of 
creating an entirely new oil and gas field out of a wilderness. 
This is particularly concerning the Arctic, since you are 
seeing some of the most dramatic warming on the entire planet.
    So, I will ask the panel: How are your communities dealing 
with the climate-driven changes you are seeing, and how will 
oil development impact these changes?
    Ms. Demientieff. We are experiencing something that I have 
never seen before: our ticks in our caribou and our moose. And 
we have 33 coastal communities that are falling into the ocean. 
Our elders are very concerned with the changes that we are 
experiencing, because they really have never seen it before. We 
are starting to gather and discuss these issues because we are 
living them daily. And we are not sure how to deal with it. We 
are thawing at twice the rate as the rest of the world.
    And this will not help us, whatsoever. I think it is going 
to add to the negative impacts that we are already feeling.
    Mr. Levin. Go right ahead.
    Mr. Tizya-Tramm. If I may, as well, one of the largest ways 
that we can weather this is to have large swaths of lands to 
help our animals actually survive the changes. And I appreciate 
the question, because we are the experts of living in these 
areas for 20,000 years or more. And we are already seeing 
mercury seeping from the Richardson Mountains. We can find 
mercury in our fish, we can find the slumping of our lands, the 
draining of lakes. And there was a river that reversed in the 
Yukon, as well.
    How do you prepare for something like that? It is all of us 
working together, and that includes the animals, because some 
of this, a lot of it, will be irreparable and unchangeable. The 
best thing that we can do to survive, as an indigenous people, 
is to have protected lands and to protect the animals that have 
nursed us through an Ice Age, who have brought us the strength 
that we have today. That is the way that we are going to 
weather this storm. It is together, and that includes the 
animals. Mashhi'.
    Mr. Levin. Go right ahead, sir. Please.
    Mr. Joseph. When we think about climate change and the 
impact that it can have on animals, we have to think about all 
of what we are experiencing in Alaska. It is just not on the 
Coastal Plains that we are experiencing it. We are also 
experiencing it in the interior.
    There is a lot of bank erosion that is happening on the 
main river streams, and even in the creek beds, which is 
changing the way that we live off the land. We are seeing a lot 
more of our traditional hunting camps and fishing camps go 
away.
    I was talking to our friend, Mr. Fenton, earlier, and we 
were speaking about the impacts of climate change upon the 
Coastal area, and it is significant. It is significant 
everywhere. And in Alaska, we are experiencing it more than 
others.
    Mr. Levin. Despite the incredible importance to the Coastal 
Plain, the Trump administration seems intent on making leasing 
there into a test run for how fast they can complete an 
Environmental Impact Statement. They are rushing to meet 
arbitrary internal deadlines and to get a lease sale done over 
2 years early.
    And I understand that the Administration's draft EIS says 
communities would not experience significant restrictions on 
uses of the area. Could anyone on the panel explain whether or 
not you think the EIS is correct in its findings?
    Mr. Joseph. Thank you for the question. When I look at the 
NEPA process and the ANILCA 810 intent, that has been greatly 
undermined by the fast-tracking process that has been put into 
place. And we can count through it many times.
    One of the reasons for the ANILCA 810 was to make sure that 
it protected Alaska Native rights, and all those people that 
could be impacted on any potential development. That was the 
key.
    From that point, when we look at the NEPA process, and we 
look at the analysis that was done in the EIS for the ANILCA 
810, or the ANILCA 810 analysis, it left out the Gwich'in. You 
can't just put this to a certain location that was so neatly 
done on a map: ``It is only impacting this group of people 
right here, because I am closer than you.'' What we are talking 
about is the full impact and the impact on all the Native 
people that rely on the resources within that area.
    The caribou don't know boundaries. They have a migration 
pattern. That migration pattern is really essential, and it 
goes through the lands of these people that we are talking 
about, about the Gwich'in, when the Gwich'in depend on the 
caribou.
    Mr. Levin. We are out of time right now, but I want to 
thank you so much for traveling so far to be here with us 
today. Thank you.
    Dr. Lowenthal. Mr. Hern, you have 5 minutes for questions.
    Mr. Hern. Thank you, Mr. Chairman. Republican Leader, Mr. 
Gosar, thank you so much, and for our witnesses for being here 
today on the topic of the Arctic National Wildlife Refuge.
    As we all know, this topic is of great importance, as the 
oil and gas sector has historically served as a significant 
source of employment revenue and reliable energy for the state 
of Alaska and the Alaska Natives.
    However, here in Washington, people often talk about things 
they know very little about, and do not allow the true experts 
in the field to discuss their views on important topics. To 
save myself from making this same mistake, I would like to 
yield my time to a gentleman who has a great deal of knowledge 
on this topic, Congressman Gosar.
    Dr. Gosar. I want to put my second slide up there. Can we, 
please?
    I am sorry, third slide.
    [Laughter.]
    Dr. Gosar. You like that? The blue? Yes.
    [Slide.]
    Dr. Gosar. Look at the size. Look at what was detailed over 
here on this map. And now concentrate it very smally up there, 
in that upper right. Now, I am going to ask a question, and I 
am going to ask very carefully, starting from the right, 
working to my left.
    Is the caribou herd smaller or bigger now?
    Mr. Rexford. Thank you for that question. There are similar 
caribou herds in the Arctic. There is the western Arctic 
caribou herd, the central Arctic caribou herd, and the 
Porcupine caribou herd. These two central herds and the 
Porcupine here commingle. Central caribou herd have been 
collared. They go into Arctic Village. They go down south. So, 
why aren't they worried about the central Arctic herd, as well 
as the Porcupine herd? Because the Porcupine is not the only 
herd. They have increased. And there was a recent report that 
the Porcupine caribou herd increased.
    I just wanted to emphasize again Porcupine is not the only 
herd. And then the central Arctic herd, and they commingle and 
mix each other up. Sometimes the Porcupine herd go to the 
Prudhoe Bay fields and stick around there for a while. The 
central Arctic herd would go back, go south, and migrate, and 
hang around the Arctic Village. So, there is commingling. You 
cannot call a herd Porcupine herd when they are commingled, 
and----
    Dr. Gosar. Well, what we have seen from scientific data is 
they have gone up. Let me ask you one more question, Mr. 
Rexford.
    We were told when we were up there, in consultation with 
the tribes, that the pipeline has had no ill effect at all on 
the caribou herd.
    Mr. Rexford. Yes, we have had the same fear. And when the 
well was discovered in 1968, sir, we had the same fear. We were 
fearful. We were against development. We were thinking that the 
caribou would not be there, the waterfall would not return, we 
would not be able to hunt.
    So, these kind of things are not there, because the caribou 
and the waterfall are coming back.
    Dr. Gosar. All right. Chief, I want to come to you, because 
you showed some interest in this. Please explain to me how a 
road is irreparable. And I need to understand the geological 
structure, how it is irreparable on a road.
    Mr. Tizya-Tramm. Science easily shows that, just from two-
dimensional exploration.
    Dr. Gosar. No, it doesn't.
    Mr. Tizya-Tramm. In the 1980s, in Alaska, those roads--
there are reports that show that the trails are still there. 
And as a people that live in the same area with permafrost, 
even driving a four-wheeler over these very sensitive areas can 
kill some of the flora that these caribou need to eat. It is 
some of the highest nutrients in the grasses in this area.
    Dr. Gosar. Once again, I will come back to you. Is the herd 
increasing or decreasing?
    Mr. Tizya-Tramm. If you look at this----
    Dr. Gosar. No, it is one or the other. The science shows 
that it is increasing.
    Go ahead.
    Mr. Alexander. The Porcupine caribou herd has been growing 
because we are picking up the remnants of the central herd, 
because they are trying to leave their polluted homelands and 
live under the stewardship of the Gwich'in.
    Dr. Gosar. Once again, that is not scientific fact. 
Unfortunately, you have to give me something more on science, 
because what you are----
    Ms. Demientieff. It is traditional knowledge.
    Dr. Gosar. It is not showing us, because the herd is 
actually increasing.
    I will yield back.
    Dr. Lowenthal. Thank you. And now I offer 5 minutes to 
Representative DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. If you look at that 
exhibit that is up on the screen right now, there is no 
pipeline right now in Kaktovik. Is that correct, Chief?
    Mr. Tizya-Tramm. That is correct.
    Ms. DeGette. The pipeline is over in Prudhoe Bay, is that 
right?
    Mr. Tizya-Tramm. Correct.
    Ms. DeGette. And what you are saying is that some of the 
herds have commingled, and they have gone over to the Porcupine 
caribou area. Is that correct?
    Mr. Tizya-Tramm. That is correct.
    Ms. DeGette. And from 2008 until 2016 under the Obama 
administration that area was managed as a wilderness area. Is 
that correct?
    Mr. Tizya-Tramm. Correct.
    Ms. DeGette. So, that is the time the herds have gone up in 
number, right?
    Mr. Tizya-Tramm. Yes.
    Ms. DeGette. I also want to thank our Gwich'in friends for 
coming today, and everybody for coming. I actually have been to 
these lands some years ago, and I actually camped on these 
lands some years ago. I didn't just go there and stay in some 
hotel and fly over. I went and camped and walked your lands--
thank you for letting me visit--and I saw 45,000 caribou, 
Porcupine caribou, on one mountainside over here, and they were 
migrating to the plains to engage in their calving process.
    So, I agree with what you are saying, having seen it. And I 
do think Mr. Young and others--that is why I wanted to come 
today. I think it is important to see a place when you are 
talking about legislating about that place, or building oil and 
gas pipelines, and all of the other things that Congressman 
Huffman talked about here. And I did see it, and I know those 
45,000 caribou, they don't just stay in one place, where the 
line is marked. They move through.
    And I also met with many of the Gwich'in leaders when I was 
there, and I learned how integrated you and the Porcupine 
caribou are. You are part of the same. And I understand that, 
and many of us understand it.
    So, I really want to thank you for coming to talk to us 
about this today. And I also just want to stress what 
Congressman Huffman said, which is these lands have been 
managed as wilderness because of these concerns. It is not like 
suddenly we are removing development that has been there today.
    Ms. Demientieff, I want to particularly thank you for 
coming to my congressional district, Denver, Colorado, to 
testify at a hearing. The Gwich'in Steering Committee, 
Defenders of Wildlife, Alaska Wilderness League, and the 
Wilderness Society hosted these hearings across the country, 
because the BLM wouldn't. And you were there. I want to thank 
you for coming there, too.
    And Mr. Chairman, I would like to ask unanimous consent to 
enter for the record the community hearing that was held on 
March 7 for the ANWR in my district.
    Dr. Lowenthal. Without objection.
    Ms. DeGette. And I want to apologize for not being there. I 
was here voting. And I always tell my constituents you really 
want me in Washington, voting, when we have the votes.
    Thank you for coming. I wonder if you could tell us, Ms. 
Demientieff, about what happened at that hearing, and the 
testimony that we heard in Denver on that day.
    Ms. Demientieff. Sorry, thank you. And it was really nice 
visiting your state.
    There was not one person who testified that wanted to open 
such a special place. I was really, really welcome. Everybody 
was very kind. And I think we understand the importance of 
these places, because once they are ruined, they are ruined. 
You can never go back, and you can never take back.
    But the damage that you cause there with oil and gas 
development, we already see that in Alaska. We already see the 
damages all across. And that is why we are fighting so hard for 
the Porcupine caribou herd. We are not asking for anything. We 
are asking to keep our identity as Gwich'in.
    But your state was very kind, all of them, and not one 
person testified to open this area.
    Ms. DeGette. Mr. Alexander, can you just explain for the 
record why the roads--I think it was you, or maybe, Chief, it 
was you--if you can, just explain why these roads are not 
easily reversed. Someone said it very briefly, because of the 
permafrost.
    Mr. Alexander. The tundra is a very sensitive place. And I 
don't know if it is understood well, but the changes and the 
impacts of something on the tundra, they last for decades and 
decades.
    When I served in the military, we understood the impact in 
the areas we operated in. And Alaska has had a large--there has 
been a large footprint of military involvement in the state 
because, as you know, it was invaded in the 1940s. So, there 
are a lot of remnants of that material. And it still exists, 
because the decay time is so slow. That impact prevents, those 
roads, they don't just go away.
    Ms. DeGette. It is because of the tundra and the 
permafrost, is that right?
    Mr. Alexander. Absolutely.
    Ms. DeGette. Thank you very much.
    Mr. Alexander. And as it is melting, it becomes even more 
vulnerable.
    Ms. DeGette. Right. Thank you very much.
    Thank you, Mr. Chairman, for your commenting.
    Dr. Lowenthal. Thank you. That is going to bring us to a 
conclusion of this panel. I want to thank the panelists. But 
before you get up, I want to tell you this has been a very, 
very, very important panel. You have provided us with a great 
deal of information. And it has been very meaningful.
    I also want to encourage my colleague, Mr. Huffman, and 
offer my support for trying to create a CODEL to this area. I 
think this would be amazingly important, that we come and visit 
ourselves. I mean this is such a critically important topic. I 
thank Mr. Huffman, I thank the panelists, and now I thank the 
Members, too. It got a little testy, but that is because of the 
passion and the importance of this issue.
    I want to thank you for coming, and I want to have a second 
panel come up to the table.
    [Pause.]
    Dr. Lowenthal. First, I would like to introduce the panel.
    We have Bishop Mark Lattime. Bishop Lattime is the Bishop 
of Alaska for the Episcopal Church.
    Next we have Dr. Steven Amstrup, Chief Scientist at Polar 
Bears International.
    Then we have Mr. Chad Brown, Founder and President of Soul 
River, Incorporated.
    Then Mr. Richard Glenn, Executive Vice President for 
External Affairs at the Arctic Slope Regional Corporation.
    And Mr. Matthew Rexford--name sounds familiar from the 
last, I believe you are the nephew--and you are the Tribal 
Administrator for the Native Village of Kaktovik.
    Let me remind the witnesses that they must limit their oral 
statements to 5 minutes, but that their entire statements will 
appear in the hearing record.
    When you begin, the lights on your witness table will turn 
green. After 4 minutes, the yellow light will come on. Your 
time will have expired when the red light comes on, and I will 
ask you to please complete your statements. I will try to let 
you complete them first before I do that. I was, I thought, 
very generous with the last panel.
    I will also allow the entire panel to testify before we do 
any questioning.
    The Chair now recognizes Bishop Lattime for 5 minutes.

STATEMENT OF RIGHT REVEREND MARK LATTIME, BISHOP OF ALASKA, THE 
              EPISCOPAL CHURCH, FAIRBANKS, ALASKA

    Rev. Lattime. Thank you, Chairman Lowenthal, Ranking Member 
Gosar, members of the Subcommittee. I do thank you for this 
opportunity to speak to you about H.R. 1146, the Protection of 
the Coastal Plain of the Arctic National Wildlife Refuge, 
Arctic culture, and the Gwich'in way of life.
    I am Mark Lattime. To the Gwich'in, I am Ginghe Cho, the 
Bishop of the Episcopal Diocese of Alaska. My diocese covers 
the entire state of Alaska, with parishes from as far southeast 
as Ketchikan to as far northwest as Point Lay on the Arctic 
coast. It is a diverse diocese, with large, urban parishes in 
cities like Anchorage, Fairbanks, and Juneau, to rural 
communities accessible only by air or boat. Most of my 
Episcopal communities, however, are found in villages 
throughout the interior, many of which are Gwich'in.
    A significant part of a bishop's ministry is to visit 
communities within the diocese, to be present with the people 
there in prayer and worship, and to walk with them in their 
faith journey. In my travels around the diocese, I have 
observed, even in my short 9 years, the accelerating effects of 
climate change. While the physical effects of climate change 
are easy to measure, I have seen loss of sea ice, coastal 
erosion, shifts in animal migrations, receding glaciers, and 
melting permafrost.
    The human effects are too often left under-reported, or all 
together ignored. From my pastoral ministry to the people of 
Alaska, I can sadly report that climate change has profound 
consequences on human spirituality and identity. This is 
especially true for those who live closest to the land: 
Alaska's indigenous people.
    Communities that have thrived for tens of thousands of 
years in sustainable relationship with the land and animals are 
now being forced to evacuate their traditional homes. 
Indigenous social values of sharing and mutual care of one's 
community and elders, and even care of one's self are breaking 
down, as individuals are forced to abandon their traditions and 
the land of their ancestors to find work in the very industries 
that are hastening their own cultural demise.
    There is an insidious cultural genocide to the march of 
climate change. And our economic interests--yours and mine--are 
complicit in this march. This reality troubles my soul and 
haunts my prayers. The challenges of the human contribution to 
climate change are, therefore, deeply personal and spiritual to 
me, especially as I am convicted by my faith to seek justice 
and peace among all people, and to respect the dignity of every 
human being. Or, as Jesus said, to love my neighbor as I love 
myself.
    The Episcopal Church recognizes climate change as a justice 
issue. This Lent our presiding bishop, Michael Curry, called 
upon the church to make climate justice a matter of prayerful 
action, and invited all Episcopalians to renew our commitment 
to loving, life-giving stewardship of the land.
    As we have heard this afternoon, the Gwich'in call the 
Coastal Plain the Sacred Place Where Life Begins. This is not a 
casual, self-interested statement. It is, in fact, a profound 
understanding of the immutable relationship between God and 
creation, and it is consistent with biblical faith.
    Sacred space is not exclusively determined by the church, 
or by bishops, for that matter, nor is it defined by the walls 
of any house of worship. Sacred space is God's space, where the 
one who is present in all creation is recognized, if only 
dimly, by eyes open to seeing what is beyond human 
understanding.
    As Wendell Berry has said, ``Sacred space is where we stop 
and turn to realize the worth of things is not ours to assign. 
God assigns worth and value.'' Discerning the value and worth 
God gives to the land, the creatures, and the people of this 
world is the foundation of faithful stewardship, and it is my 
faith that it is the very God who loves the world so much that 
he sent his only son, Jesus, to save it that shows us also how 
to value it.
    Long before the first missionaries arrived in Alaska, the 
Gwich'in were exercising faithful stewardship of the Porcupine 
caribou in the land we now call the Alaska National Wildlife 
Refuge. As a Christian and a bishop, I would rejoice if more 
people were to follow the example of the Gwich'in and recognize 
the importance of honoring the holiness of this good earth, our 
island home, and the importance of setting apart portions of it 
as sacred.
    Therefore, I beseech you. I beseech you on behalf of a 
loving and life-giving God who fills all things because He 
created all things, to give prayerful consideration to H.R. 
1146, upholding the faithful stewardship of the Gwich'in 
culture, and protecting the Sacred Place Where Life Begins.
    Thank you very much.

    [The prepared statement of Rev. Lattime follows:]
 Prepared Statement of the Right Reverend Mark Lattime, Bishop of the 
             Episcopal Diocese of Alaska, Fairbanks, Alaska
    At issue are two different and fundamentally opposed views with 
respect to the land. Drilling in the Coastal Plain must be seen in 
light of the legacy of colonialism, racism, and the Doctrine of 
Discovery, and the opposition of these to Indigenous peoples' 
relationship to the land. It is from this foundation that The Episcopal 
Church's views on environmental justice, economics and climate issues 
lead us to oppose the industrial exploitation of the Sacred Place Where 
Life Begins. In order to fully understand this context, it is necessary 
to establish a foundational understanding of the Doctrine of Discovery 
and how in the past, and today, it attempts to justify exploitation.
    The Doctrine of Discovery is the cumulative policy established 
through a series of policies and statements issued by the Bishops of 
Rome during the 15th century. The Episcopal Church's Missioner for 
Indigenous Ministries, the Reverend Dr. Bradley Hauff (Lakota Sioux), 
summarizes the outcome of these policies ``as a blessing on the 
dispossession of land, wanton theft, slavery, and enforce 
indoctrination, all in the name of God, and for the perceived good of 
the world.'' \1\ These teachings were not exclusive to the Roman 
Catholic Church, Queen Elizabeth I and other Protestants gladly adopted 
similar views to justify their actions in Africa and the Americas for 
hundreds of years to come.
---------------------------------------------------------------------------
    \1\ https: / / cqrcengage.com / episcopal/file/R4Uf9M88Bag/
Brad%20Hauff%20EAM%20Paper%20 2018.pdf.

    Sadly, this concept and the sins it gave rise to are not a vestige 
of the past. The Doctrine of Discovery has been ingrained into our 
American identity and economic system. As former Presiding Bishop of 
the Episcopal Church, The Most Reverend Katharine Jefferts Schori, 
---------------------------------------------------------------------------
stated in a Pastoral Letter to the Church:

        The ongoing dispossession of Indigenous peoples is the result 
        of legal systems throughout the ``developed'' world that 
        continue to base land ownership on these religious warrants for 
        colonial occupation from half a millennium ago. These legal 
        bases collectively known as the Doctrine of Discovery underlie 
        U.S. decisions about who owns these lands. The dispossession of 
        First Peoples continues to wreak havoc on basic human 
        dignity.\2\
---------------------------------------------------------------------------
    \2\ https: / / www.episcopalchurch.org / posts / publicaffairs / 
episcopal-presiding-bishop-katharine-jefferts-schori-issues-pastoral-
letter.

    The Doctrine of Discovery is the underlying legal theory that has 
led to the current system of reservations, restricted sovereignty, and 
today potential violation of the Gwich'in peoples' human rights. While 
our legal system is still weighed down by the Doctrine of Discovery, 
The Episcopal Church has worked to change and come into a more 
Christian relationship with Indigenous people and the God we all seek 
to know and serve. The Gwich'in people's encounter with early Anglican 
and Episcopal missionaries was not unlike that of other Indigenous 
peoples in North America. Some of the missionaries came with an agenda 
of social and cultural assimilation, which included the establishment 
of church-run residential schools. Others came with a more theological 
motivation--to introduce Jesus Christ to the people without an 
assimilation agenda.
    Learning the Indigenous languages and living among the people 
within their cultural context was essential to achieving this, and some 
were committed to it, not merely as an evangelistic approach, but as a 
culturally integrated and theologically integrated manner of life.
    One very influential missionary to the Gwich'in was the Reverend 
Robert McDonald (1829-1913). McDonald married Julia Kutuq, a Gwich'in 
woman, with whom he had nine children. He achieved lasting recognition 
for his translations, having established an alphabet for the previously 
oral Gwich'in. With the help of various Native speakers of the 
language, he translated the Bible, Book of Common Prayer and many hymns 
into Gwich'in (which he called Takudh and, later, Tukudh). His 
translation work helped unify the various tribes speaking similar 
Athabascan languages. In 1911, he published a dictionary and grammar 
for the language under the title of ``A Grammar of the Tukudh 
Language.'' With these accomplishments, McDonald is in the same 
category of missionaries as the Reverend Samuel Hinman, who lived among 
the Lakota/Dakota, married a Native woman, became fluent in the 
language, and translated portions of the Bible and the Book of Common 
Prayer into Dakota, as well as developing the Dakota Hymnal, which is 
still in use within Episcopal Dakota/Lakota communities to this day.
    Unlike missionaries inspired by the Doctrine of Discovery, these 
two (McDonald and Hinman) did not see a need to force Indigenous people 
to learn English; rather, they learned the Indigenous languages. By 
doing so, they served as custodians and purveyors of Indigenous 
languages, contributing to their preservation within an environment 
where the Federal Government was trying to have them discontinued in 
favor of English through assimilation processes.
    To the present day, Indigenous language preservation has been one 
of the roles of the church within Indigenous communities. Language is 
important, because without it one cannot truly know and experience the 
depth of Indigenous culture and spirituality. So, language preservation 
is one way in which Gwich'in traditions are preserved by and within the 
church.
    Another way is by recognizing and acknowledging the pre-colonial 
presence of Christ as found within Gwich'in traditions and spiritual 
expressions. Inherent in this is the conviction that, when the early 
missionaries brought Christianity to the Gwich'in (and all other 
Indigenous tribes for that matter) they really weren't bringing 
anything to the people that they didn't already know and have. The 
Indigenous peoples didn't know about the first century Jesus of 
Nazareth, but they did know Christ within their own teachings, 
especially with regard to compassion, generosity, and living in right 
relationship with all of creation, values that are found within 
Gwich'in traditional life and that of Indigenous tribes universally.
    It is difficult to overstate the theological and moral importance 
of this point. The places and traditions, such as the Gwich'in Sacred 
Place Where Life Begins, that are sacred to Indigenous people today and 
before the introduction of formal European Christianity are still 
sacred under Christian teachings. Christians believe that Christ became 
human and engaged with us directly, as told in the Gospels. 
Additionally, the Holy Spirit has and does work among and through us in 
ways that are often hidden and indirect. Locations and traditions of 
Indigenous people are sacred because they are how the Holy Spirit 
engaged and taught them for thousands of years.
    The Doctrine of Discovery was a sin against our neighbors because 
it dehumanized them, it violated their rights, it tried to justify 
slaughter, and it was founded in hate, greed, and vanity. The Doctrine 
of Discovery was also a sin against God, because it was and still is 
used to justify the desecration of places and traditions made sacred by 
the Holy Spirit prior to the introduction of the Gospels and Jesus.
    The sins of previous generations have also warped and harmed the 
way we view and interact with God's Creation. The Doctrine of 
Discovery, and the legal and economic theories it has evolved into 
today, argued that God's Creation was a commodity for people to 
exploit. It transformed the traditional relationship between God's 
human and non-human creations from a respectful co-existence to a 
transactional exploitation. Just as the Doctrine of Discovery justified 
the enslavement of people it taught us that the earth was also our 
slave to be hedonistically used and exploited. Today, we see the impact 
of this heresy through climate change, pollution, toxic waste sites, 
Super Fund sites, and communities made sick as a result of our 
irresponsible use of God's Creation.
    In my travels around the Diocese, I have observed, even in my short 
9 years, the accelerating effects of climate change. While the physical 
effects of climate change are easy to measure: loss of sea ice, coastal 
erosion, shifts in animal migrations, receding glaciers, and melting 
permafrost; the human effects are too often left under-reported or all 
together ignored. In my pastoral ministry to the people of Alaska, I 
can sadly report that climate change has profound consequences on human 
spirituality and identity.
    This is especially true for those who live closest to the land: 
Alaska's indigenous people. As someone who is invited to pray and 
participate in the lives of the people of Alaska, to walk with them, 
through the struggles of life in a changing and uncertain world, I have 
firsthand experience how climate change has affected their lives and 
spirit. Communities that have thrived for tens of thousands of years in 
sustainable relationship with the land and animals are now being forced 
to evacuate their traditional homes. Indigenous social values of 
sharing and mutual care for one's community are breaking down as 
individuals are forced to abandon their traditions and the land of 
their ancestors to find work in the very industries that are hastening 
their own cultural demise.
    There is an insidious cultural genocide to the march of climate 
change, and our economic interests are complicit in this march. This 
reality floods my prayers and troubles my soul. The challenges of 
climate change are, therefore, deeply personal and spiritual to me, 
especially as I am convicted by my faith to seek justice and peace 
among all people and to respect the dignity of every human being.
    The Episcopal Church recognizes climate change as a justice issue. 
This Lent, our Presiding Bishop called upon the Church to make climate 
justice a matter of prayerful action and invited all Episcopalians to 
renew our commitment to loving, life-giving stewardship.
    It is time for our Nation and world to undo the social and 
environmental impacts of previous centuries. We must shift from a 
transactional relationship to a cooperative and equal balance. This is 
not done through actions alone but must include shifts in our 
philosophy and societal behaviors. We must work to live in a state of 
balance and harmony with God's Creation--human and non-human--for we 
are all equally entitled to prosper. Our Church has begun this work, 
however humbly, through a number of changes enacted by our General 
Convention--a legislative body elected by our members that serves as 
our official decision-making body.
    Since the early 1990s the Church has officially opposed drilling 
within the Arctic National Wildlife Refuge (1991-D125). This has been 
renewed many times, including last summer as we considered this most 
recent assault on the Gwich'in people, their way of life, and their 
faith. In pursuit of eco-justice, the Church has articulated it support 
for the self-determination of Indigenous tribes (2012-B023) and 
renounced the Doctrine of Discovery (2009-D035) in both its political 
and theological applications.
    As part of the Church's work to ensure the responsible and 
sustainable use of God's creation, the Church has called for 
significant efforts to transition the world, our Nation, and the 
economy away from fossil fuels. Recognizing that such changes will have 
adverse side effects for those currently employed in these legacy 
industries, the Church must work to support their transition. No 
commitment to environmental justice can be complete without advocating 
for those, who, through no fault of their own, will be harmed by the 
transition to renewable and clean energy.
    In my Diocese, Alaska, this transition will be incredibly 
difficult, but we must stop making the problem worse before we can 
seriously address the future. The Arctic National Wildlife Refuge is 
more than a wilderness preserve established to protect delicate arctic 
ecosystems, it is also a sacred place: the spiritual and cultural home 
of the Gwich'in people. Gwich'in identity--what it means to be a 
people--cannot be separated from the land and the caribou who thrive 
there; and long before the Church arrived, the Gwich'in recognized the 
sanctity of this place where life begins.
    Therefore, protecting the Arctic National Wildlife Refuge and 
especially the Coastal Plain, is more than an effort to preserve the 
tundra, the caribou, or the caribou calving grounds. Protecting the 
Arctic National Wildlife Refuge is a matter of justice, a sacred trust 
that honors and preserves the life, culture, and spiritual integrity of 
a people.
    As a Christian and a Bishop, I frame my support for policy like 
H.R. 1146 in the context of Biblical and theological understandings. 
The Gwich'in recognize the Coastal Plain as ``The Sacred Place Where 
Life Begins.'' This is not a casual self-interested statement. It is, 
in fact, a profound understanding of the immutable relationship between 
God and creation, and it is consistent with Biblical faith. Sacred 
space is not exclusively determined by bishops or the Church, nor is it 
defined by the walls of any house of worship. Sacred space is God's 
space, where the One who is present in all Creation is recognized, if 
only dimly, by eyes open to seeing what is beyond human understanding. 
As Wendell Berry has said, ``sacred space is where we stop and turn to 
realize the ``worth'' of things is not ours to assign, God gives worth, 
value.''
    As a Christian and a bishop, I would rejoice if more people were to 
follow the example we have from the Gwich'in and recognize the critical 
importance of honoring the sacred nature of this good earth--our island 
home, and to set apart portions as sacred.
    If Congress will not respect the Gwich'in peoples' Constitutional 
right to the free exercise of their religion--which designates this 
space as sacred and is a view upheld and supported by our Church--then 
I hope you will consider history. History does not look favorably on 
those leaders who utilized the Doctrine of Discovery and its later 
embodiments to justify the physical and cultural slaughter of 
Indigenous people. Today, this generation, this Congress has the choice 
to perpetrate the same sins of our forefathers or to learn, grow, and 
work for a better world than they did.
    I beseech you on behalf of a loving, liberating, and life-giving 
God who fills all things because He created all things, to pass H.R. 
1146 and protect the Holy and Sacred Place Where Life Begins.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Bishop.
    Next we have Dr. Amstrup.

 STATEMENT OF STEVEN C. AMSTRUP, CHIEF SCIENTIST, POLAR BEARS 
                INTERNATIONAL, BOZEMAN, MONTANA


    Dr. Amstrup. Thank you. Chairman Lowenthal, Ranking Member 
Gosar, members of the Subcommittee, I thank you for the 
opportunity to speak today. I am Steven C. Amstrup, Chief 
Scientist for Polar Bears International.
    At Polar Bears International we work to assure survival of 
polar bears and the Arctic sea ice on which they depend through 
research, outreach, and education.
    Prior to joining Polar Bears International, I served five 
administrations, from Ronald Reagan to Barack Obama, as polar 
bear project leader for the U.S. Geological Survey between 1980 
and 2010. During those 30 years in Alaska, I authored and co-
authored over 150 scientific papers documenting ecology, 
movements, and population status, and that the Arctic Refuge 
Coastal Plain is the most important place in Northern Alaska 
where mother bears give birth to their cubs.
    In 1980, when I first took over polar bear studies, I could 
stand on the northern shore of Alaska in the summer time and 
see the sea ice. It was right there. If I was lucky, I might 
even see a polar bear out there. By the latter years of my 
studies, the summer ice had retreated hundreds of miles 
offshore, was beyond the curvature of the earth, and it was 
increasingly clear that this retreat was a problem for polar 
bear welfare.
    In 2007, I spearheaded USGS research efforts that convinced 
Secretary of the Interior Dirk Kempthorne to list the polar 
bear under the U.S. Endangered Species Act. In a conference 
call with my entire research team, Secretary Kempthorne 
candidly admitted the Bush administration did not want to list 
polar bears, but our evidence regarding the threats of 
anthropogenic global warming had convinced him that listing was 
his only choice, and that it was the right thing to do.
    Polar bears everywhere face dire threats, but the polar 
bears of the southern Beaufort Sea in Alaska are the most 
threatened of all. Unless climate change is addressed quickly, 
this Alaskan population may be the first to disappear. Sea ice 
extent has retreated faster there than anywhere else. We 
recently documented a 40 percent population decline, and the 
government is now proposing oil development on vital maternal 
denning habitat.
    Until society takes the necessary actions to halt 
greenhouse gas rise, which is the only way to stabilize the 
climate and stabilize the sea ice, conserving onshore habitats 
in the Arctic refuge plain will be critical to assuring that 
polar bears persist. Each winter more pregnant female bears 
give birth to their cubs on the Arctic Refuge than any other 
area in Alaska. Seismic testing, road building, and drilling 
pose significant on-the-ground threats to denning mother bears 
and their cubs, and the record shows that existing detection 
and avoidance measures do not adequately protect denning bears 
from these disturbances.
    Let me be perfectly clear: Every maternal den matters. Of 
80 cubs that we tagged during our research between 2003 and 
2007 in the southern Beaufort Sea, only 2 were known to 
survive. Additional disruptions of denning cannot be allowed if 
we really care about the future of this population.
    Oil development on the Arctic Refuge will add to ongoing 
global warming. Seismic testing, road building, and drilling 
pose significant on-the-ground threats to denning mother bears 
and their cubs. And given that the reproductive success in the 
southern Beaufort Sea polar bear population is already severely 
compromised, additional impairment of denning success from oil 
and gas exploration and development is sure to exacerbate the 
ongoing decline of this imperiled population.
    Just as Secretary Kempthorne did in 2008, this Subcommittee 
and Congress need to take bold steps to protect polar bears and 
their Coastal Plain habitats on the Arctic Refuge. For this 
reason, I support passage of the Arctic Cultural and Coastal 
Plain Protection Act.
    Thank you.

    [The prepared statement of Dr. Amstrup follows:]
  Prepared Statement of Dr. Steven C. Amstrup, Chief Scientist, Polar 
                 Bears International, Bozeman, Montana

                              Introduction

    Chairman Lowenthal, Ranking Member Gosar, members of the 
Subcommittee, thank you for the opportunity to speak to you today on 
this very important piece of legislation, the Arctic Cultural and 
Coastal Plain Protection Act.
    My name is Steven C. Amstrup, and I am the Chief Scientist for 
Polar Bears International (PBI), a global resource collecting and 
dispersing information on how to preserve polar bears and their 
habitat. At PBI, I advise and conduct research, publish in scientific 
outlets, and make sure PBI's education and outreach efforts are based 
on the best available science. I put the latest scientific information 
about threats to polar bears from global warming and threats from on 
the ground threat multipliers, into language and context understandable 
by the general public. I also communicate that information to media, 
and in a variety of speaking and writing formats.
    Prior to joining PBI, I was Polar Bear Project Leader for the U.S. 
Geological Survey (USGS) between 1980 and 2010. I am a past chairman of 
the International Union for the Conservation of Nature (IUCN) Polar 
Bear Specialist Group and have been an active member of this 
international group of polar bear experts since 1980. During my 30 
years directing and conducting polar research in Alaska I authored or 
co-authored over 150 scientific papers many of which addressed basic 
questions about movements, distribution, and population dynamics of 
Alaskan polar bears. I observed that they only reliably catch their 
prey (principally two species of seals) from the surface of the sea 
ice, I documented seasonal movements including where polar bears go to 
give birth to their cubs, and I discovered that retreating sea ice was 
impacting their welfare. In 2007, I spearheaded the USGS research 
effort informing Secretary of the Interior Dirk Kempthorne whether to 
list the polar bear under the U.S. Endangered Species Act (ESA). In 
response to the research I led, Secretary Kempthorne decided to list 
polar bears as a Threatened Species in spring of 2008. With his action, 
Secretary Kempthorne made polar bears the first species ever listed 
under protections of the ESA because of threats to their future 
existence from anthropogenic global warming. In a conference call with 
my entire research team, Secretary Kempthorne candidly admitted that 
the Bush administration did not want to list polar bears, but that our 
evidence had convinced him that it was his only choice, and that it was 
the right thing to do.
    As I explain in this testimony, it is vital to protect the Coastal 
Plain from oil and gas development. Oil and gas development on the 
Arctic National Wildlife Refuge Coastal Plain will accelerate the 
decline of the region's already imperiled polar bear population. This 
development will exacerbate the current trends in our climate and 
further sea ice loss. Sea ice is where polar bears catch their food and 
is the crux of their livelihood. On the ground impacts of oil and gas 
development will multiply threats from habitat losses caused by a 
warming climate and will make it more difficult to stop the extirpation 
of threatened polar bears from the United States. Until society takes 
the necessary actions to halt the rise of atmospheric greenhouse gas 
concentrations, which is the only way to stop warming and stabilize sea 
ice, conserving onshore habitat for polar bears will be of utmost 
importance to preserving this species.
    The Arctic Refuge Coastal Plain provides critical onshore habitat 
where threatened polar bears establish maternal dens in the winter. 
With recent warming, traditional summer foraging on the sea ice is no 
longer possible and an increasing number of bears also use the Coastal 
Plain as resting habitat during the ever longer ice-free season. As the 
world continues to warm and sea ice continues to decline, this area 
will only become more important to polar bears and their cubs during 
both the summer and winter months. Oil and gas activities such as 
seismic exploration, and subsequent leasing and development, will cause 
disturbance and potential direct lethal impacts to polar bears on the 
Coastal Plain. Past experiences confirm we do not have methods or 
technology to avoid these impacts. Much like the original listing of 
polar bears by Secretary Kempthorne, protecting the Arctic Refuge 
Coastal Plain is a politically charged issue, but it is the right thing 
to do in light of the evidence and importance of conserving polar 
bears.

                   WHY IS THIS LEGISLATION IMPORTANT?

                               Background

Polar Bears Depend on Sea Ice for Catching Their Prey
    Polar bears inhabit most ice-covered seas of the Northern 
Hemisphere. They are circumpolar in distribution but limited to areas 
covered by sea ice for most of the year. They occur in 19 identified 
populations (http://pbsg.npolar.no/en/status/status-table.html) all of 
which feed principally on ringed (Pusa hispida) and bearded seals 
(Erignathus barbatus) (Amstrup 2003). Polar bears can predictably catch 
seals only from the surface of the sea ice, establishing a fundamental 
link between sea ice availability and polar bear welfare (Amstrup 2003, 
Rode et al. 2015). The fossil record verifies the polar bear's reliance 
on adequate sea ice cover. During Pleistocene glacial periods, sea ice 
extended farther south than it has in recent history. At the end of the 
last continental glaciation (approximately 10,000 years ago) polar 
bears occurred as far south as the Baltic Sea (Ingolfsson and Wiig 
2008). As the world warmed and ice cover in the Baltic became less 
reliable, polar bears did not adopt another way of making a living, 
they simply disappeared from the region.
Sea Ice Extent is Directly Related to Global Mean Temperature
    There is a linear but inverse relationship between sea ice extent 
and global mean temperature (Amstrup et al. 2010). This relationship 
means, as anthropogenic global warming continues, sea ice extent can 
only be further reduced and polar bear distribution and abundance can 
only continue to decline. On the other hand, the linear relationship 
means there is not a tipping point or threshold temperature beyond 
which loss of sea ice becomes irreversible and unstoppable. It also 
means that more sea-ice habitat could be retained if the increase in 
greenhouse gases is mitigated, and that the extent to which sea ice is 
preserved depends on how quickly we address global warming. Therefore, 
continuing declines in polar bear distribution and numbers are not 
unavoidable, and polar bears can still be preserved across much of 
their current range with prompt societal action stabilizing atmospheric 
greenhouse gas concentrations.
Climate Models Accurately Predict Global Mean Temperatures
    Over the period during which we have observational data, climate 
models have been extremely accurate in projecting global mean 
temperature. The mean or average of estimates from 40 accepted models 
closely overlaps the global mean temperature observed between 1880 and 
the present (Figure 1). Therefore, it is reasonable to assume that the 
mean of future global temperature projections accurately represents 
what the earth will experience. The mean of the projected future 
temperatures, like all averages, is composed of a number (40 in Figure 
1) of individual projections. Each of these 40 climate model outcomes, 
represent different possible realizations of the future global 
temperature. We of course will only get to experience one realization 
of the future. When looking over multiple decades, the greatest 
likelihood is that earth's future temperatures will approximate the 
mean of these projected realizations. On shorter time scales (years to 
perhaps two decades), some of these modeled futures are likely to be 
closer to what we experience than others, and the realized temperatures 
in a particular time frame could be near the extremes of the range of 
predictions.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

   Figure 1. Observed and projected change in mean monthly global 
temperatures. Vertical axis illustrates the difference between the mean 
   annual temperature for the preindustrial period of 1880-1909) and 
monthly average temperatures from the late 19th century through January 
 2019, Note that the warmest periods polar bears may have experienced 
during their evolutionary history may have been only about 1.5+ C than 
                        the preindustrial mean.

    Deviations from the mean trend line, caused by the natural chaotic 
fluctuation in the climate system, are the ``uncertainties'' in climate 
predictions people often speak about. Earth has always experienced 
these short-term variations in the climate. Climate fluctuations caused 
by El Nino, the Pacific Decadal Oscillation, or the Arctic Oscillation 
can impact temperatures for up to many years, while shifts in the Polar 
Jet Stream or the Trade Winds often cause more localized and shorter-
term shifts. During the last several thousand years, when atmospheric 
greenhouse gas concentrations were relatively stable, the mean of these 
fluctuations was a flat or horizontal baseline--with no increasing or 
decreasing trend on a multi-centennial scale.\1\ With greenhouse gas 
concentrations constantly increasing these fluctuations continue to 
occur, but the average of all of the fluctuations now compose a 
steadily climbing trendline. Whereas the extremes (severe cold or hot 
spells) in the natural fluctuations often get our attention, it is that 
rising trend line, or average of the fluctuations, that is important. 
Note that Figure 1 does not include any model outcomes suggesting 
temperature stabilization or decreases in the future. This is because 
climate physics require that the earth's average temperature can only 
increase as long as atmospheric greenhouse gas concentrations rise 
(Schneider 1989). At this point in our warming of the world, we are 
still low enough on that rising trend line that some extreme cold 
events still overlap with our historic flat baseline. When this 
happens, it provides momentary doubt about the rising average 
temperature. But whereas we used to experience the same number of 
record hot and record cold spells; record hot spells are now twice as 
frequent as record cold spells. And by the latter part of this century, 
on our current path, we'll see 50 record hot periods for every record 
cold (Meehl et al. 2009), And, summer temperatures over most of the 
world will be higher than anything we've ever experienced (Lehner et 
al. 2016).
---------------------------------------------------------------------------
    \1\ The baseline or average of temperatures over the past several 
thousand years was actually declining as earth has gradually received 
less energy from the sun (Marcott et al. 2013). When viewed over time 
scales of 1,000 years or less however, the trend appears essentially 
flat.
---------------------------------------------------------------------------
    Earth's future temperature is most likely to be near the mean or 
average of predictions in Figure 1, but because all predictions are for 
a much warmer earth, whether or not our true realization is near mean 
or the extremes, continuing on our current course will lead to a very 
different world than that in which polar bears (and humans) have 
thrived.
    The inverse relationship between global mean temperature and sea 
ice extent means that the polar bear's sea ice habitat can only 
continue to decline as temperatures continue to increase. The warmest 
global mean temperature polar bears have experienced since they 
separated from a common ancestor with the current brown bear was 
probably only 1+-1.5+ C higher than preindustrial average. Earth's 
temperature could exceed that as early as next year, or as late as 2050 
depending on which realization of the future we actually experience. 
The greatest likelihood, however, is that global mean temperature will 
be higher than anything in the polar bear's evolutionary history by 
approximately 2030 (Figure 1). Crossing that evolutionary threshold is 
unlikely to spell the immediate demise of polar bears. But, because of 
the linear relationship between global mean temperature and sea ice 
extent, we can be assured that average annual sea ice extent will be 
lower at that time than it is now. We can also be assured that polar 
bears will experience a greater frequency of ``bad'' ice years during 
that decade than they do now, emphasizing the importance of maximizing 
protections from on the ground disruptions.
Polar Bears of the Southern Beaufort Sea are the Most Urgently 
        Threatened
    Anthropogenic global warming has caused an average decline in 
summer sea ice extent of 20.5 percent per decade in the Southern 
Beaufort Sea--the greatest ice retreat experienced by any of the 19 
polar bear populations (http://pbsg.npolar.no/en/status/status-
table.html). In the Southern Beaufort Sea, the productive continental 
shelf, on which polar bears historically foraged through summer is very 
narrow and most polar bears historically spent summer on sea ice 
relatively near shore (Amstrup et al. 2004, Atwood et al. 2016). 
Because of retreating summer sea ice, this former summer hunting 
habitat is now unavailable. In response, polar bears are either forced 
onto land or onto remaining sea ice over the deep and unproductive 
waters of the polar basin. Whether on land or over the deep water of 
the polar basin, food is relatively unavailable (Atwood et al. 2016, 
Whiteman et al. 2018). In response to this decline in available 
habitat, the Southern Beaufort Sea population has declined 40 percent 
in recent years, making it the world's most rapidly declining 
population yet documented.\2\ A major contributor to the observed 
decline is poor cub survival (Bromaghin et al. 2015).
---------------------------------------------------------------------------
    \2\ The Western Hudson Bay population has declined approximately 30 
percent (Lunn et al. 2016) and the Southern Hudson Bay population has 
declined by about 17 percent (Obbard et al. 2018).
---------------------------------------------------------------------------
If Temperatures are Allowed to Continue to Rise, Polar Bears Ultimately 
        Will Disappear
    The rapid sea ice decline, and the limited area of productive 
habitat means polar bears in the Southern Beaufort Sea are among the 
most vulnerable to continued rising temperatures. Unless the rise in 
atmospheric greenhouse gas concentrations is quickly abated, Southern 
Beaufort Sea polar bears are likely to be the first polar bear 
population to disappear. If temperature rise and sea ice loss continue, 
polar bears throughout their range also will be gone.
    Current evidence suggests polar bears broke away from a common 
ancestor with the brown bear around a million years ago. The warmest 
periods experienced during their evolutionary history were less than a 
degree warmer than current temperatures (Hanson et al. 2013, Marcott et 
al. 2013). We know from the fossil record that polar bears disappear 
from areas without sufficient sea ice cover (Ingolfsson and Wiig 2009). 
Without significant mitigation (see Figure 1) the world will be warmer 
within the next two or three decades than at any time during the polar 
bear's evolutionary history, and sea ice extent will be lower than 
anything polar bears ever have experienced. Therefore, we need to move 
swiftly toward sustainable energy sources if we are serious about 
preserving polar bears. Failure to act virtually assures polar bears in 
Alaska, and ultimately across their range, will follow the path of 
polar bears in the Baltic region and simply disappear.

                   WHY IS THIS LEGISLATION IMPORTANT?

Specific Reasons Oil and Gas Development of the Arctic Refuge Must Not 
                                Proceed

Oil and Gas Extraction on the Coastal Plain Will Perpetuate 
        Unsustainable Dependence on Fossil Fuels
    Weaning society from fossil fuel dependence is critical to future 
polar bear persistence in the United States and throughout their 
current range in the circumpolar Arctic. Greenhouse gas emissions from 
extraction and combustion of the oil and gas that may lie under the 
Coastal Plain can only contribute to additional sea ice loss, 
compounding risks to Southern Beaufort Sea polar bears and accelerating 
polar bear declines worldwide. Recognizing that polar bears cannot 
survive unless global temperature is stabilized, the U.S. Fish and 
Wildlife Service Polar Bear Conservation Management Plan (U.S. Fish and 
Wildlife 2016) recommends swift action to mitigate rising 
concentrations of greenhouse gases in the atmosphere. The Conservation 
Management Plan is intended to delineate reasonable actions that U.S. 
Fish and Wildlife Service believes will contribute to the conservation 
of polar bears and was developed in response to the polar bear's 
listing as a threatened species under provisions of the ESA. 
Development of the hydrocarbon reserves that may lie under the Arctic 
National Wildlife Refuge would contribute additional greenhouse gas 
emissions that are contrary to goals of maintaining a climate on earth 
that will allow polar bears to survive. Avoiding fossil fuel 
extraction, on the other hand helps mitigate greenhouse gas rise, and 
will benefit polar bears and their sea ice habitat. Because polar bears 
are sentinels of the Arctic marine ecosystem, trends in their sea-ice 
habitats foreshadow global changes. Therefore, we cannot overlook the 
fact that mitigating greenhouse gas emissions to improve polar bear 
status will have conservation benefits throughout and beyond the 
Arctic.
    Developing oil and gas reserves that may lie under the Coastal 
Plain of the Arctic National Wildlife Refuge is inconsistent with the 
need to halt greenhouse gas rise and move society to sustainable energy 
sources. The Arctic Cultural and Coastal Plain Protection Act (H.R. 
1146) will assure the oil and gas under the environmentally sensitive 
Arctic Refuge Coastal Plain does not contribute to ongoing sea ice 
loss.
Development Would Remove Protections of Critically Important Onshore 
        Polar Bear Habitat
    The U.S. Fish and Wildlife Service Conservation Management Plan 
(U.S. Fish and Wildlife 2016) recognizes the need for ``on the ground'' 
protections to assure as many polar bears as possible persist until sea 
ice is stabilized. The catastrophic rate of decline in the Southern 
Beaufort Sea polar bear population is driven by reduced survival, 
particularly of cubs. In fact, only 2 of 80 cubs captured between 2003 
and 2007 are known to have survived to enter older age classes 
(Bromaghin et al. 2015). This makes it clear that maximizing survival 
potential for every single cub is essential in maximizing opportunity 
for polar bears in this region to persist. Because the frequency of bad 
ice years can only increase as temperatures continue to warm, more such 
years of poor cub survival are assured. It is critical, therefore, that 
polar bear onshore habitat is protected from activities that will 
further compromise cub survival, and that direct human-caused 
mortalities, from polar bear/human conflict and industrial activities, 
be eliminated where-ever possible. The most important actions that will 
aid polar bear population persistence are: (a) affording protection to 
maternal denning areas where polar bears go to give birth to their 
cubs; and (b) minimizing human/polar bear conflict situations that 
often result in polar bears being shot. Exploration and development of 
the Arctic Refuge Coastal Plain is inconsistent with both imperatives.
Risks to Maternal Denning Bears
    Preventing disturbance of habitats on the Arctic Refuge Coastal 
Plain where pregnant female polar bears give birth to their cubs is 
vital to the future welfare of the Southern Beaufort Sea polar bear 
population. Polar bear cubs are born very undeveloped (altricial) and 
unable to survive the rigors of the Arctic winter outside the shelter 
of the den. Amstrup and Gardner (1994) reported mortalities of cubs 
born to radio-collared polar bears that were forced from their dens 
prematurely, and we know mother bears that are able to stay in dens for 
longer periods have greater early cub survival (Amstrup and Gardner 
1994, Rode et al. 2018). Therefore, disruption of maternal denning must 
be avoided wherever possible.
    Pregnant female polar bears excavate snow dens in early winter. 
They give birth in mid-winter and emerge in spring when cubs are 
approximately 3 months old. (Amstrup and Gardner 1994, Amstrup 2003). 
In Northern Alaska, snow accumulation sufficient for denning is 
confined to narrow linear segments of coastal and stream bank habitats 
(Amstrup and Gardner 1994, Durner et al. 2001, 2003), and there is more 
of these suitable denning habitats on the Arctic Refuge Coastal Plain 
than other parts of Northern Alaska. Although it composes only about 10 
percent of the coastal area of Northern and Northwestern Alaska,\3\ 22 
percent of pregnant female polar bears in the Southern Beaufort Sea den 
there each winter according to the Coastal Plain Oil and Gas Leasing 
Program Draft Environmental Impact Statement (DEIS, see Vol. 1, 3-128). 
The distribution of suitable maternal denning habitats is essentially 
uniform across the Coastal Plain (Durner et al. 2006), but the more 
variable orientation of bank and drainage habitats also makes their 
distribution more complex. With more abundant and more complex denning 
habitat, identifying den locations on the Arctic Refuge Coastal Plain 
when they are totally covered by winter snow, presents an especially 
difficult challenge.
---------------------------------------------------------------------------
    \3\ Estimated by measuring approximate coastal extent, where polar 
bear dens have been observed, from the Canadian border to the north 
edge of Kotzebue Sound with Google Earth ruler tool.

    Polar bears in Northern Alaska may enter dens as late as mid-
December and can remain in dens until mid-April (Amstrup and Gardner 
1994). Throughout most of this time they are invisible under the snow. 
Industry practice purports to avoid denning polar bears by aerial 
survey implementing Forward Looking Infrared (``FLIR'') technology to 
detect dens in advance of on-the-ground activities. Once dens are 
identified, oil and gas activities will generally observe established 
``buffer zones'' around dens to avoid disturbance or chorusing of the 
den. I conducted the original testing of whether FLIR imaging could 
detect otherwise invisible dens in mid-winter and meet the challenge of 
locating dens so that they can be protected from possible industrial 
disturbances (Amstrup et al. 2004b). Whereas FLIR imagery can detect 
many dens under the snow, I emphasized that it cannot detect all dens 
and that it has many shortcomings, and subsequent research emphasized 
those shortcomings (Robinson et al. 2014). The track record of FLIR use 
in active oil field areas west of the Arctic Refuge verifies 
significant limitations. Between 2004 and 2016, FLIR surveys conducted 
in advance of various oil field operations along Alaska's North Slope 
correctly identified 12 maternal dens but missed 11 dens (essentially a 
50 percent detection rate) that were within the survey areas (Smith et 
al. In Prep). The denning habitat on the Arctic Refuge Coastal Plain is 
more expansive and far more complex than other areas of Alaska's North 
Slope where oil and gas development has occurred--and where FLIR has 
been used to find dens. Therefore, it is unlikely detection rates on 
the Arctic Refuge Coastal Plain will be any higher than the 50 percent 
---------------------------------------------------------------------------
historic record.

    With a population of 236 females (Bromaghin et al. 2015), and an 
estimated breeding rate or probability of 0.55 \4\ we could expect 
131 bears to be denning each winter. If the statistics in the DEIS are 
correct and 22 percent of pregnant bears choose to den on the Arctic 
Refuge Coastal Plain, 29 (22 percent of 131) pregnant females could be 
expected to den there each winter. With a 50 percent detection rate 
for FLIR, half or approximately 15 of the dens annually expected to 
occur on the Coastal Plain are likely to be undetected before any oil 
and gas activities take place.
---------------------------------------------------------------------------
    \4\ See my March 8, 2019 analysis of the DEIS. Because the breeding 
interval does not account for litter size, and because proportions of 
cubs in the population represent some litters of multiple (usually 2) 
cubs. The actual breeding probability is most probably higher than 
0.55. So this estimate must be considered conservative.

    Considering varying assumptions and current and future conditions, 
future annual denning on the Arctic Refuge is likely to exceed the 22 
percent or 29 dens that DOI estimates currently occur each year on the 
Arctic Refuge Coastal Plain. The proportion of female polar bears 
choosing to den on land as opposed to sea ice has continued to 
increase, from 46 percent in the 1980s to 77 percent between 2000 and 
2010 (Durner et al. 2010). The breeding probability is likely to 
increase in the near future as nutritional stress results in more 
females becoming pregnant but fewer being able to keep their cubs. 
Finally, summer-time land use has increased threefold (Atwood et al. 
2016) in recent years, and the number of bears on land in summer is 
expected to continue to increase. Because there are few nutritious 
foods available on land, a majority of the Southern Beaufort Sea polar 
bears that spend all or part of summer on land take advantage of 
supplemental food in the form of whale remains at the ``bone pile'' 
near the village of Kaktovik (Atwood et al. 2016).\5\ Higher numbers of 
bears supplementing their pre-denning foraging near Kaktovik is likely 
to translate into higher numbers of bears denning on the adjacent 
Arctic Refuge Coastal Plain close to this food source. Therefore, it is 
most reasonable to assume 29 or more pregnant mother polar bears will 
den on the Coastal Plain each year as we go into the future.
---------------------------------------------------------------------------
    \5\ The ``bone pile'' is where remains (not consumed by people) of 
bowhead whales (Balaena mysticetus) harvested by residents of the 
Kaktovik community are deposited.

    I understand that the Tax Cuts and Jobs Act of 2017 authorized an 
oil and gas leasing program for the Coastal Plain, and that separately 
the Bureau of Land Management is considering a seismic survey 
application from SAExploration. Given the high density and largely 
uniform distribution of maternal denning habitat on the Arctic Refuge 
Coastal Plain, industrial operations like seismic testing, road and pad 
building, exploration and production drilling, and maintenance pose 
significant threats to denning polar bears (Amstrup 1993, Amstrup and 
Gardner 1994). Seismic exploration is an especially significant threat 
to denning success. Seismic work must be done in winter, when the 
ground is frozen enough and the snow is deep enough to protect the 
tundra from the 45-ton trucks that vibrate the ground to create sonic 
---------------------------------------------------------------------------
images that may detect subsurface fossil fuel sources.

    SAExploration's proposed 200-meter by 200-meter grid of 3D seismic 
testing \6\ on the Coastal Plain exemplifies the risks from oil and gas 
activities to denning mother bears (Figure 2). Tracks remaining on the 
tundra, after recent seismic surveys, reveal that seismic testing 
vehicles actually make two or more passes along grid lines leaving an 
approximately 15-meter vehicle footprint (Walker et al. 2019).\7\ With 
a 15-meter wide footprint, over 14 percent of the Arctic Refuge Coastal 
Plain denning habitat within the bounds of a seismic survey would be 
``run over'' by seismic vehicles, essentially crushing any dens in 
these pathways, and 92 percent of the denning habitat would be within 
65 meters of vehicle paths, a proximity that can cause a mother polar 
bear to open her den prematurely, with potential negative consequences 
for cub survival.\8\ If as estimated, there are 15 undetected maternal 
dens on the Arctic Refuge Coastal Plain each year, such surveys would 
have a 90 percent probability of running over one or more occupied 
maternal dens with probable fatal consequences.\9\ And on average (if 
such a survey were repeated multiple times) each survey would result in 
vehicles running over two maternal dens. These outcomes do not include 
the additional (and a priori inestimable) risk from numerous cross-grid 
tracks that characterize recent seismic surveys. The above analysis 
makes it clear that exploration of the Arctic Refuge Coastal Plain is 
virtually assured to negatively impact reproductive success of polar 
bears in the Southern Beaufort Sea population, and additional negative 
impacts would be sure to follow if development were approved. Current 
mitigation measures and den detection techniques are not sufficient to 
identify polar bear dens in advance of industrial activity. Because 
industry activities cannot avoid dens which they cannot locate in 
advance, reliance on these avoidance measures does not protect bears. 
Given that reproductive success in the Southern Beaufort Sea polar bear 
population is already severely compromised, added impacts on 
reproductive success of denning females, such as seismic exploration 
and oil and gas development, would surely exacerbate the ongoing 
decline of this imperiled population. The Arctic Cultural and Coastal 
Plain Protection Act (H.R. 1146) would prevent disruptions of polar 
bear maternal denning.
---------------------------------------------------------------------------
    \6\ Because BLM has failed to provide the public with further 
information about pending Coastal Plain seismic survey proposals, this 
analysis considers the most recent proposal from SAExploration that BLM 
did make public.
    \7\ http://fairbanksfodar.com/science-in-the-1002-area.
    \8\ Based on prior information suggesting many denning females will 
emerge from dens if seismic vehicles approach to within 65 meters of 
the den site (Amstrup 1993).
    \9\ See my March 8, 2019 analysis of the DEIS (Pages 13-21) for 
computations.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


   Figure 2. Map of the Arctic Refuge Coastal Plain (1002 area) 
showing denning habitat (narrow red polygons, Durner et al. 2006), and 
 proposed 200 x 200-meter seismic survey grid (pale orange lines). The 
grid is so closely spaced it appears merely as shading at the scale of 
 the entire Coastal Plain. The left inset illustrates the seismic grid 
    spacing (orange lines) and a small area of denning habitat (red 
 polygons) at much larger scale. The right inset shows the same larger 
  scale view of the seismic grid plus a 65-meter zone of disturbance 
(grey-green shading) either side of the survey line. Blue-green squares 
in the right-hand inset are ``doughnut holes'' not within the 65-meter 
zone of influence. Red bands in these doughnut holes reveal how little 
 denning habitat could escape potential disturbance.\10\ The dark grey 
 polygon illustrates the Kaktovik Inupiat Corporation lands, which are 
not included in this analysis because they were not part of the seismic 
                  survey application proposed to BLM.
---------------------------------------------------------------------------

    \10\ Denning females >65 meters from transect also may be 
disturbed. Dens within the doughnut holes, therefore, are not protected 
from disturbance, but may experience a reduced likelihood of 
disturbance.

---------------------------------------------------------------------------
Other Negative Impacts

    Direct Polar Bear/Human Conflicts--Polar bear/human conflicts often 
result in direct mortalities of polar bears, and they always result in 
disruptions of normal bear activities. Any exertion bears make that 
would not normally be required means bears will incur additional energy 
costs. Arctic wide, polar bear/human conflicts have increased as sea 
ice has declined (Towns et al. 2009, Atwood et al. 2017), and further 
increases are virtually assured as temperatures continue to warm and 
sea ice extent declines even farther. During the past 15 years, the 
numbers of bears spending summer on land in Alaska has tripled (Atwood 
et al. 2016). A majority of bears stuck on land during summer in Alaska 
spend much of their time on and adjacent to the Arctic Refuge Coastal 
Plain. There always have been higher numbers of mother bears seeking to 
den on the Refuge Coastal Plain than in other parts of Alaska's Arctic, 
and we expect that number to grow, increasing potential conflict 
between humans and pregnant bears seeking den sites. Climate change is 
bringing more bears to shore for longer periods (hence reducing food 
available to those bears). If development proceeds, interactions 
between polar bears and oil-field workers will be more frequent, and 
more severe. Greater numbers of emaciated bears are likely to threaten 
workers, and such interactions are more likely to lead to the killing 
of bears in defense of life and property. These higher numbers of polar 
bears combined with intensive human activities related to hydrocarbon 
development could only increase the number of bear/human conflicts. 
With this population already in severe decline, additional mortalities, 
and additional stressors experienced by bears, can only add to 
declining numbers.

    Habitat fragmentation and cumulative effects--Currently oil and gas 
developments extend across approximately 185 kilometers of Alaska's 
North Slope--from the Colville Delta to Pt. Thompson. Development of 
the Arctic Refuge Coastal Plain would extend that development corridor 
another approximately 90 kilometers to the vicinity of Barter Island. 
This expansion would mean that essentially half of the northern coast 
of Alaska has some form of industrial development. Assessing cumulative 
impacts is difficult and studies have not been done to estimate whether 
the expansion of oil-field activity in Alaska may have contributed to 
declining trends in polar bear welfare. We do know, however, that polar 
bears and all animals operate on an energy budget. We also know that 
unnatural and hence unnecessary movements and activities add to the 
energy costs that animals normally face. The greater the number of 
novel and unnecessary energy expenditures a polar bear needs to make, 
the greater the likelihood of going into a negative energy balance. 
Polar bears in the Southern Beaufort Sea are increasingly in negative 
energy balance, as reflected by declining survival rate of cubs and 
reduced population size. Although these negative trends can largely be 
attributed to warming temperatures and declining sea ice availability, 
they also have coincided with major expansion of the oil and gas 
development footprint along the coast of Northern Alaska. Currently, 
the Arctic National Wildlife Refuge is truly a refuge from the 
structures and disruptions present in coastal areas to the west. 
Preventing the fragmentation that has occurred along much of the 
Northern Alaska coast from reaching this refuge is critical to 
supporting persistence of Southern Beaufort Sea polar bears. This 
legislation will prevent further fragmentation of vital Arctic Refuge 
polar bear habitats.

                              Conclusions

    Evidence suggests activities and structures related to exploration 
and development of oil and gas reserves on the Arctic Refuge Coastal 
Plain will negatively affect the polar bear's use of their designated 
critical denning habitat and are virtually assured of impacting denning 
females with likely fatal consequences (see my March 8, 2019 analysis 
of the DEIS: http://polarbearsinternational.org//media/3383/amstrup-
comments-on-the-anwr-deis.pdf). Polar bear/human conflict situations 
are only likely to increase in frequency and severity as intensive 
human activities overlap with an increasing number of bears spending 
summer and autumn on and adjacent to the Arctic Refuge Coastal Plain. 
These conflict situations will exacerbate the ongoing decline in the 
Southern Beaufort Sea population. Simultaneously, greenhouse gas 
emissions from extraction and combustion of the oil and gas that may 
lie under the Coastal Plain will contribute to additional sea ice loss 
compounding risks to Alaska's polar bears and accelerating polar bear 
declines worldwide. An oil and gas program on the Arctic Refuge Coastal 
Plain is in direct conflict and incompatible with current scientific 
understandings of actions needed to assure a future for polar bears in 
Alaska and elsewhere. In the current administrative planning process 
for potential oil development in the Arctic Refuge, the Bureau of Land 
Management (BLM) should strive to eliminate all possible negative 
impacts on polar bears and meet the objectives of the Conservation 
Management Plan for polar bears (U.S. Fish and Wildlife 2016). Congress 
should not allow BLM to implement an oil and gas leasing program that 
its own DEIS admits will compromise those protections.
    Action by Congress and this Subcommittee is essential to protecting 
the polar bears on the Coastal Plain. As my testimony makes clear, 
protecting the Coastal Plain of the Arctic Refuge from oil and gas 
development is vital to the conservation of the imperiled polar bear. 
For this reason, I support passage of the Arctic Cultural and Coastal 
Plain Protection Act (H.R. 1146).

                            Literature Cited

Amstrup, S.C. 1993. Human disturbances of denning polar bears in 
Alaska. Arctic 46:246-50.

Amstrup, S.C. 1995. Movements, Distribution, and Population Dynamics of 
Polar Bears in the Beaufort Sea. Ph.D. Dissertation, University of 
Alaska, Fairbanks. 299 pp.

Amstrup, S.C. 2003. Polar bear, Ursus maritimus. Chapter 27 In Wild 
mammals of North America: biology, management, and conservation. Edited 
by G.A. Feldhamer, B.C. Thompson, and J.A. Chapman. John Hopkins 
University Press, Baltimore. pp. 587-610.

Amstrup, S.C., et al. 2010. Greenhouse gas mitigation can reduce sea-
ice loss and increase polar bear persistence. Nature. 468: 955-958.

Amstrup, S.C., McDonald, T.L., and Durner, G.M. 2004. Using satellite 
radiotelemetry data to delineate and manage wildlife populations. 
Wildlife Society Bulletin. 32(3):661-679.

Amstrup, S.C., and C. Gardner. 1994. Polar bear maternity denning in 
the Beaufort Sea. Journal of Wildlife Management 58:1-10.

Amstrup, S.C., I. Stirling, and J.W. Lentfer. 1986. Past and present 
status of polar bears in Alaska. Wildlife Society Bulletin 14:241-54.

Amstrup, S.C., et al. 2006. Recent observations of intraspecific 
predation and cannibalism among polar bears in the Southern Beaufort 
Sea. Polar Biology 29(11):997-1002.

Amstrup, S.C., et al. 2004b. Detecting denning polar bears with forward 
looking infra-red (FLIR) imagery. BioScience 54(4):337-344.

Atwood, T.C., et al. (2016) Rapid Environmental Change Drives Increased 
Land Use by an Arctic Marine Predator. PLoS ONE 11(6):e0155932. 
doi:10.1371/journal.pone.0155932.

Atwood, T.C., et al. 2017. Human-polar bear interactions in a changing 
Arctic: existing and emerging concerns. Pages 397-418 in A. 
Butterworth, editor. Marine mammal welfare: Human induced change in the 
marine environment and its impacts on marine mammal welfare. Springer 
International Publishing.

Bromaghin, J.F., S.C. Amstrup, et al. 2015. Polar bear population 
dynamics in the Southern Beaufort Sea during a period of sea ice 
decline. Ecological Applications, 25(3), 2015, pp. 634-651.

Durner, G.M., S.C. Amstrup, and K.J. Ambrosius. 2001. Remote 
identification of polar bear maternal den habitat in northern Alaska. 
Arctic 54:115-21.

Durner, G.M., S.C. Amstrup, and A.S. Fischbach. 2003. Habitat 
characteristics of polar bear terrestrial maternal den sites in 
northern Alaska. Arctic 56(1):55-62.

Durner, G.M., S.C. Amstrup, and K. Ambrosius. 2006. Polar bear maternal 
den habitat on the Arctic National Wildlife Refuge, Alaska. Arctic Vol. 
59, No. 1. P. 31-36.

Durner, G.M., Fischbach, A.S., Amstrup, S.C., and Douglas, D.C. 2010, 
Catalogue of polar bear (Ursus maritimus) maternal den locations in the 
Beaufort Sea and neighboring regions, Alaska, 1910-2010: U.S. 
Geological Survey Data Series 568, 14 p.

Hansen, J., M. Sato, G. Russell, and P. Kharecha. 2013. Climate 
sensitivity, sea level and atmospheric carbon dioxide. Phil. Trans. R. 
Soc. A 2013 371, 20120294, published 16 September 2013.

Ingolfsson, O., and O. Wiig 2008. Late Pleistocene fossil find in 
Svalbard: the oldest remains of a polar bear (Ursus maritimus Phipps, 
1744) ever discovered. Polar Research 28:455-462. doi:10.1111/j.1751-
8369.2008.00087.x.

Lehner, F., C. Deser, and B.M. Sanderson. 2016. Future risk of record-
breaking summer temperatures and its mitigation. Climate Change DOI 
10.1007/s10584-016-1616-2.

Lunn, N.J., et al. 2016. Demography of an apex predator at the edge of 
its range: impacts of changing sea ice on polar bears in Hudson Bay. 
Ecological Applications 26(5): 1302-1320.

Marcott, S.A., J.D. Shakun, P.U. Clark, and A.C. Mix. 2013. A 
Reconstruction of Regional and Global Temperature for the Past 11,300 
Years. Science 339 1198 (2013); DOI: 10.1126/science.1228026.

Meehl, G.A., et al. (2009), Relative increase of record high maximum 
temperatures compared to record low minimum temperatures in the U.S. 
Geophys. Res. Lett., 36, L23701, doi:10.1029/2009GL040736.

Obbard, M.E., S. Stapleton, G. Szor, K.R. Middel, C. Jutras, and M. 
Dyck. 2018. Reassessing abundance of Southern Hudson Bay polar bears by 
aerial survey: effects of climate change at the southern edge of the 
range. Arctic Science 4: 634-655 (2018) dx.doi.org/10.1139/as-2018-
0004.

Robinson, R., T.S. Smith, R.T. Larsen, and B.J. Kirschhoffer. 2014. 
Factors influencing the efficacy of forward-looking infrared in polar 
bear den detection. BioScience 64(8):735-742.

Rode, K. D., et al. 2018. Den phenology and reproductive success of 
polar bears in a changing climate. J. Mammal. 99(1):16-26.

Rode, K.D., C.T. Robbins, L. Nelson, and S.C. Amstrup. 2015. Can polar 
bears use terrestrial foods to offset lost ice-based hunting 
opportunities? Front. Ecol. Environ. 2015: 13(3): 138-145.

Schneider, S.H. 1989. The greenhouse effect: Science and Policy. 
Science 243: 771-781.

Smith, T.S., G. York, and S.C. Amstrup. In preparation. How effective 
is forward-looking infrared for polar bear detection in northern 
Alaska? A critical review and synthesis of research findings.

Towns, L., et al. 2009. Spatial and Temporal Patterns of Problem Polar 
Bears in Churchill, Manitoba. Polar Biology 32:1529-1537.

U.S. Fish and Wildlife. 2016. Polar Bear (Ursus maritimus) Conservation 
Management Plan, Final. U.S. Fish and Wildlife, Region 7, Anchorage, 
Alaska. 104 pp.

Walker, D.A., et al. 2019. Likely impacts of proposed 3D-seismic 
surveys to the terrain, permafrost, hydrology, and vegetation in the 
1002 Area, Arctic National Wildlife Refuge, Alaska. Alaska Geobotany 
Center Publication AGC 19-01. University of Alaska Fairbanks, 
Fairbanks, Alaska, USA.

Whiteman, J.P., S.C. Amstrup, et al. 2018. Phenotypic plasticity and 
climate change: can polar bears respond to longer Arctic summers with 
an adaptive fast? Oecologia 186:369-381. https://doi.org/10.1007/
s00442-017-4023-0.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Dr. Amstrup.
    The Chair now recognizes Mr. Brown for 5 minutes of 
testimony.

  STATEMENT OF CHAD BROWN, FOUNDER, SOUL RIVER, INCORPORATED, 
                        PORTLAND, OREGON

    Mr. Brown. Chairman Lowenthal, Ranking Member Gosar, thank 
you for the opportunity to serve my country in a new way, as I 
testify before you in support of protecting the Arctic National 
Wildlife Refuge from the destruction of oil and gas and 
drilling.
    My name is Chad Brown. I urge Congress to pass H.R. 1146, 
the Arctic Cultural and Coastal Plain Protection Act, recently 
introduced by Chairman Jared Huffman.
    Thank you, sir.
    I appear before you today as the Founder and President of 
Soul River Inc., a non-profit organization that aims to share 
the healing power of rivers with veterans and inner-city youth. 
Wild areas, literally, have saved my life. And now my life 
mission is to share the love and passion of the outdoor world, 
specifically for untouched pristine places like the Arctic 
National Wildlife Refuge, with other veterans and under-served 
youth.
    But to truly understand why the Arctic National Wildlife 
Refuge means so much to me, I have to share my story. I am a 
U.S. Navy veteran, served in Desert Storm and Desert Shield, 
served at Guantanamo Bay, and I saw daily combat in Operation 
Restore Hope in Somalia. To say I have seen a thing or two is 
an understatement. I believe in the strength, power, and 
goodness of the United States with every breath of my being. 
But after serving in traumatic situations, I, like so many 
fellow veterans, found myself battling demons long after my 
tours were complete. I suffer from post-traumatic stress 
syndrome, or PTSD. And nature has been my lifeline.
    For a while, after I finished my service, my life was good, 
but PTSD affects different people in different ways and at 
different times. Beneath my feet sits my battle buddy, Axe, who 
helps me every day, my service dog.
    Over a span of several months, I hit rock bottom. I lost my 
job, became homeless, and I was selling my blood in order to 
survive for $20 a pint. I contemplated suicide, and I spent 
time at a Veterans Affairs psychiatric ward, where I received 
help, but mainly in the form of drugs. I learned I had PTSD and 
I tried to cope, and it wasn't working.
    Finally, one day a friend took me fishing. I hooked a fish, 
lost it, but then I was hooked. I had smiled for the first time 
in what seemed like a lifetime, and I knew that fishing could 
help other veterans fight PTSD, and it could also help you 
conquer your own challenges and issues. This was the birth of 
Soul River, Inc.
    At Soul River we do deployments. We deploy into areas that 
are under threat, places like the Arctic Refuge, as an 
education leadership experience where a veteran steps up to 
teach youth how to protect the environment and become leaders 
of tomorrow, while youth gives us a simple purpose, to push 
forward.
    These deployments are challenging and require everyone to 
work together and rely on one another. Everyone involved knows 
what it means to be under threat.
    Soul River began doing deployments to the Arctic Refuge in 
2016. We have deployed to the Arctic Refuge four times and are 
going back this summer. Veterans and under-served youth find 
meaning, purpose, life, and, most importantly, healing. These 
qualities make up the soul of the Arctic Refuge.
    When you arrive in the Arctic Refuge, your senses are 
heightened: sight, smell, hearing. You are aware of the 
surroundings in ways you never knew were possible. Someone 
recently asked me what I felt when my feet hit the ground in 
the Arctic National Wildlife Refuge. All I can say is ``home.'' 
It is more than I feel at home; it is simply home.
    A few weeks after the 2018 Arctic deployment, I was 
speaking to one of my friends, a veteran from several of the 
Arctic deployments named Matthew. He said, ``Chad, you know 
where I am at? I am sitting on the floor in my bedroom with my 
camp stove, making myself a cup of coffee. I need to go back 
home. When are we going back?''
    I fought for my country so that places like this would 
exist, and I am here today as a way to continue to serve my 
country.
    In closing, I urge Congress to pass H.R. 1146, and protect 
the Arctic National Wildlife Refuge forever for present and 
future generations of the Gwich'in and all Americans. Don't 
reduce our opportunities of healing for veterans, and 
particularly for youth. They are the leaders for tomorrow. 
Mashhi' cho. Thank you.

    [The prepared statement of Mr. Brown follows:]
 Prepared Statement of Chad Brown, Founder and President of Soul River 
                         Inc., Portland, Oregon
    Dear Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee, my name is Chad Brown and I thank you for the opportunity 
to testify in support of protecting the Arctic National Wildlife Refuge 
from destruction through oil and gas extraction. Specifically, I wish 
to support H.R. 1146, the Arctic Cultural and Coastal Plain Protection 
Act, recently introduced by your colleague, Congressman Jared Huffman 
of California, along with over 115 Members of Congress. I appear before 
you today as the founder and president of Soul River Inc, a non-profit 
organization that aims to share the healing power of rivers with 
veterans and inner-city youth. I am also a board member of the National 
Wildlife Refuge Association and they endorse this testimony.
    Natural and wild areas literally saved my life, and now my life's 
mission is to share this love and passion of the outdoor world--
specifically for untouched pristine places like the Arctic National 
Wildlife Refuge--with other veterans and underserved youth. But to 
truly understand why the Arctic National Wildlife Refuge means so much 
to me, I have to share my story.
                            military service
    I am a U.S. Navy veteran who served in Desert Storm and Desert 
Shield, served at Guantanamo Bay, and saw daily combat during Operation 
Restore Hope in Somalia. I even served at a NASA research station in 
Antarctica. To say I've seen a thing or two is an understatement.
    The military wasn't always my path, but after 2 years of art school 
in Dallas, financial times forced me to look at the military--as it 
does for so many of America's youth. I joined the Navy because my 
father was a Navy man and it was really the only branch I knew. I loved 
serving my country. I believe in the strength, power, and goodness of 
the United States with every breadth of my being. But after serving in 
traumatic situations, I, like so many of my fellow veterans, found 
myself battling demons long after my tours were complete. But more on 
that in a bit.
    Military service taught me that life is fragile and can be taken 
from you in a heartbeat. It made me value friendship and human 
interaction. It made me hunger for a world where life is simple and 
untouched--places like wilderness where man and nature are one.
                  life and near death after my service
    For a time after I left the Service, things were good. I finished 
my undergraduate work and got my Masters degree in photography, 
communications, and design. I worked in New York City's fast-paced 
advertising and design world. I found myself pitching ideas to people 
like hip-hop mogul Russell Simmons, and doing work for Phat Farm, 
Simmons' fashion line. I was so busy that I didn't notice the chinks 
that were developing in my proverbial armor. Meaning, I didn't notice 
the clear and unmistakable signs of Post-Traumatic Stress Disorder 
(PTSD).
    I carried these signs with me from New York to Portland, where the 
world moves at a slower pace than the craziness of the city that never 
sleeps. Fortunately, this pace allowed me to breathe. Unfortunately, it 
also allowed my mind the time to reflect upon what it had experienced 
years before and for the PTSD to take hold. Over a span of several 
months, I lost everything.
    I lost my job, became homeless, and hit rock bottom. I was selling 
my blood in order to survive. Do you know how much you get selling your 
blood? $20. Twenty dollars doesn't go far--and I was one of many 
veterans in that line every week. One day as I contemplated suicide, I 
called my mother, knowing I needed help. I was checked into a Veterans 
Affairs psychiatric ward where I received help--but mainly in the form 
of drugs. I learned I had PTSD and I tried to cope. It wasn't working.
    Finally, one day a friend took me fishing. I hooked a fish--lost 
it--but then I was hooked. I had smiled for the first time in what 
seemed like a lifetime.
                                 eureka
    Growing up, the men in my family had been hunters and farmers and 
my father was an avid camper. My father also spoke extensively about 
Matthew Henson, one of the first African-American explorers who may 
have been the first person, black or white, to reach the North Pole. 
All these men had an influence on my life, which began to be apparent 
as I became more engrossed in fly fishing.
    One day in 2011, as I stood in the middle of a river fishing, it 
hit me--I needed to share this ``medication'' with other veterans and 
with underserved youth. I KNEW that fishing could help other veterans 
experiencing PTSD and it could also help youth conquer their own 
challenging issues.
    I created a non-profit, Soul River Inc. We connect inner city youth 
and U.S. military veterans to the outdoors through incredible outdoor 
educational transformation experiences. By engaging veterans as mentors 
for inner city youth, we believe that rich, powerful opportunities of 
healing authentically happen in the midst of Mother Nature. We believe 
that by connecting youth and veterans to our public lands, wild rivers, 
fresh waters, and beyond through genuine community, we will ultimately 
establish and inspire a new generation of outdoor leader Ambassadors 
that will advocate for Mother Nature and conservation.
    We conduct ``deployments'' every year where youth are partnered 
with veterans. These deployments are challenging and require everyone 
to work together and rely on one another. Everyone involved knows what 
it means to be ``under threat''--which is one of the reasons we also 
deploy to places under threat--like the Arctic National Wildlife 
Refuge.
            the soul of the arctic national wildlife refuge
    Soul River began doing deployments to the Arctic National Wildlife 
Refuge in 2016. We have deployed to the Arctic Refuge five times and 
are going back this summer. Veterans and underserved youth find 
meaning, purpose, life, and, most importantly, healing. These qualities 
make up the soul of the Arctic National Wildlife Refuge.
    When you arrive in the Arctic Refuge, your senses are heightened--
sight, smell, hearing. You are aware of your surroundings in ways you 
never knew were possible.
    Someone recently asked me what I felt when my feet touch down on 
the earth of the Arctic National Wildlife Refuge. All I can say is 
``home.'' It's more than I feel at home, it simply is home. It is a 
place where I am me. I am not a soldier, yet I am. I am not an artist, 
yet I am. I am all, but I am not. I exist. I am nature and nature is 
me.
    The Arctic National Wildlife Refuge must be protected for current 
and future generations of Americans. I fought for my country so that 
places like this would exist. So that there would be places where I and 
my fellow veterans and challenged youth can find solace, peace, and 
healing. A place where man is just a visitor and where natural 
processes reign. A place where one can find oneself and find the 
nurturing healing of being in nature and with friends.
    The value of nature is far more valuable than any dollars our 
country may receive from drilling in the Arctic National Wildlife 
Refuge. In fact, there is no comparison. Our nation is the wealthiest 
nation our world has ever known--yet we could be so poor that we might 
despoil this sacred place forever? Wealth is not always money and I 
hope that Congress will try to understand that. You must repeal the 
portion of the 2017 Tax Law that allowed for drilling in America's 
truly Last Frontier. You must do absolutely everything in your power to 
stop this travesty. I beg you--as an American who fought for the 
freedom of our country--protect our natural resources as you would 
protect the life of your child. For it is one and the same.
               ``medication'' stories from the ``healed''
    A few weeks after our 2018 Arctic deployment, I was speaking to one 
of my friends, a veteran from several of our Arctic deployments named 
Matthew. He said, ``Chad, you know where I am? I'm sitting on the floor 
of my bedroom with my camp stove making myself a cup of coffee. I need 
to go back. When are we going back?''
    ``Soon,'' I said, ``Very soon.'' And we will.
    Upon returning from a deployment to the Arctic Refuge, I received 
phone calls from a few parents. Their kids were not sleeping in their 
beds--and this was several weeks after returning. They didn't know how 
to address what was going on. Even though I knew the parents couldn't 
completely understand what their children were going through without 
having been to the Arctic Refuge themselves, I tried to explain. I 
explained that what their children had experienced in the Arctic was 
extreme--a deep, soul-catching environmental engulfment. Where nature 
revealed her beauty in the rawest form to their children, and in so 
doing, opened their minds and souls to what nature is all about. I told 
the parents to not worry. Eventually they will likely sleep in their 
beds again but each child is different and each will see the world 
through a different lens after their experience. What they saw and 
experienced was special and sleeping on the floor in their bedroom was 
a way of keeping the Arctic alive in their souls.
    I also want to share with you the story of Kolby, a young lady who 
was one of Soul River's Senior Leaders. She's been to the Arctic Refuge 
twice and those trips literally changed her life--and that of her 
family. She got her African American mother, who is in her mid-50s and 
never thought about conservation, to care about what Kolby cares 
about--to recycle and be a good steward of the Earth. Kolby is teaching 
her elders, but she doesn't stop there, she is passionate about 
teaching new generations as well.
    Kolby speaks to classes about her experiences at the Arctic Refuge 
and invited me to attend one of her talks. I was blown away! She spoke 
about how important the Arctic Refuge is--for wildlife and for the 
Gwich'in people. She talked about the wildlife she saw and the fish she 
caught, but what stayed with Kolby was the Gwich'in. How they depend 
upon the caribou for survival and how rich and vibrant their culture 
is. Today, Kolby has joined the U.S. Army and is in the officer program 
studying to become a surgeon. Kolby wants to find a way in her career 
path to bring medicine and health to the tribes in the Arctic National 
Wildlife Refuge.
    In closing, I urge Congress to pass H.R. 1146, the Arctic Cultural 
and Coastal Plain Protection Act and protect the Arctic National 
Wildlife Refuge forever for present and future generations of the 
Gwich'in and all Americans.

    Thank you.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Brown.
    And now the Chair recognizes Mr. Glenn for 5 minutes.

STATEMENT OF RICHARD GLENN, EXECUTIVE VICE PRESIDENT, EXTERNAL 
   AFFAIRS, ARCTIC SLOPE REGIONAL CORPORATION, BARROW, ALASKA

    Mr. Glenn. Thank you, Mr. Chairman. My name is Richard 
Glenn and I am an Inupiat tribal member. I currently serve as 
Vice President for Arctic Slope Regional Corporation (ASRC). 
ASRC and 12 other regional corporations like it in Alaska were 
created by Congress in 1971. ASRC owns the subsurface rights to 
92,000 acres on the Coastal Plain of ANWR, along with the 
Native Village Corporation for the people of Kaktovik.
    We are here today to provide an insight into Arctic culture 
this resolution claims to protect. It is our region. Our region 
includes the eight Inupiat villages scattered across the Arctic 
Slope, roughly the size of Montana. We are not here to debate 
the sacredness of land. What we contest is that the people 
nearest to this issue, the people who live within ANWR, are not 
being given proportionate consideration--in fact, any 
consideration--in this bill.
    When you occupy someone's house, do you give more attention 
to the neighbors down the street than you do to the residents 
themselves? As Congress Members, do you give more attention to 
the voters who live 150 miles south of your own district than 
you do to your own constituents?
    Running water, reliable power, local education, improved 
health care, they can and have been provided in our region, but 
only if there is a tax base in our region for our local 
government. Today's Arctic oil and gas exploration and 
development is that tax base. We hunt and we have a warm home 
to go home to. The quality of life in our villages has improved 
dramatically due, in large part, to resource development.
    In the Journal of the American Medical Association, 
Internal Medicine, there is an article entitled, ``Inequalities 
in Life Expectancy Among U.S. Counties, 1980 to 2014.'' The 
study examined the changes in life expectancy in all U.S. 
counties. The average life expectancy of people living in my 
region, the Arctic Slope, increased by 8 to 13 years over this 
34-year interval. No other area in the United States 
experienced a higher increase in life expectancy.
    The factors explaining this? Declining poverty, increasing 
high school education and graduation, increasing employment, 
improved access to health care, the very things that have been 
fostered in our region due to resource development. This 
resource development, initially centered around Prudhoe Bay and 
in progress for more than 50 years, is a part of our region. 
But it is the nature of oil fields that production declines. 
And with time, new fields are developed.
    The 1002 Area of ANWR, which includes our land, land that 
people have lived on for thousands of years, is now the focus 
of exploration to offset decades of decline. It is not a 
pristine area. In addition to thousands of years of land use, 
the 1002 Area has hosted military and radar communications 
since 1947. There is a ring of these facilities all around the 
Arctic. I brought a map that shows their distribution, and I 
ask that it be accepted into the record.
    At its peak, there was a station every 50 miles consisting 
of aircraft runways, tank farms, camp facilities, radar and 
communication towers. They would close over time, many of them, 
because of the advent of satellite communications. Even that 
was an effort, putting workers and equipment into our area. And 
during all those many years, people continued to hunt caribou.
    To this very day there is a long-range radar station 
operating in the Village of Kaktovik. With all that 
infrastructure, it makes the point: caribou are largely 
indifferent to infrastructure. I myself have successfully 
hunted caribou in summer and winter months in and around 
producing fields, as well as near radar facilities and on the 
open tundra. The health and abundance of caribou herd is most 
affected by its naturally occurring cyclical population swings, 
a process that is well documented.
    We respect the rights of the Gwich'in. I believe we have 
more in common than most people understand. Our people have 
been indigenous neighbors since before recorded history. I am 
asking that this Committee respect the indigenous landowners 
within the Coastal Plain, and their rights to improve the 
quality of their lives.
    Closing Arctic development will damage the viability of 
Arctic communities without altering the global climate at all. 
Our Arctic culture needs no additional protection.
    I find it disturbing that the sponsors of this legislation 
and the leadership of this Committee conveniently neglected 
that there are tribal members here that disagree with their 
position. They look right through them, as if the tribes--they 
were not tribal members. Where is their recognition? Why do you 
not recognize the tribe that is in front of you now?
    For these reasons, Mr. Chairman and Committee members, I 
strongly urge action against this resolution.

    [The prepared statement of Mr. Glenn follows:]
 Prepared Statement of Richard Glenn, Executive Vice-President, Arctic 
               Slope Regional Corporation, Barrow, Alaska
    My name is Richard Glenn and I am a resident of Alaska. I am a 
tribal member of the Native Village of Barrow and the like Matthew and 
Fenton, a tribal member of the Inupiat Community of the Arctic Slope. 
I've lived, hunted and explored across our entire North Slope. I am a 
geologist by training and currently serve as a Vice President for 
Arctic Slope Regional Corporation (ASRC), which is headquartered on 
Alaska's Arctic Slope.
    ASRC is 1 of 12 land-owning Alaska Native regional corporations 
created by Congress in 1971. The three of us Inupiat people presenting 
to you today are all shareholders of ASRC. ASRC owns approximately 5 
million acres of land on the Arctic Slope, including the subsurface 
rights to 92,000 acres on the Coastal Plain of ANWR. ASRC and the 
Kaktovik Inupiat Corporation, the Alaska Native village corporation for 
the people of Kaktovik, own the 92,000 acres.
    This hearing is being held to review a piece of legislation that 
deems to protect the ``Arctic Culture'' of the Coastal Plain. While we, 
the people of the Arctic Slope, and the only residents that reside in 
the 1002 of ANWR and the entire Coastal Plain of the U.S. Arctic, were 
not consulted on this legislation. We are here today to provide an 
insight to the ``Arctic Culture'' this resolution claims to protect.
    Our region includes the villages of Point Hope, Point Lay, 
Wainwright, Atqasuk, Utqiagvik, Nuiqsut, Kaktovik, and Anaktuvuk Pass. 
Arctic Slope village residents have always depended on subsistence 
resources from the land, rivers and ocean.
    Running water, reliable power, local education, improved health 
care--things that most people take for granted, can be furnished in our 
region, but only if there is a tax base for our local government, the 
North Slope Borough.
    Resource development, initially centered around Prudhoe Bay and now 
in progress for more than 50 years, is that tax base. It is the nature 
of oil fields that production declines with time and new fields are 
developed. The 1002 Area of ANWR, which includes our land--land that 
our people have lived on for thousands of years--is now the focus of 
exploration to offset decades of decline.

    Wildlife surveys show that the Central Arctic Caribou herd, which 
calves in the vicinity of Prudhoe Bay and ongoing development today, 
migrates southward over the Brooks Range and into the Arctic Village 
area, where the Gwich'in people live. The caribou are hunted there by 
the Gwich'in people, and that is OK.

    Caribou are in general indifferent to oil and gas infrastructure. I 
myself have successfully hunted caribou, in summer and winter months, 
in and around producing fields as well as in the open tundra. Canadian 
Gwich'in people hunt the Porcupine Caribou herd with the assistance of 
a gravel highway which goes through the migration route. The health of 
a caribou herd is most affected by its own naturally occurring swings 
in population, a process that is well documented.

    While on the subject of wildlife, there is some discussion of risk 
to polar bears due to seismic exploration on Coastal Plain of the 1002 
Area. The topography of the 1002 Area is kind of like that of the Great 
Plains--with flat lands, undulating slopes, and gentle foothills. 
Pregnant female polar bears den in snowdrifts that are adjacent to 
steep coastal bluffs or large pressure ridges on the sea ice. I have 
seen polar bear dens on coastal bluffs when traveling by snow machine. 
And I have crossed many seismic line trails by snow machine as well. 
There is zero chance that a surveyed seismic line will be located on 
top of denning polar bears. The seismic line will conform to the gentle 
rolling topography and only cross features like bluffs and rivers only 
where the topography allows. Much of the Coastal Plain is windswept so 
that you can see the tops of grasses, willows and other plants where 
there are no snowdrifts. If there is no snow, there is no seismic line, 
and if there is snow, the seismic line will be located on gentle 
topography where denning would be impossible.

    The 1002 Area itself is no stranger to infrastructure. Beginning in 
1947 and continuing to this very day, the U.S. and Canadian military 
set up defense stations all across the Arctic. I have brought a figure 
with me that shows the distribution of these facilities and ask that it 
be accepted into the record (see Attachment). At its peak, there was a 
station every 50 miles or so that consisted of aircraft runways, tank 
farms, camp facilities, and radar and communications towers--covering 
thousands of acres. In these facilities were dozens to hundreds of men 
at a time.

    These radar and communications facilities crossed the 1002 Area of 
ANWR. Over the years with the advent of satellite communications many 
intermediate communication stations were abandoned and de-mobilized. 
This itself was an intensive effort putting workers and equipment once 
again into the area that some deem as pristine. To this very day there 
is an operating Long Range Radar station located right in the village 
of Kaktovik. And you can see the footprints of the other stations in 
the 1002 Area in satellite imagery. With all those runways, radars, and 
towers, and people in transit, from the 1940s through today, the 
Gwich'in people and our people continued to hunt caribou.

    Frequently, in the national discourse, our region is pitted against 
some of the Gwich'in people who live south of ANWR because we advocate 
for the development of our own lands. Congressman Huffman, you have 
introduced legislation that speaks about the human rights of the 
Gwich'in. What about the human rights of the Inupiat? We, too, respect 
the rights of the Gwich'in. I believe we have more in common than most 
people understand. Our people behaved as indigenous neighbors 
throughout mankind. We traded, traveled and even made wars at one time 
or another where our boundaries met.

    We have this in common as well, we fought side by side with the 
Gwich'in for the claims of aboriginal title to lands. Like the 
Gwich'in, we found some fault with the Alaska Native Claims Settlement 
Act. Our region--the Arctic Slope region--was the only region to vote 
against it. Yet it passed Congress and we have since abided by its 
terms. Congress created these Alaska Native corporations, and conveyed 
to them the last vestige of lands that once covered almost all of 
Alaska-lands claimed by aboriginal title. In the Arctic Slope we 
received legal title to less than 10 percent of that which we claimed 
by aboriginal title. With lands ceded to them by Congress, the Gwich'in 
leased their lands for oil and gas exploration in the 1980s, seeking no 
input from us to the north. That's OK; they exercised their rights, and 
today we seek to exercise ours.
    Your legislation fails even to recognize the existence of 
Kaktovikmiut--the only people who live within ANWR, never mind their 
rights as Americans. Your bill fails to recognize our region, our 
people, and to recognize the 1002 Area as our homeland.

    We are not here to debate sacredness of land. All land is sacred. 
What we contest is that the people nearest to this issue, the people 
who live within ANWR, are not being given proportionate consideration, 
in fact any consideration, in this bill. When you occupy someone's 
house, you do not give more attention to the neighbors down the street 
than you do to the residents themselves. As Members, do you give more 
attention to the voters who live 150 miles south of your district than 
you do to your own constituents?

    We have been yelled at in hearings, and belittled by Members of 
Congress for operating the Alaska Native corporations which you, the 
U.S. Congress, created. We are shamed for exploring, developing and 
producing resources in our own region. The same resources which allowed 
all of us to fly by jet and attend today's hearing. The same resources 
that jet you to and from your districts.

    You have the heard voices of the Kaktovikmiut in front of you. 
Their voices are full of wisdom, sincerity and self-determination. I 
hope they aren't overlooked. We stand with them.

    The fact is that quality of life has improved dramatically in our 
region, thanks in large part to resource development. A study published 
in the Journal of the American Medical Association Internal Medicine 
titled, ``Inequalities in Life Expectancy Among U.S. Counties 1980-2014 
Temporal Trends and Key Drivers'' examined the life expectancy in all 
U.S. counties. The average life expectancy of people living in the 
North Slope Borough over this 34-year interval increased by 8-13 years. 
No other area in the United States experienced a higher increase in 
life expectancy. The factors explaining this increase: declining 
poverty, increasing high school graduation, and increasing employment 
opportunities, and improved access to health care. The very things that 
have been fostered in our region due to oil and gas development.

    On the Arctic Slope, the facts of our life are that development and 
wildlife populations co-exist; and development and our people also co-
exist. The survival of our region and the development of our 
communities today depend on continued development. Industry has 
explored in our region and we have been there at their side every step 
of the way. This our freedom. This is what allows us to hunt and then 
have a warm house to come home to.

    I encourage you to work with and listen to the village of Kaktovik 
and the North Slope Borough. ANWR, especially the 1002 Area, is the 
ancestral and continuing homeland of the Inupiat people. In trying to 
listen to the will of the American people regarding ANWR, extra 
attention should be given to Alaskans, especially those in Kaktovik and 
the North Slope Borough.

    ASRC understands that there is a public lands/public comment aspect 
to all of the ANWR, and that the American people have a role to play in 
its management. We understand it is easy to be angry about the impacts 
of climate change. We are on the front lines and live it every day. But 
it's harder to reconcile the fact that you are still consuming oil, and 
we are your fellow Americans who can provide that oil and a responsible 
way that benefits our people until you stop consuming. When the day 
comes and we have to change our economies, we will hold hands with the 
rest of the world and do so.

    Until then, closing Arctic development will damage the viability of 
Arctic communities without altering the global climate at all. Our 
``Arctic Culture'' needs no protection, rather the continued freedom of 
economic self determination to provide for our people--is what needs 
protection.

                                 *****

                               ATTACHMENT

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 __
                                 

 Supplemental Testimony from Richard Glenn, Executive Vice-President, 
                   Arctic Slope Regional Corporation
    In the Subcommittee hearing on March 26, my position with Arctic 
Slope Regional Corporation, or ``ASRC,'' seemed to be a point of 
confusion with some members of the Subcommittee which I wish to 
clarify.
    ASRC is not an oil lobbyist. It is the Regional Alaska Native 
Corporation established by Congress through the Alaska Native Claims 
Settlement Act (ANCSA) in 1971. Alaska Native Corporations were 
designed by Congress as a way of settling aboriginal land title after 
oil was discovered on the North Slope--at the time, unresolved 
aboriginal land rights were an obstacle to development. As a solution, 
Congress decided to establish Alaska Native Corporations to empower 
Alaska Natives self-determination and ability to use their lands and 
natural resources to provide for their shareholders, the Alaska Native 
tribal members in their respective regions. I believe the intent of 
Congress was to avoid the same fate of Indian Reservations in the Lower 
48.
    Prior to the establishment of ASRC, Arctic Slope Native 
Association, as it was called, rejected the proposal by Congress and 
was the only regional association in Alaska to do so. Our elders voted 
against ANCSA because we felt it was an unfair compromise by Congress. 
Congress proposed allotting Native Corporations with a fraction of our 
traditional use areas, based only on population at the time of ANCSA, 
that would be conveyed after the Federal Government and State selected 
their lands--essentially, we would be entitled to the areas left over 
and only a shameful portion at that. Today what this looks like is 
sprinklings of Native-owned land across the entire region I call home.
    ASNA was outnumbered, ANCSA passed, and ASRC was created, as was 
the North Slope Borough as the home rule municipality. The North Slope 
Borough region encompasses approximately 60 million acres--an area 
larger than 39 states; the Federal Government owns a collective 41 
million acres, the state of Alaska owns 11 million acres, and ASRC owns 
5 million acres. The remaining lands are owned by the North Slope 
Borough, the U.S. Military, Native Allotment holders, and Native 
village corporations. The Federal Government owns the majority of land 
in my region, not the Inupiat whom have lived here since time 
immemorial.
    The Federal Government laid claim to the highly prospective NPRA 
and to the 1002 Area, and put Gates of the Arctic and the rest of 
Alaska National Wildlife Refuge off-limits--even to Alaska Natives whom 
have lived here for many generations trying to access their ancestral 
lands. The state of Alaska swooped up Prudhoe Bay, and we were left 
with a fractured selection of the remnants and attempted to knit our 
communities back together.
    Despite this taking of aboriginal land, ASRC has become a thriving 
company and the most successful company in Alaska. In fact, ASRC is the 
largest indigenous owned company in the world. We are not ashamed of 
this, but proud. The very design of our corporation is to use our 
resources--including oil--to provide for our shareholders. Because of 
the resources in our region and the foresight of our elders, our 
corporation, communities, shareholders, and culture are thriving. We 
have more opportunities than ever before: our communities have the 
benefit of first world amenities the rest of America enjoys--luxuries 
like running water, sanitary waste disposal, search and rescue, and 
emergency services; our children get to attend schools in their home 
communities and are not shipped off to boarding schools to be 
gentrified; and our corporation is blessed with financial success that 
we can then invest back into our shareholders and our communities.
    Arctic Slope Regional Corporation distributes quarterly dividends 
to our shareholders whom are Alaska Native tribal members, including 
the residents of Kaktovik living in the heart of the Coastal Plain. For 
some of our shareholders, these dividends can be a significant portion 
of their annual income, and can be a saving grace in the long winters 
if you were not able to fill your ice cellar. ASRC also distributes 70 
percent of its revenue from development of our lands to the 12 other 
regional corporations--Since ANCSA, ASRC has distributed over $1 
billion dollars to the other region corporations, buoying indigenous 
peoples across Alaska. Our shareholder dividends and distributions to 
other Native Corporations are generated almost entirely from oil and 
gas development on our lands. And yet, we are vilified for our success 
and prosecuted for our efforts to provide a better life for future 
generations of Alaska Natives.
    I mention this complex history of indigenous land claims in Alaska 
because I feel the integrity of ASRC was called into question during 
the Subcommittee hearing on March 26. We are not motivated by greed, we 
are motivated by elevating the lives of our shareholders and our 
communities. We are not a tribe, but made up of tribal members. We are 
not a shill, but simply a business operating in the best interest of 
our shareholders, the Inupiat people of the North Slope.
    The birthplace of our business is our lands and their natural 
resources. Congress instructed us to use our lands and natural 
resources to provide for our shareholders--we have done this, yet are 
browbeaten by the same body for developing our natural resources. We 
are shamed for being successful in this congressional experiment. 
Beyond being a landowner, as a corporation, we can operate anywhere, 
and we do. We have diversified our business interest and own a 
multitude of companies across the United States--we've grown so far 
today that we even do work for NASA. However, our shareholders and 
region is still the North Slope. We care what happens in our region and 
deeply support the longevity of our communities; without continued 
North Slope development our communities will not succeed.
    With respect to the Coastal Plain of the Arctic National Wildlife 
Refuge, ASRC has advocated for the opening of the 1002 Area and owns 
92,000 acres of subsurface rights within the Coastal Plain. We have 
consulted with Kaktovik--something the authors of this legislation did 
not do--and support the self-determination of the Indian Tribe, the 
Native Village of Kaktovik, and the Native landowner, Kaktovik Inupiat 
Corporation in their requests to open ANWR. In our consultations with 
the Native Village of Kaktovik and our shareholders in Kaktovik, they 
overwhelmingly told ASRC that they did not want to be ``Wilderness 
Refugees''--so we listened. This legislation proposes exactly that 
without even of a mention of the people who live there. The authors and 
sponsors of this bill have put more stock in people who live hundreds 
of miles away and the specter of a threat to 1 of Alaska's 32 herds of 
migrating caribou which sometimes calve in the 1002 Area than the 
people who actually live there. This Committee should be doing 
everything in its power to consult with the federally recognized tribe 
that represents the people who live, hunt, raise their children, and 
die here--not the people who visit once or twice in their life to check 
their bucket list.
    It is shameful to see Members of Congress pick and choose whether 
or not they acknowledge the human rights or even existence of 
indigenous peoples depending on their own political agenda. But, it is 
not unheard of. The Kaktovikmiut have been at the whims of the Federal 
Government for far too long. Yes, ASRC has lobbied for the opening of 
the Coastal Plain. We respect the autonomy of the Kaktovikmiut and we 
joined them, Voice of the Arctic Inupiat, and the majority of tribes 
across the North Slope (where the 1002 Area is located) in taking this 
message to Congress. We have the resources to support our shareholders 
and local tribe, and we will do so.
    I do not expect that all Members of Congress will understand why I, 
ASRC, or the people of Kaktovik support the opening of the Coastal 
Plain for oil and gas development. Just as I may not be familiar with 
the on-the-ground efforts of Californians to reduce their dependence on 
fossil fuels, members of this body must also accept that you may not 
understand how ASRC and the North Slope Borough have worked to create 
balanced and environmentally responsible resource development in our 
region for the sole purpose of elevating the lives of the people who 
live there--as is our right. When I was invited to testify to the 
Subcommittee, I assumed there was a lack of knowledge or understanding 
by the authors and supporters of the legislation, but I did not expect 
we would be side-stepped completely in the debate, omitted entirely in 
the proposed legislation, or chastised for utilizing our lands and 
resources to empower our own lives.
    ASRC does own 92,000 acres of subsurface in the Coastal Plain. 
However, we have been unable to develop our land since the Alaska 
National Interest Lands Conservation Act--which also expanded Federal 
lands in my region to be the behemoth it is today. For emphasis, ASRC--
a private, indigenous landowner--cannot develop our own private land 
within the 1002 Area without express consent from the Federal 
Government. This is another blot in the history of the Federal 
Government's obliteration of indigenous rights and sovereignty, and the 
authors and sponsors of this legislation are on the wrong side of 
history. To add insult to injury, the surface owner, Kaktovik Inupiat 
Corporation, suffers 10-fold. ASRC has other opportunities across the 
North Slope and Nation, KIC only owns land in Kaktovik. Yet, they are 
ignored. It saddens me that this taking of indigenous land or 
disparaging of our self-determination does not seem to meet the 
threshold of a human rights issue to the authors of this legislation.
    Representative Huffman asked if we are going to honor the 
indigenous people who rely on this land. I encourage you to do just 
that by listening to the actual indigenous landowners, the tribe within 
the Coastal Plain--the Native Village of Kaktovik, or the Inupiat who 
actually live here and rely on this land. Representative Huffman said 
this was a choice between big oil or indigenous peoples. It is not, and 
you are wrong. It may be inconvenient for supporters of this 
legislation to acknowledge that indigenous people do not fit neatly in 
a box, but here we are.

    In closing, I would like to address a few of the other 
inconsistencies raised during the hearing.

    <bullet> My testimony in a Senate hearing on the opening of ANWR 
            was represented incorrectly in order to drive further 
            wedges between the Inupiat and Gwich'in people. 
            Environmental groups have long frequented our communities 
            promising Alaska Natives trips and money to advocate their 
            agendas. The Arctic has become a posterchild of fundraising 
            campaigns regardless of the people who live here or the 
            economy needed to survive here. This does indeed happen. I 
            think Congresswoman Degette clarified this best with the 
            evidence she submitted to the hearing record of Nation-wide 
            meetings hosted by Defenders of Wildlife and The Wilderness 
            Society that my fellow panelist attended, spoke, and toured 
            the Nation hosting these meetings to advocate against the 
            opening of ANWR.

    <bullet> The 2,000-acre limit on surface disruption of the Coastal 
            Plain is a thoughtful way Congress provided for balanced 
            development of the Coastal Plain. It is also a testament to 
            the advancements in modern technology which make that limit 
            even possible. To put this in perspective, the city of 
            Kaktovik itself is approximately 640 square acres, or 1 
            square mile, of roads, homes, a school, and an airport in 
            the Coastal Plain. The maximum footprint of resource 
            development in the program area will be about three times 
            the city of Kaktovik--or about 3 square miles in a 2,344 
            million square mile area.

    <bullet> The Coastal Plain of ANWR is not a wilderness area. While 
            the U.S. Fish and Wildlife Service previously managed this 
            area as wilderness, the reality is that their management in 
            this manner did nothing to encourage the Porcupine Caribou 
            Herd to calve here and in fact prohibited Alaska Natives 
            from accessing their own ancestral lands. There is evidence 
            of human presence and infrastructure across the Coastal 
            Plain that negates this area being classified as 
            wilderness.

    <bullet> The Environmental Impact Statement prepared by the Bureau 
            of Land Management is a robust document, and the BLM has 
            taken seriously their obligation to consult with indigenous 
            peoples inside the Program Area and even indigenous peoples 
            hundreds of miles away.
    <bullet> The Porcupine Caribou Herd are not naive to development. 
            In fact, within their migratory range is the Dempster 
            Highway, the Dalton Highway, several towns and villages, 
            and the oil rich Mackenzie River Basin and Eagle Plains in 
            Canada. The Dempster Highway provides an important 
            subsistence thoroughfare for indigenous people in Canada to 
            hunt the Porcupine Caribou herd as they cross this road on 
            their way to calve. The Porcupine Caribou Herd already 
            encounter infrastructure with no negative impact to their 
            migration.

    <bullet> The Coastal Plain of the Arctic National Wildlife Refuge 
            represents a small portion, approximately 17 percent, of 
            the Porcupine Caribou Herds massive 8.9 million acre 
            calving habitat. Traditional Knowledge and western science 
            both tell us that the herd does not calve exclusively in 
            the Coastal Plain, and in recent years the herd has calved 
            outside of the Coastal Plain to the east in Canada. Still, 
            BLM has taken the calving habitat into account by putting 
            layers of protection in their Leasing Program for calving 
            caribou.

    <bullet> The State of Alaska Department of Fish & Game actively 
            monitors all 32 caribou herds in Alaska, including the 
            Porcupine Caribou Herd. The herds have demonstrated to be 
            resilient and somewhat indifferent to infrastructure--
            Traditional Knowledge also supports this. The Inupiat are 
            experienced in managing this resource as demonstrated by 
            the condition of herds which frequent more developed areas 
            of the region.

    <bullet> Infrastructure can impact wildlife if designed improperly 
            or mitigation measures are neglected; however, the Inupiat 
            people have learned a lot from overseeing resource 
            development across the North Slope and have tools in place 
            to guard against impacts. We understand these impacts and 
            how to minimize them. Design features like slopes of roads, 
            height of roads, separation between pipelines and roads, 
            and a winter construction season are examples of 
            requirements we have worked hard to imbed in resource 
            development activities in our region--and they are 
            successful in preserving balance between resource 
            development and the environment and our culture.

    <bullet> There has never been a reported fatality or injury from 
            seismic exploration on polar bears ever on the North Slope. 
            The U.S. Fish & Wildlife Service issues permits for oil and 
            gas activity, including seismic, which require robust 
            mitigation measures designed to protect even behavioral 
            disruptions to polar bears, like the turning of their head. 
            This process works. As Dr. Amstrup stated: ``we already 
            know what needs to be done to protect polar bears.'' Yes, 
            we do.

    <bullet> The polar bears which use the Coastal Plain are the same 
            bears that roam throughout Prudhoe Bay, are hunted 
            commercially in Canada, and which are known to den near 
            industrial areas.

    <bullet> ASRC has lobbied for the opening of the Coastal Plain for 
            oil and gas development, but Congressman Huffman is 
            incorrect in his prosecution of ASRC's advocacy efforts. 
            The $500,000 spent in lobbying which Congressman Huffman 
            berated me on is over a 5-year period and covers a 
            multitude of issues. In contrast, NRDC, Congressman 
            Huffman's former employer, spent close to $1 million just 
            in 2018 alone lobbying against leasing in the 1002 Area. We 
            do not enjoy these long trips to DC or spending money to 
            use protecting our own land rights, but this is the system 
            Congress has designed. It seems hypocritical that the 
            author of this bill can work for an environmental lobbying 
            firm, use a misleading map created by an environmental 
            lobbying firm during this hearing, and collaborate with 
            environmental lobbyist on this legislation without pause, 
            yet ASRC's advocacy to access and use our lands and support 
            our companies is somehow unacceptable.

    <bullet> It is not hyperbole that H.R. 1146 would reverse quality 
            of life gains. These may not be undone tomorrow, but if 
            passed it will absolutely take future opportunities off the 
            table that will sustain our communities and undermine the 
            means to provide the same (or better) quality of life to 
            future generations. At the very least it would be 
            demoralizing to the Kaktovikmiut and to our Alaska Native 
            self-determination. We do not wish to go back to the times 
            of using seal oil for heat and light, we want progress and 
            a better life for our children too. Why would you deny us 
            the same privileges you enjoy in San Rafael?

                                 ______
                                 

Questions Submitted for the Record by Rep. Lowenthal to Richard Glenn, 
      Executive Vice President, Arctic Slope Regional Corporation
    Question 1. Mr. Glenn, if Alaska Governor Dunleavy is able to pass 
legislation that removes the authority of the North Slope Borough to 
collect property taxes on oil and gas infrastructure, most of the 
financial benefits of oil development in the Arctic National Wildlife 
Refuge to the North Slope Borough would go away. Since only 0.5 percent 
of North Slope workers live in the Borough, would the Borough's lack of 
tax revenues alter your view on oil development in the 1002 area in any 
way?

    Answer. Congressman Lowenthal, thank you for your question. ASRC 
does not support Governor Dunleavy's proposed legislation or H.R. 1146 
proposed by Congressman Huffman and sponsored by you for the exact same 
reason: We do not find it fair or just for rural residents like our 
shareholders, the Inupiat people, to bear the burden of political 
agendas.
    I support oil and gas leasing in the Coastal Plain because I have 
listened to the residents of Kaktovik and respect what they have told 
me are their needs and concerns. While the benefits of resource 
development to the North Slope Borough are well documented and 
significant, my support for oil and gas leasing in the Coastal Plain 
has always been founded on empowering the self-determination of the 
Kaktovikmiut. So, no, if Governor Dunleavy's legislation is enacted, it 
does not change my mind on what the Kaktovikmiut have communicated are 
their concerns, needs, and dreams for their community.
    Since 2016, the state of Alaska has struggled to address a budget 
deficit caused by the rapid decline in the price of oil over that same 
time. It is very obvious to anyone who lives in Alaska or who is 
familiar with Alaskan affairs that oil literally powers our state--it 
is one of our most fundamental resources to the North Slope region and 
the state, and has sustained our economy since Prudhoe Bay was 
discovered. Less oil, by taking the 1002 Area off the table as the 
legislation you support proposes, does nothing to help my state or 
region.
    You stated that only 0.5 percent of industry workers are North 
Slope residents. I am not sure the origin of this figure, but 
nonetheless it does not adequately portray the widespread economic 
impacts the presence of industry has on the North Slope region. 
Industry is quite literally the basis of our economy on the North 
Slope, even if the residents of the North Slope do not represent a 
significant portion of the direct work force, there are many indirect 
impacts, including employment opportunities spurred by industry's 
presence here. As you imply in your question, the North Slope Borough 
receives virtually all of its income from taxes levied on industry; the 
NSB is the Number 1 employer in the region, employing nearly 63 percent 
of the work force. Many of the NSB's employees are closely involved in 
the regulation of oil and gas resources on the North Slope, including 
through the execution of a permitting regime that ensures responsible 
development, the development and management of utilities and other 
infrastructure utilized by industry, and the management of fish and 
wildlife populations to ensure industry activities are fully compatible 
with the protection and preservation of those natural resources and the 
subsistence needs of North Slope residents. Between the North Slope 
Borough and Alaska Native Corporations, resource development across the 
North Slope provides for the majority of job opportunities here.
    Hypothetically, if the financial benefits to the North Slope 
Borough were taken off the table, there would still be many indirect 
benefits from resource development in the Coastal Plain which would 
continue to ripple across the region, but more directly benefit 
Kaktovik. The benefits are undeniable; jobs, contracting opportunities 
for Alaska Native owned businesses, new and improved infrastructure, 
funding for STEM programs for North Slope children--just to name a few. 
The presence of industry in our region has created much growth. I will 
leave you with two examples to consider. Utqiagvik and Nuiqsut are 
powered by local natural gas made possible by industry. If leasing 
proceeds in the Coastal Plain, natural gas could be discovered near 
Kaktovik which could power the community for generations and reduce 
emissions by replacing the existing diesel-fired plant. Natural gas is 
a cleaner source of energy and, if discovered, would have enormous 
economic benefit in reducing local families' cost of energy and 
relieving the cost to subsistence users fueling their boats and 
snowmachines. Second, the Kaktovikmiut have been essentially walled in 
by the U.S. Fish & Wildlife's management of the Coastal Plain and even 
prohibited from accessing their Native Allotments and ancestral 
traditional use areas in the summer months. Industry access and new 
infrastructure may inadvertently address this taking of indigenous land 
use and alleviate decades of entrapment from the USFWS inappropriate 
management of the non-wilderness, Coastal Plain as a wilderness.

    Question 2. Mr. Glenn, you mentioned that the ASRC subsurface 
rights in the 1002 Area had been leased in the past. Are the subsurface 
rights to any of those acres still under lease? If so, who is leasing 
them?

    Answer. Thank you for your question. Arctic Slope Regional 
Corporation was tasked by Congress to use our natural resources to 
provide for our Alaska Native shareholders, the Inupiat people of the 
North Slope. Since the establishment of ASRC by Congress, we have taken 
this mantle and attempt to better the lives of our shareholders in a 
variety of ways, one of which is leasing our subsurface minerals. ASRC 
issued leases to subsurface acreage in the 1980s during a time the 
Coastal Plain was being considered for oil and gas development and its 
potential being explored; these leases are still held by Chevron and 
BP.

    Question 3. Mr. Glenn, the opportunity to conduct seismic testing 
this season in order to establish the probable value of oil and gas 
reserves in the Section 1002 of the Arctic Refuge has now passed. Do 
you think it makes sense for the Department of the Interior to move 
forward with a lease sale--from a revenue standpoint--before there is 
any seismic done? Are you concerned that leases won't be offered at 
their Fair Market Value as a result?

    Answer. Thank you for your question. Seismic testing is an 
important element of oil and gas exploration and must be permitted by 
the Department of the Interior. Seismic undeniably provides valuable 
information, but it is not essential before a lease sale. Seismic was 
collected across the Coastal Plain in the 1980s that can provide 
valuable information to interested parties. It is my understanding that 
the U.S. Geological Service is currently re-evaluating the existing 
seismic. From exploration previously conducted in the Coastal Plain, 
the USGS concluded that the Coastal Plain is ``the most promising 
onshore oil and gas exploration area in the United States.'' \1\ I feel 
it is the duty of the Department of the Interior to uphold the law and 
manage a leasing program for the 1002 Area of ANWR.
---------------------------------------------------------------------------
    \1\ Arctic National Wildlife Refuge, Alaska, Coastal Plain Resource 
Assessment. April 1987.

---------------------------------------------------------------------------
                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Glenn.
    The Chair now recognizes Mr. Rexford for 5 minutes.

  STATEMENT OF MATTHEW REXFORD, TRIBAL ADMINISTRATOR, NATIVE 
             VILLAGE OF KAKTOVIK, KAKTOVIK, ALASKA

    Mr. Rexford. My name is Matthew Rexford. Thank you, 
Chairman Lowenthal, Ranking Member Gosar, and members of the 
Subcommittee for the opportunity to speak to you about H.R. 
1146.
    I am Tribal Administrator of the Native Village of 
Kaktovik, a federally recognized tribe. I am here to tell you 
that I exist. We exist. The 200-plus residents of Kaktovik, my 
Uncle Fenton, who was on the previous panel, we all exist.
    Collectively, we are the Kaktovikmiut, residents of the 
only village within the so-called 1002 Area, and the only 
community within the Arctic National Wildlife Refuge. H.R. 1146 
is a continuation of the pattern of injustice we have 
experienced since the formation of ANWR under ANILCA, in that 
it erases our 11,000 years of existence on our land.
    You speak about human rights. Certainly, our human rights 
need to be acknowledged in any legislation that would undo the 
self-determination and opportunities my uncle and current and 
past leaders in Kaktovik have worked to secure.
    You say you are concerned about Arctic culture. You have 
ignored our culture. You completely disregarded us.
    The North Slope has the highest per-capita harvest of 
subsistence food in Alaska. These resources are ours, and we 
will protect them. Our local and state government already 
protects our cultural sites and keeps a robust inventory of 
traditional land use sites, cultural sites, and burial grounds 
that have been, and continue to be protected from any 
development.
    This bill gives the false perception these lands are 
wilderness, when they are not and never have been. We follow in 
the footsteps of our ancestors who have traversed these lands 
for thousands of years. The entire Coastal Plain of this Refuge 
has been continuously inhabited and used by the Inupiaq. The 
Western definition of wilderness, to us, implies desolation, a 
land without people.
    You are concerned about the caribou. Here is what the 
Kaktovikmiut know to be true: the Porcupine caribou herd's 
migration changes every year. In the last 10 to 15 years, we 
have seen their migration change to the far southeastern 
portion of the Coastal Plain and into Canada. Scientific data 
collected by Federal and state scientists support our 
traditional knowledge. According to data presented in the 
Arctic Refuge CCP, the entire Coastal Plain makes up a mere 17 
percent of the entire Porcupine calving area.
    You are concerned about polar bear; so are we. When polar 
bear were listed as threatened, the United States was mandated 
to study the health of the bear population. The Service 
conducted an unprecedented and highly invasive study. Their 
study took place at sensitive times of the year, when bears 
were emerging from their dens and when they were looking to 
make dens. We observed bears with collars so tight their fur 
had rubbed off and their necks gangrened. I believe the 
continued invasive studies of the Service, through their 
contractors, the authorized bear harassers, caused more harm to 
the polar bear than anything else they face.
    You seem to be concerned about climate change. We are on 
the front lines of it. We experience longer ice-free seasons, 
melting permafrost, and more coastal erosion, among other 
things. We bear this burden, though we contribute minimally to 
climate change. This 9,000-mile round trip will be my largest 
contribution to carbon emissions this year. Potential 
development could increase emissions by an average of 44,000 
metric tons per year. For perspective, the 53 Representatives 
from California produce over 200,000 metric tons of 
CO<INF>2</INF> traveling between DC and California every year.
    Kaktovik is asking for a chance to see what gifts God has 
bestowed upon our land, the same chance that the Gwich'in 
people asked for two decades ago. It is easy for you to take 
ANWR off the table, but remember it is our table.
    In the Arctic, science is political. We know these lands 
and wildlife better than any scientist, agency, guide, 
ecotourist, or lawmaker. If you have concerns, ask the experts, 
us.
    We already had this conversation 50 years ago when 
discoveries were made in Prudhoe. We were told the caribou 
would be decimated, our lands ruined, our subsistence and 
culture wiped out. None of that happened. The central Arctic 
herd, which calves near Prudhoe, had a 14-fold increase from 
when development began to their peak in 2008.
    We Inupiat have a dual economic system, a cash economy and 
a robust subsistence economy, which are interwoven and 
interdependent, through which our culture adapts and 
perpetuates itself.
    We will not become conservation refugees, and we do not 
approve of your efforts to turn our homeland into one giant 
national park to the benefit of the environmental corporations 
at our expense. This literally guarantees us a fate of no 
economy, no jobs, reduced subsistence, and no hope for the 
future of our people.
    We, as Inupiat people, have every right to pursue economic, 
social, and cultural self-determination. The laws of the United 
States should support indigenous populations, not interfere 
with these basic human rights.
    I submit this testimony for the record, along with a letter 
from the Voice of the Arctic Inupiat. Thank you.

    [The prepared statement of Mr. Rexford follows:]
  Prepared Statement of Matthew Rexford, Tribal Administrator, Native 
                 Village of Kaktovik, Kaktovik, Alaska
    My name is Matthew Rexford. I am here today as Tribal Administrator 
of the Native Village of Kaktovik, a federally recognized tribe. I am 
here to tell you that I exist! We exist! The 200-plus residents of 
Kaktovik, my uncle Fenton sitting next to me, we all exist! 
Collectively, we are the Kaktovikmiut, residents of the only village 
within the so-called 1002 Area, and the only community within the 
Arctic National Wildlife Refuge. Your legislation erases our 11,000 
years of existence on our land and follows a predictable pattern for 
the Federal Government. We thought you had learned from past mistakes. 
We thought we were fortunate in Alaska to hold on to our lands because 
we hadn't ceded them through treaty or hostile occupation, but here we 
are. It is 2019 and you have eliminated us.
    You speak about human rights. Certainly, it is our human right to 
at least be acknowledged in any legislation that with the sweep of a 
pen would undo the self-determination and opportunity that my uncle and 
other leaders in Kaktovik, people who are now elders, have worked 
tirelessly to secure.
    My community does exist, on the northeastern coast of Alaska along 
the shores of the Beaufort Sea. In the past, our tribe traveled freely 
over 23 million acres of land. Now, we are severely restricted in our 
travel into what you call ANWR. In the summer months, we are only 
permitted to travel up river corridors and drainages, forbidden to use 
modern modes of transportation like all-terrain vehicles that 
indigenous peoples across North America have adopted to facilitate 
travel across vast swaths of lands that are their homelands and 
birthright. I myself have traveled to almost every part of our 
traditional lands, visiting relatives in Canada by boat, snow machining 
to important hunting and campsites throughout the Coastal Plain and 
even beyond the foothills of the Brooks Range into the greater Refuge. 
Your bill gives the false perception that these lands are a 
``wilderness,'' when they are not and never have been. I follow in the 
footsteps of my ancestors who have traversed these lands for thousands 
of years. The entire Coastal Plain of this Refuge has been continuously 
inhabited and used by the Inupiaq. It was never ``wild'' until we 
became a part of America. Tribal members from the Native Village of 
Kaktovik have proven our existence in many historical documents should 
you care to do more research.
    You are concerned about the caribou. Here is what the Kaktovikmiut 
know to be true. The Porcupine Caribou Herd's migration changes every 
year. In the last 10-15 years, we have seen their migration change to 
be in the far southeastern portion of the Coastal Plain and more into 
Canada. The scientific data collected by both Federal and state 
scientists supports our Traditional Knowledge in this. According to the 
data presented in the Fish and Wildlife Service's Arctic Refuge CCP 
released in 2015, the entire Coastal Plain makes up a mere 17 percent 
of the entire Porcupine calving area.
    You are concerned about the polar bears. So are we. When Polar 
Bears were listed as a threatened species, the USA was mandated to 
gather scientific data on the bears to study the health of the 
population in Alaska. The Fish and Wildlife Service conducted an 
unprecedented and highly invasive study of the entire polar bear 
population in Alaska.
    The study took place at sensitive times of the year for polar bear, 
as they were first emerging from their dens and then again, when they 
were looking for their dens. In Kaktovik, we saw bears with collars so 
tight their fur had rubbed off and their necks gangrened. I believe 
that the continued invasive scientific studies of the Fish and Wildlife 
Service, through their contractors, their authorized bear harassers, 
are causing more harm to the polar bear than almost anything else they 
face.
    You are concerned about the Arctic culture. Studies show that the 
North Slope region has the highest per capita harvest of subsistence 
food in Alaska. We have the greatest stake in protecting our 
traditional ways of life. We have been working diligently with the BLM, 
through their NEPA analysis and our role as a Cooperating Agency, to 
identify those places. Our local government keeps a robust inventory of 
traditional land use sites, cultural sites, campsites, and burial 
grounds. North Slope standards The North Slope Borough Inupiat 
Heritage, Language, and Culture Department has continuously updated 
their robust inventory of traditional land use sites, cultural sites, 
campsites, and burial grounds; those places have been and will continue 
to be protected. These are standards on the North Slope.
    You are concerned about climate change; so are we. We are on the 
front lines of climate change. We are experiencing longer ice-free 
seasons, melting permafrost, and more coastal erosion, among other 
things. We bear this burden though we, as indigenous people with a 
heavy reliance on subsistence, contribute minimally to emissions. 
Traveling 4,500 miles from Kaktovik to Washington to prove our 
existence and advocate for my people is certainly one of the larger 
emissions that I produce all year. The draft EIS for leasing in the 
Coastal Plain concludes that ANWR development would increase global 
emissions by an average of 44 thousand metric tons per year. To put 
this into perspective, the 53 Representatives from California, in 
total, produce over 200,000 metric tons of CO2 in travel between 
Washington, DC and the state of California every year, orders of 
magnitude greater than the total emissions from developing ANWR. And 
that's assuming that we ever even get to the development stage, which 
is years in the future! We are only asking for a chance to see what 
gifts God has bestowed upon our land. The same chance that the Gwich'in 
people asked for two decades ago. I can't help but think that if they 
had found oil in their lands, we would not be having this conversation 
today.
    Perhaps the Representatives from California would prefer to travel 
on oil imported from foreign countries with less strict environmental 
standards, but we would like a piece of the pie. You consume. The 
average American consumes. And yet you ask us to bear the burden of 
mitigation so that you don't have to. It's easy for you to take ANWR 
off the table. It checks a lot of boxes for your constituents, to be 
sure: it checks the environmental box, it gives the illusion of 
supporting Indigenous peoples, cherished wilderness--check. It 
certainly checks the public perception box that environmental 
corporations and the outdoor industry have spent so much money to 
create.
    If you are concerned about the balance we have been working to 
cultivate on the North Slope between protecting our environment, 
wildlife, and subsistence while our economy relies heavily on 
responsible resource development; you should ask the experts--us. The 
Kaktovikmiut know these lands and the wildlife that rely on them better 
than any scientist, agency, hunting guide, eco-tourist, or lawmaker 
ever can. We heard the same concerns 50 years ago when oil discoveries 
were made in Prudhoe. We were told the caribou would be decimated, our 
lands ruined, our subsistence and culture wiped out. As it happens, 
none of this came to fruition. In fact, the population of the Central 
Arctic Herd, which calves near Prudhoe Bay, marked a 14-fold increase 
from when development began in Prudhoe to their peak population in 
2008. Our communities on the North Slope have developed a dual economic 
system in which a modern cash economy and traditional subsistence are 
interwoven and interdependent, and through which our culture adapts and 
perpetuates itself. In the Arctic, even science is political.
    We will NOT become conservation refugees. We do NOT approve of your 
efforts to turn our homeland into one giant national park, which would 
literally guarantee us a fate with no economy, no jobs, reduced 
subsistence, and no hope for the future of our people. We, as Inupiat 
people, have every right to pursue economic, social, and cultural self-
determination. The laws of the United States should support Indigenous 
populations, not interfere with these basic rights. Quyanaq for this 
opportunity to testify.
                                 notes
Rationale for 200,000 metric tons
    It is 2,442 miles as the crow flies from Washington, DC to San 
Francisco. According to the Emission Inventory Guidebook, a Boeing 737 
aircraft produces 11 metric tons of CO2 for a 575 mile flight; about a 
quarter of the total distance to California. One Representative from 
California traveling one way produces almost 50 tons of CO2. The 
congressional Management Foundation states that the typical House 
Member returns to their district 40 or more times a year. 100 tons of 
CO2 round trip x 40 trips per year x 53 California Representatives = 
about 212,000 metric tons of CO2 per year.
Caribou
    Caribou inhabit the 1002 Area and are an important subsistence 
resource for the Inupiat people and our Gwich'in neighbors in both 
Canada and Alaska. Potential impacts of leasing on caribou are well 
analyzed. While the Coastal Plain is an important area for the 
Porcupine Caribou Herd (PCH), it is important to consider the 
following:

  (1)  the Gwich'in and Kaktovikmiut harvest both the Central Arctic 
            Herd (CAH) and PCH;

  (2)  the Coastal Plain is a small portion of the PCH total calving 
            area;

  (3) the PCH interacts with development in their migratory range 
            outside of the Coastal Plain; and

  (4) Caribou are resilient to industry areas.

    First, the PCH is an important resource to both Inupiat and 
Gwich'in, however according to the 2010 Harvest Management Plan for the 
Porcupine Caribou Herd in Canada, ``Alaska makes up about 15 percent of 
the total reported harvest of the Porcupine Caribou herd . . .'' \1\ It 
should be noted that the PCH are primarily harvested by indigenous and 
non-indigenous peoples of Canada. Instead, in addition to the PCH, both 
people of Kaktovik \2\ and the Gwich'in of Arctic Village and Venetie 
\3\ harvest from the Central Arctic Herd (CAH) which calve in Prudhoe 
Bay area and the PCH. This is in part due to the fact that ``[T]here is 
a lot of mixing between the Teshekpuk, Central Arctic, and Porcupine 
herds.'' \4\ The mixing of the herds is an important detail that 
showcases the intersectionality of the herds that may lead to members 
of the PCH calving in industrialized areas and members of other herds 
being harvested by both the Inupiat and Gwich'in. It should be noted 
that although the PCH is an important resource for both the Gwich'in 
and Inupiat people, it is not the only herd that is harvested by Alaska 
Natives in and around ANWR.
---------------------------------------------------------------------------
    \1\ Harvest Management Plan for the Porcupine Caribou Herd in 
Canada March 2010 Page 33.
    \2\ ADF&G Porcupine Caribou Bulletin Summer 2017, ``. . . because 
the Porcupine caribou herd does not have a set migratory route they 
follow every year, the community cannot always rely on them for food. 
Although community members harvest Porcupine caribou when they are 
available, they relied much more heavily on the Central Arctic herd in 
recent years.''
    \3\ Arctic National Wildlife Refuge Revised Comprehensive 
Conservation Plan. USFWS. January 2015. Page 4-105.
    \4\ ADF&G Porcupine Caribou Bulletin Summer 2017.
---------------------------------------------------------------------------
    Second, the PCH are versatile in their calving and migration 
patterns across Northern Alaska and Northwest Canada. Within the past 
20 years there was a decade when the PCH did not even calve in the 
Coastal Plain, and in recent years when the PCH did use the Coastal 
Plain for calving, it did not use the Coastal Plain exclusively. From 
the 2015 Arctic National Wildlife Refuge Comprehensive Conservation 
Plan (CCP), ``Between 2002 and 2009, no estimates of abundance were 
available. During this period, caribou left the coastal plain and the 
northern foothills of the Arctic Refuge earlier and did not form large 
post-calving aggregation . . .'' \5\ And again, ``In 7 of 11 years 
during 2004-2014, calving occurred on the coastal plain, primarily in 
the Yukon between the Alaska-Canada border and the Babbage River. In 
the other 4 years, calving occurred both in Alaska and Canada, and some 
calving occurred in the 1002 area during 3 of those years'' \6\ 
[Emphasis added]. The PCH do not reliably calve in the coastal plain 
each year and that the entire coastal plain is a very small portion of 
their entire calving region. For perspective, data in the Fish and 
Wildlife CCP shows that the entire coastal plain makes up a mere 16.8 
percent of the entire PCH calving area. In other words, roughly 83 
percent of the PCH calving habitat is entirely outside of the coastal 
plain.
---------------------------------------------------------------------------
    \5\ Arctic National Wildlife Refuge Revised Comprehensive 
Conservation Plan. USFWS. January 2015. Page 4-99.
    \6\ Species Management Report: Caribou Management Report. ADF&G, 
Division of Wildlife Conservation. June 2014. Page 15-8.
---------------------------------------------------------------------------
    Third, it is important to consider that the PCH has been exposed to 
development and infrastructure during their migration. In the course of 
their migration, the PCH travel through Canada's oil rich Mackenzie 
River Basin and Eagle Plain Basin and cross the Dempster Highway.\7\ In 
fact, as the Harvest Management Plan for the Porcupine Caribou Herd in 
Canada details, the Dempster Highway is an important area for hunters 
and subsistence users to harvest from the PCH.\8\ The Dalton Highway is 
also within the range of the PCH. It should be noted that while 
development in the Coastal Plain would be new, because of the exposure 
to development throughout its migration, the PCH may be more habituated 
to infrastructure and development which could lessen the degree at 
which caribou are impacted from the oil and gas leasing program. As the 
EIS for the nearby Point Thomson development reported:
---------------------------------------------------------------------------
    \7\ Species Management Report: Caribou Management Report. ADF&G, 
Division of Wildlife Conservation. June 2014.
    \8\ Harvest Management Plan for the Porcupine Caribou Herd in 
Canada March 2010 Page 28.

        ``Studies of interactions between caribou and traffic within 
        the North Slope oil fields have occurred in oil field areas 
        that are closed to hunting and show that caribou, including 
        cows with calves, become tolerant of traffic disturbances 
        during the course of each summer season (Haskell et al. 2006, 
---------------------------------------------------------------------------
        Haskell and Ballard 2008)'' (Page 5-286).

    Fourth, It is important to highlight that despite concerns over the 
decimation of the caribou population, caribou do continue to inhabit 
areas where industry is present. From the ANWR Leasing Program DEIS 
ANILCA 810 Analysis: ``Caribou could still forage within the total 
footprint of a Central Processing Facility and its associated satellite 
well pads, for example.'' \9\ The Central Arctic Herd (CAH) which 
frequent the Coastal Plain and ANWR calve in Prudhoe Bay area, one of 
the most prolific onshore oil and gas developments in the United 
States. Both the PCH and CAH also experience a degree of ``mixing,'' 
\10\ in other words, it is likely that members of the PCH may calve and 
migrate through Prudhoe Bay with the CAH and vice versa. Despite the 
presence of oil and gas infrastructure and development, the populations 
of all three herds are at higher levels than when development first 
began.
---------------------------------------------------------------------------
    \9\ ANWR EIS, Appendix E: ANILCA 810 Analysis. Page E-6.
    \10\ Porcupine Caribou Summer News. Available at: http://
www.adfg.alaska.gov/static/home/library/pdfs/wildlife/
porcupine_caribou_news/porcupine_caribou_news_summer_2017.pdf.
---------------------------------------------------------------------------
Public Health
    The Journal of the American Medical Association published a study 
in 2017 comparing life longevity in United States counties from 1980 to 
2014 titled ``Inequalities in Life Expectancy among U.S. Counties 1980-
2014: Temporal Trends and Key Drivers.'' \11\ The study concludes that 
life expectancy on the North Slope has increased by 13 years over the 
34 years analyzed. The factors identified as having the most impact on 
the variation in life expectancy between geographic regions were 
poverty rate, high school graduation, unemployment, and access to 
health care. Production began in Prudhoe Bay in 1977 and provided the 
North Slope Borough with the economic base to provide jobs, education, 
and health care to our region, which has drastically increased our life 
expectancy over a relatively short amount of time.
---------------------------------------------------------------------------
    \11\ Dwyer-Lindgren L, Bertozzi-Villa A, Stubbs RW, et al. 
Inequalities in life expectancy among U.S. counties 1980 to 2014. JAMA 
Intern Med. Doi: 10.1001/jamainternmed.2017.0918. Published online May 
8, 2017.
---------------------------------------------------------------------------
    The Alaska Department of Health and Social Services has identified 
poverty as a critical health concern, as it is associated with: food 
insecurity, inadequate and unhealthy housing, low levels of educational 
attainment, unemployment, poor access to health care, reduced life 
span, and increased mortality. Health conditions and risk factors 
associated with poverty include disability status, poor general health, 
poor mental health, cardiovascular disease, diabetes, chronic lung 
disease, asthma, obesity, binge drinking, and cigarette smoking.\12\
---------------------------------------------------------------------------
    \12\ Alaska Department of Health and Social Services: Income and 
Poverty.
---------------------------------------------------------------------------
Arctic Culture
    We have the greatest stake in protecting our resources. According 
to the Baseline Community Health Analysis Report, the North Slope 
Borough has among the highest per capita harvests of subsistence food 
in Alaska.\13\ Data from the 2003 census shows that virtually all 
Inupiat households reported relying on subsistence resources to some 
extent. Further, studies show income opportunities in Northern Alaska 
do not appear to substantially affect participation in subsistence 
activities, and residents state that they would prefer to participate 
in a combination of wage-based and traditional subsistence 
activities.\14\ Even household heads with full-time employment relied 
heavily on traditional food sources.\15\ What exists in the communities 
on the North Slope is a dual economic system in which a modern cash 
economy and traditional subsistence are interwoven and interdependent, 
and through which our culture adapts and perpetuates itself.
---------------------------------------------------------------------------
    \13\ Wolfe, R.J.: ``Subsistence Food Harvests in Rural Alaska, and 
Food Safety Issues,'' Paper presented to the Institute of Medicine, 
National Academies of Sciences Committee on Environmental Justice, 
Spokane, Washington, August 13, 1996. Accessed online at http://
www.subsistence.adfg.state.ak.us/download/food962.pdf.
    \14\ Poppel, B., J. Kruse, G. Duhaime, and L. Abryutina. 2007. 
Survey of Living Conditions in the Arctic (SLiCA) 
www.arcticlivingconditions.org.
    \15\ Baseline Community Health Analysis Report. North Slope Borough 
Department of Health and Social Services, July 2012.
---------------------------------------------------------------------------
    In fact, in many cases, income and employment levels support 
subsistence activities in our communities. People continue to hunt and 
fish, but aluminum boats, outboards, all-terrain vehicles now help 
blend these pursuits with wage work. These things cost money and 
require income and employment to support them.
Oil & Gas in Gwich'in Lands
    It is important not to mistakenly view the Gwich'in culture as 
``anti-development,'' when in fact Gwich'in communities have also 
pursued resource development interests in their own lands. In the 1980s 
the village of Venetie sought to lease all of their lands to oil and 
gas companies to spur economic development and jobs for their people. 
In the Senate Congressional Record for March 8, 2000, a letter from the 
Native Village of Venetie ``giving formal notice of intention to offer 
lands for competitive oil and gas lease. This request for proposals 
involves any or all of the lands and waters of the Venetie Indian 
Reservation . . . which aggregates 1.8 million acres . . .'' \16\ Exxon 
completed seismic in the 1980s and drilled core samples in the Yukon 
Flats Basin.\17\ More recently, Doyon Limited, according to their oil 
and gas ``Acquisition Opportunity'' flyer,\18\ completed 52 square 
miles of 3D seismic in the Stevens Village sub-basin of the Yukon Flats 
in 2013 and is actively seeking lessee's to explore ``prospectivity'' 
of its entire 1.48 million acres of ``underexplored but highly 
prospective oil/gas bearing sub-basins'' surrounding the Gwich'in 
villages of Fort Yukon, Stevens Village, Beaver, Birch Creek, and 
Chalkyitsik.
---------------------------------------------------------------------------
    \16\ Congressional Record--Senate, March 8, 2000 pg. 2242.
    \17\ Yukon Flats Basin, Alaska: Reservoir Characterization Study. 
State of Alaska Department of Natural Resources, Division of Geological 
& Geophysical Surveys 2006. Accessed online: http://dggs.alaska.gov/
webpubs/dggs/ri/text/ri2006_001.pdf.
    \18\ Acquisition Opportunity--Yukon Flats Basin Central Alaska. 
http://doyonoil.com/Content/pdfs/YukonFlats.pdf.
---------------------------------------------------------------------------
    In Canada, development has occurred in the Eagle Plains and current 
projects for the Peel Plateau watershed are in the planning process. 
Both areas lie within the Porcupine Caribou herd's winter range. In May 
2018, the Vuntut Gwitchin Government published their Oil and Gas 
Engagement Policy outlining a policy to ``establish a respectful, 
transparent, and meaningful framework to guide the engagements of the 
Vuntut Gwitchin Government in relation to Oil and Gas Activities and 
Oil and Gas Dispositions in a manner that supports and upholds the 
objective of Sustainable Development.'' The document further defines 
Sustainable Development as ``beneficial socio-economic change that does 
not undermine the ecological and social systems upon which communities 
and societies are dependent.'' We agree with their policies and would 
like the opportunity to explore the same opportunities on our own 
lands.
Polar Bears
    While the Southern Beaufort Stock (SBS) of polar bears do utilize 
the 1002 Area, their habitat expands beyond the coastal plain and the 
``species is widely distributed at low densities . . .'' \19\ The SBS 
stock of polar bears have a large range from Point Hope to south of 
Banks Island and east of the Ballie Islands, Canada.\20\ The same stock 
of polar bears utilizing the coastal plain also move through the areas 
of industry activity seasonally, this suggests that industry activities 
in the geographical area will have relatively few interactions with 
polar bears.\21\ Further, SBS polar bears do not use the coastal plain 
exclusively as the SBS spends the majority of the year near the coast, 
moving further offshore in the summer to the pack ice \22\ and also 
frequent industrial areas like Pt Thomson, Badami, Prudhoe Bay, 
Kuparuk, Alpine, and developed areas east in Canada.
---------------------------------------------------------------------------
    \19\ NPRA IAP EIS pg 346.
    \20\ Alaska Marine Mammal Stock Assessments. National Oceanic and 
Atmospheric Administration, National Marine Fisheries Service. 2017.
    \21\ FWS ITR FR 52304.
    \22\ The Use of Sea Ice Habitat by Female Polar Bears in the 
Beaufort Sea. OCS Study, U.S. Geological Survey, Alaska Science Center, 
Anchorage, AK. 2004.
---------------------------------------------------------------------------
    As distinguished in the NPRA IAP EIS, polar bears do have a certain 
degree of fidelity to their denning areas but there is a significant 
alteration in specific denning sites. Studies show that 46 dens have 
been documented in the Coastal Plain over a 40-year period. Fish and 
Wildlife Service (FWS) conducted a Forward Looking Infrared Radar 
(FLIR) survey in the Coastal Plain in the winter of 2018. The 
preliminary results, according to FWS, were that FWS detected five 
dens. Of that total, one had been abandoned prior to use, two were 
confirmed polar bears dens, and two were fox dens. These results 
provide clear insight into how polar bears are using the Coastal Plain 
for denning, and gives a degree of confidence on the efficacy of FLIR 
Surveys as they were successful in identifying even fox dens.
    Through Traditional Knowledge, we understand that polar bears and 
terrestrial mammals like caribou are inherently mobile and their use of 
their habitat can vary widely. Through the robust mitigation measures 
established by the North Slope Borough, Fish and Wildlife Service, and 
the Bureau of Land Management, impacts to polar bears have been 
negligible from resource development activities for decades. The FWS 
Incidental Take Regulation have successfully minimized impacts to polar 
bears from oil and gas activities on and offshore:

        ``Since 1993, the documented impacts of incidental take by 
        Industry activity in the Beaufort Sea ITR region affected only 
        small numbers of bears, were primarily short-term changes to 
        behavior, and had no long-term impacts on individuals and no 
        impacts on the SBS polar bear population, or the global 
        population.''

    While the FWS Beaufort Sea ITR do not include the 1002 Area, the 
monitoring and permitting encompasses a much larger geographic area, 
manages the same stock of polar bears, and oversees a larger industry 
footprint than what is allowed under the 2,000 acre limit set by 
Congress.
Potential for Local Energy
    Future leasing and subsequent activities could benefit the local 
community of Kaktovik directly. Specifically, local energy development 
is a potential outcome of prospective leasing and development. In 
Utqiagvik, the discovery of natural gas resource near the community led 
to natural gas being available and affordable to its residents, despite 
being uneconomical for industry to pursue. The community of Nuiqsut 
also benefits from natural gas as an outcome of development at Alpine. 
As seen with Nuiqsut and Utqiagvik, local natural gas can significantly 
offset high fuel costs and is a meaningful, long term benefit to the 
local people and environment.
Land Issues
    Since ANILCA, the Kaktovikmiut have been limited in their access to 
their Native allotments, traditional subsistence areas, campsites, and 
generally throughout the Coastal Plain and greater ANWR. Residents of 
Kaktovik are restricted to traverse the 1002 Area only in the winter 
time and cannot utilize All-Terrain Vehicles (ATVs) to access their 
allotments within or outside of the 1002 Area. These limitations are 
culturally insensitive and go against the nomadic lifestyle of the 
Kaktovikmiut. Ironically, potential roads to facilitate development may 
dramatically increase the local people's access to the Coastal Plain 
and help create throughways subsistence users can use year-round.
    The prolific resource discovered in the 1002 Area is in a region 
that has demonstrated environmental stewardship, cultural preservation 
and growth, and a vibrant oil and gas industry can and do co-exist. The 
precedent setting efforts by Alaska Natives, industry, and agencies to 
reduce the environmental footprint of development, promote technical 
advancements, and install mitigation measures to protect wildlife, 
subsistence, and the environmental have changed the nature and scope of 
resource development on the North Slope and the world. Although the 
1002 Area has been off limits to resource development activities since 
the 1980s, development occurs adjacent to the Coastal Plain in both 
Alaska and in nearby Canada. The Point Thomson facility is mere miles 
away from the 1002 Area.
History of Development
    Alaska Natives have worked tirelessly to shape development in our 
region and the same tools we have put in place in Prudhoe Bay, Alpine, 
Kuparuk, Point Thomson, and offshore will be incorporated into any 
future activity in the 1002 Area. We emphasize this long history to 
showcase not only the pivotal role Alaska Natives have played in 
setting the standards for responsible development in our region, but to 
stress that resource development activities in the 1002 Area will not 
occur haphazardly, but will be the outcome of decades of diligence to 
reduce the environmental footprint, preserve our Inupiat culture, and 
to secure a benefit in local development for the local people. While to 
some, development in the Arctic may be a novel concept, it is not to 
the people who live here.
    Carefully designed mitigation measures by Alaska Natives, industry, 
and the NSB, which are incorporated into resource development in our 
region can be credited for the negligible impact that development has 
had on our environment and traditional ways of life. Through the use of 
science and Traditional Knowledge, best practices have been implemented 
to reduce or avoid impacts such as: adequate pipeline height to not 
impede migrating caribou; sufficient distance between pipeline and road 
to avoid deterring crossing caribou; specifications on road height and 
slope; thoughtful design on road placement to avoid funneling migrating 
caribou; aircraft altitude guidelines; time-are closures; and other 
restrictions on operations. These safeguards have worked to protect 
caribou across the North Slope and we are confident that through 
coordination with the people of Kaktovik, these mechanisms can be 
successfully applied to oil and gas programs the Coastal Plain.

                                 *****

                               ATTACHMENT

                        VOICE of the Arctic Inupiat
                                         Point Hope, Alaska

                                                     March 20, 2019

Hon. Jared Huffman,
1527 Longworth House Office Building,
Washington, DC 20515.

Re: H.R. 1146--Arctic Cultural and Coastal Plain Protection Act

    Dear Representative Huffman:

    Voice of the Arctic Inupiat (VOICE) strongly opposes H.R. 1146 
amending Public Law 115-97 to repeal the Arctic National Wildlife 
Refuge (ANWR) oil and gas leasing program. Beyond the fact that your 
bill would repeal an opportunity that the Inupiat people have fought 
for decades to achieve, we are struck by the lack of knowledge 
displayed in this legislation, which completely ignores the existence 
of the Inupiat people, and especially the people of Kaktovik. The 
Native Village of Kaktovik is a federally recognized tribe and the 
Kaktovikmiut have occupied the Coastal Plain for at least 11,000 years.
    The Coastal Plain is home to more than just caribou and none of the 
Coastal Plain is wilderness. It is not a place without people; it never 
has been--it has been continuously occupied by the Inupiat people and 
our ancestors for millennia, and we find it insulting that you fail to 
acknowledge this history. Currently, the Coastal Plain is the home of a 
community of over 200 people. People who live, hunt, fish, raise their 
families, and hope for a secure economic future for their children. 
People who walk in the footsteps of their ancestors all over the land 
that Congress, without our permission, designated as the 1002 Area of 
the Arctic National Wildlife Refuge. People that you have completely 
disregarded because they generally do not agree with you. In light of 
this, Congressman, your concern about human rights seems a bit pale.
    When we, Indigenous peoples, use terms like self-determination, 
sovereignty, economic equality, cultural survival, and traditional 
lands, they are more than just buzzwords. These are objectives that 
have long been denied us and for which we have had to fight for 
generations. It is not for you to ignore those ideas, nor the people 
fighting for them, in favor of those who are more aligned with your 
political agenda. To us, this issue goes beyond politics to the very 
sustainability of our communities, culture, and economy.
    The Arctic Cultural and Coastal Plain Protection Act undermines the 
wishes of those of us living closest to ANWR and negates years of work 
by local stakeholders toward ensuring a sustainable economy for the 
people and communities of our region. We hope this letter might help 
you better understand the realities of life in the Arctic. H.R. 1146 
preaches a ``moral responsibility to protect this wilderness heritage 
as an enduring resource to bequeath undisturbed to future generations 
of Americans,'' but fails to acknowledge the basic needs of future 
generations of Arctic Inupiat. Our regional government, the North Slope 
Borough (NSB), is responsible for more territory than any other local 
government in the nation. The NSB receives over 96% of its revenue from 
property taxes levied on industry infrastructure on the North Slope, 
which enables them to provide services that were never accessible 
before in the Arctic. The Borough School District provides vocational 
and academic education for people of all ages; NSB health clinics 
provide modern medical services to residents in even the smallest and 
most remote of villages. The Municipal Services Department operates 
water, sewage, and electric utilities, plows roads and runways, and 
maintains landfills. Other NSB departments provide housing, police and 
fire protection, search and rescue, and other critical services to our 
communities. Altogether, the NSB is the single largest local employer 
on the North Slope, employing over 63% of the work force. These 
benefits of modern American civilization, common in the rest of the 
nation, have been built on the foundation of the North Slope oil 
industry.
    It is hypocritical of you, Congressman, to stifle the efforts of 
Kaktovik to secure jobs, a local economy, and income for their 
community while your state makes billions of dollars off the 
development of its own oil and gas resources. If you are concerned 
about the impacts of resource development, we suggest that you focus on 
your own state of California, which despite its green image, produces 
the dirtiest crude in America and has some of the largest refineries on 
the West Coast, which in addition to refining much cleaner Alaska North 
Slope Crude, also imports and refines oil from foreign countries like 
Saudi Arabia and Angola. The message this bill sends is that you 
prioritize the leisure whims of your California constituents above the 
needs of the Native people of Kaktovik.
    H.R. 1146 cites climate change as one of the main drivers of the 
bill. In reality, climate change--and the world's response to it--add 
additional layers to existing burdens that we, the Arctic's Indigenous 
people, are facing. We agree that climate change has deeply affected 
our traditional Inupiat ways of life. We do not agree that the solution 
to that problem is to create more wilderness that hinders our ability 
to provide for our people and respond to the impacts that we are 
facing. It is unfair for you to ask that we, as Indigenous peoples, 
carry the burden of climate change and the burden of mitigation so that 
you can fly back and forth to your home district with an easy 
conscience.
    Even with the services our local government provides, many of the 
people in the Arctic live in conditions that fall below acceptable 
standards of living, despite being citizens of one of the richest 
countries in the world. We are concerned and puzzled, then, by your 
focus on protecting eco-tourism and this idea of pristine, unspoiled 
wilderness--at the expense of an economy to sustain our children--that 
rich elites across America ``cherish.'' While we are certainly used to 
this harmful narrative by now, it does not seem in line with your 
democratic values. For our part, we do not see any contradiction 
between developing our resources and at the same time protecting our 
environment and wildlife. These are not diverging priorities but an 
integral piece to balance in the Arctic.
    The bill as introduced further ignores the historical and cultural 
trauma that is a part of this land and the Kaktovikmiut who inhabit it. 
The people of Kaktovik, in recent memory, have suffered through three 
forced relocations at the hands of the American military. Then, in 
1980, the federal government took 23 million acres of land--without 
consent, consultation, nor a treaty between parties--and gave the 
people of Kaktovik back 92,000 acres of land immediately surrounding 
their village. A mere fraction of their traditional and ancestral 
lands. The ``deal'' was that this land was locked up, the Kaktovikmiut 
were unable to access Native allotments, cultural sites, and 
subsistence areas in the newly expanded Refuge in the summer months. 
No, they now live with extreme restrictions on how they can use their 
own lands as a result of the changes made by the federal government in 
how the land is designated, lands that the Inupiat people have been 
stewards over for thousands of years. Do you consider these human 
rights violations, Representative Huffman? We hope, at the very least, 
that this does not diminish ``the integrity of the National Wildlife 
Refuge System,'' which in itself operates on the mistaken Western idea 
that Indigenous peoples are incompetent at managing their own lands.
    The views of the Inupiat who call ANWR home are frequently ignored, 
and your bill reinforces the perception that the wishes of people who 
live in and around the Coastal Plain are less important than those who 
live hundreds and thousands of miles away. Mr. Huffman, you do not have 
to tell the Inupiat people, who have lived on this land for 
generations, the importance of our homelands--we see it, we know it, we 
depend on it, we are a part of it. We have something very important in 
common, that often gets lost in this debate--this false dichotomy of 
``for'' vs. ``against,'' republican vs. democrat, economy vs. 
environment--we all share a commitment to protecting this land and we 
would welcome the opportunity to work collaboratively with you and the 
Gwich'in people, to whom we have extended many invitations for 
discussion, to protect this balance between responsible development and 
environmental protections that is integral to our way of life and the 
long-term sustainability of our culture.
    The Inupiat people have existed, and even flourished, in one of the 
most severe climates in the world for generations. We understand the 
balance needed to sustain our way of life and our communities; this 
priority is currently dependent on successful and safe oil and gas 
developments. We are confident that the health of the Porcupine Caribou 
Herd can be maintained given our success in maintaining the health of 
three other caribou herds that migrate within our region. We 
respectfully request that you remove your bill from consideration and 
come visit our communities to better understand the needs of our people 
and our communities. We would welcome the opportunity.

            Taikuu,

                                          Sayers Tuzroyluk,
                                                         President.

                                           Rex A. Rock Sr.,
                                                           Chairman

                                           John Hopson Jr.,
                                                      Vice Chairman

                                 ______
                                 

  Supplemental Testimony from Matthew Rexford, Tribal Administrator, 
                       Native Village of Kaktovik
    Chairman Lowenthal and Ranking Member Gosar, Quyanaq (thank you) 
for the opportunity to represent my community and the Native Village of 
Kaktovik at the recent hearing ``The Need to Protect the Arctic 
National Wildlife Refuge Coastal Plain'' on House Bill 1146, ``The 
Arctic Cultural and Coastal Plain Protection Act'' introduced by 
Representative Huffman. I realize that it is difficult to cover this 
complicated issue in a 3-hour hearing and I am grateful for this 
opportunity to provide some additional insight.
    The Native Village of Kaktovik is the only federally recognized 
tribe in the Arctic National Wildlife Refuge and the only federally 
recognized tribe in the 1002 Area of the Coastal Plain; as such, it is 
strange that Members of Congress did not seem interested in hearing our 
input and avoided asking us questions in the hearing. In this 
supplemental testimony, I hope to answer some of the questions that 
were presented to the Majority witnesses from Kaktovik's point of view 
so that you have an equitable and fair understanding of these issues 
before you make your final decision on this bill. I will also expand on 
some of the answers that were asked of myself and my fellow Inupiaq 
witnesses. I hope that you will honestly consider the views of the 
local tribal government on this issue.
    This hearing was mainly about caribou: their importance to the 
Gwich'in people and their reliance on the Coastal Plain for calving and 
insect relief. I hope it will come as a relief to you, as it did to the 
Native Village of Kaktovik, the federally recognized tribe for our 
village, that the recently released Draft Environmental Impact 
Statement has extensive protections for the critical calving area of 
the Porcupine caribou herd, and I hope you will have a chance to review 
that document, which clearly takes into account the concerns of 
Gwich'in communities south of the Refuge and in Canada.
    The Bureau of Land Management (BLM) has been diligent in their 
consultation requirements and the Native Village of Kaktovik and the 
North Slope Borough were both included as Cooperating Agencies along 
with the Native Village of Venetie Tribal Government, Venetie Village 
Council, and Arctic Village Council. These conversations between the 
BLM and the Gwich'in Tribal Governments have led to draft Alternatives 
that are very thorough in their protections of the Porcupine caribou 
herd. Even the most aggressive draft Alternative for leasing would 
impose Timing Limitations prohibiting activity in the area identified 
as primary calving habitat between May 20 and June 20 each year on 
721,200 acres--or almost half the entire Program Area. The goal of the 
Timing Limitation is to ``minimize disturbance and hindrance of caribou 
or alteration of their movement in the south-southeast portion of the 
Coastal Plain, which has been identified as important caribou habitat 
during calving.'' A further 359,400 acres of the Coastal Plain, this 
again in the most aggressive leasing alternative, are subject to No 
Surface Occupancy limitations.
    The NEPA process is working. We hope that you will applaud the 
success of these efforts rather than undermine the hard work of the BLM 
and the Cooperating Agencies (including the Gwich'in and Inupiaq 
Tribes) who have taken time, effort, and expense to work with them. 
H.R. 1146, which clearly lacks perspective and nuance, flies in the 
face of the critical principles of understanding and compromise, which 
are so desperately needed in this country--now more than ever.

QUESTIONS:

Ranking Member Gosar: How will the development of oil resources impact 
your village?

    Oil and Gas has the opportunity to bring great benefits to the 
community through advancements that the North Slope Borough provides, 
as Fenton Rexford mentioned in the hearing, but also through the 
opportunities that it could provide to our village Alaska Native 
Corporation (ANC) set up through the Alaska Native Claims Settlement 
Act--Kaktovik Inupiat Corporation (KIC)--as well as local jobs to 
community members. Our village corporation is the only ANC in Alaska 
that has been prevented from developing their own lands and is, 
therefore, unable to provide jobs for local community members. The role 
of ANCs, as set forth through Congress, is to provide an economic base 
to their community--how can they feasibly do this when they are not 
able to develop on their lands? Residents of all other communities on 
the North Slope are shareholders of their respective ANCs and are able 
to get a dividend to help them fuel their All-Terrain Vehicles and snow 
machines to participate in subsistence, supplement their Native foods 
with milk and vegetables from the local store, and buy clothes and 
other necessities for their families. They serve an important role in 
our communities and KIC should have those same rights.
    Further, I believe strongly that development near Kaktovik would 
provide stable, long-term jobs for community members. It is true that 
traditionally, local people are not employed in industry at the same 
rate that people from outside the region are. This is not due to a lack 
of willingness of industry to employ local people, rather the fact that 
it is difficult and expensive to get the training, skills, and 
experience necessary to work those jobs. Our tribal college in 
Utqiagvik, Ilisagvik College, which is also funded through the North 
Slope Borough and their tax base of industry infrastructure, has 
increased the breadth and availability of technical training courses 
specific to employment in the oil and gas industry. Tuition costs for 
students wishing to study for a degree or technical training at the 
college are highly subsidized by the North Slope Borough, and our 
regional corporation and local village corporations all provide 
continuing education funding for North Slope students.
    Wages that members of my community earn and bring back to Kaktovik 
only serve to strengthen our local economy. So far, there has been no 
other viable option for a stable industry in our region that would 
provide long-term employment. Every Arctic nation on Earth relies on 
the development of their natural resources as a central part of its 
economy. Norway, a country whose Number 1 industry is oil and gas, is 
one of the happiest, healthiest countries in the world. A thriving oil 
and gas industry allows their government to provide health care, elder 
care, higher education, advanced technology, and affordable housing 
specific to Arctic environments, among many other benefits. For many in 
Congress, Norway provides a shining example in terms of standard of 
living and model of government, but these things are not without cost; 
Norway has built this because of the responsible development of their 
natural resources. Until an alternative is put forth, we support 
responsible resource development.
Ranking Member Gosar: Were you consulted during the creation of H.R. 
        1146?

    No, we were not. We have not been consulted by the Federal 
Government in any of the harmful decisions that have been made that 
have negatively affected us. As a young man, I have lived my entire 
life under the stifling restrictions placed on our lands due to their 
status as a Refuge. There are cultural sites, burial grounds, and 
traditional subsistence areas that we cannot access in the summer 
months. These are our homelands and birthright. Indigenous peoples are 
a part of their land and ecosystem in a way that it is difficult for 
western civilization to understand, but I can tell you that this loss 
of access to our lands is like a hole in the heart of our people. 
Before you take anything further from our people, you should focus on 
correcting the wrongs that Congress has already committed.

Representative Huffman: It's nice to see the Minority care about 
indigenous peoples. However, it seems they only care about Native 
peoples when the issue involves Native corporations. Consider the 
impact of 2,000 acres of oil and gas infrastructure, 100 miles of road 
only covers 750 acres; 2,000 acres of pipelines, drilling pads, and 
roads would greatly harm the environment. How would oil and gas impact 
your communities?

    First of all, as we have stated ad nauseam, Kaktovik is the only 
community within the bounds of the Arctic National Wildlife Refuge and 
the only community in the 1002 Area. The idea that oil and gas 
development would directly affect communities a mountain range, and 382 
and 201 miles away, respectively, for Ms. Demientieff and Mr. Tizya-
Tramm to whom this question was asked, is far-fetched at best.
    Second, Mr. Huffman, does it make you any better than the Minority 
that you only seem to care about Native peoples when the issue involves 
the environment? You completely ignored us in the creation of this 
bill, attacked the representative of our congressionally created 
regional Native Corporation, and generally spoke down to us the entire 
hearing--do you feel that you have the moral high ground that allows 
you to speak to indigenous peoples about how they live in and manage 
their own homelands in this manner? Would you encourage your children 
to speak to those who disagree with them in such a disrespectful and 
dehumanizing manner that bars any opportunity for constructive 
dialogue? Or, perhaps you are uncomfortable with the Inupiat people 
because we have been successful against all odds; that we have broken 
out of the confining box that western society has placed us in to 
create a place for ourselves outside the system of complete reliance on 
the Federal Government. It seems you and members of your Subcommittee 
would prefer we do nothing but live in the image you've romanticized of 
how Native people in the Arctic should live.
    We reject the false dichotomy implied here of Democrat vs. 
Republican and ask for respect from all parties. The two party system 
is an American creation in which the Inupiat people do not wish to 
participate. Candidates for the highest elected position in our region, 
the Mayor of the North Slope Borough, do not run as members of any 
party; candidates representing our district in the Alaska Senate and 
House of Representatives rarely declare as Republican or Democrat, and 
if anything, generally represent the Democratic Party. We ask that you 
leave politics out of this and not work to exacerbate this manufactured 
division on this issue, which to us is about the cultural and economic 
sustainability of our community. We believe that there is a clear path 
toward compromise on this issue and we welcome the opportunity to work 
with any and all parties that would endeavor to help us reach this 
goal.
    I would like to clarify here that all pre-development activities 
such as seismic, exploration, and construction occur in the winter 
months when the ground is frozen and no caribou occupy the Coastal 
Plain. The Draft Environmental Impact Statement doubles down on 
mitigation measures through extensive, detailed, and comprehensive 
protections for caribou and all wildlife on the Coastal Plain. In the 
most aggressive draft alternative for leasing, operations of heavy 
machinery are forbidden in the area used as calving grounds for caribou 
during the summer months, even though there would never be any 
machinery operated in the summer months during exploration, as 
companies are required to be off the tundra by mid-April. Further, when 
the caribou do use the Coastal Plain, they generally only remain for a 
week or two, and the lease stipulations have outlined an entire month 
of no activity in order to protect the caribou. Additionally, the 
caribou generally use the southeasterly portion of the Coastal Plain 
for calving and the United States Geological Survey has outlined the 
northwesterly portion to have the highest hydrocarbon potential. Based 
on this, there is a low probability of overlap between caribou and 
infrastructure. Timing Limitations, No Surface Occupancies, and lease 
stipulations to protect caribou are designed to be a failsafe and 
provide redundant protections; they are a testament to the work that 
the BLM is putting in to protect this resource.
    Both Ms. Demientieff, who lives in the urban community of Fairbanks 
but has roots in Fort Yukon, and Mr. Tizya-Tramm, from the Old Crow 
area of the Yukon, Canada--to whom this question was asked, have reaped 
the benefits of oil and gas development in their respective homelands.
    Doyon Ltd., the regional corporation representing interior 
villages, from which Ms. Demientieff receives a dividend, is actively 
pursuing lessees for the Yukon Flats Basin--which, it is important to 
note, is adjacent to the Yukon Flats National Wildlife Refuge.
    On the Vuntut Gwitchin Government website, of which Mr. Tizya-Tramm 
is Chief, there is a document called the ``Oil and Gas Engagement 
Policy,'' published in May 2018.
    Thirty-four wells have been drilled in the Eagle Plain Basin in the 
Yukon, the most recent in 2005. Leases were issued to Chance Oil and 
Gas Ltd. in the Eagle Plain Basin in 2007. In 2012, the Yukon 
Geological Survey awarded a contract to Petrel-Robertson Consulting 
Ltd., to initiate a conventional reservoir petrophysical property 
assessment for a further 31 oil and gas exploration wells in the Eagle 
Plain exploration region in the northern Yukon Territory, well within 
the bounds of the Porcupine Caribou Herd migration. All of this 
information is available online is obviously relevant to the stated 
interests of H.R. 1146's co-sponsors. I question the truth of the 
statements provided by the Majority witnesses, who answered that 
irreparable damage would be done to their communities and that they 
would not survive when they have been active in pursuing the same 
opportunities within their own communities.

Representative Don Young: We should consider the people directly 
affected by the legislation, not people who live hundreds of miles 
away. Mr. Rexford, do you live in a wilderness area?

    These lands are not, and never have been wilderness; to us, 
wilderness implies desolation, a place without people. The entire 
Coastal Plain of the Refuge has been continuously inhabited and used by 
the Inupiaq for thousands of years. In fact, the Alaska National 
Interest Land Claims Act (ANILCA) specifically did not make the ``1002 
Area'' wilderness, and this bill is selective in its quotation of that 
Act. While the bill correctly references the purposes of the greater 
Arctic National Wildlife Refuge, it ignores the specific purposes of 
the Coastal Plain as set forth in Section 1002 of ANILCA. Section 1002 
states the purpose is ``to provide for a comprehensive and continuing 
inventory and assessment of the fish and wildlife resources of the 
Coastal Plain of the Arctic National Wildlife Refuge; an analysis of 
the impacts of oil and gas exploration, development, and production, 
and to authorize exploratory activity within the Coastal Plain in a 
manner that avoids significant adverse effects on the fish and wildlife 
and other resources.''
    While there are a few people in my community who have a steady 
income and are hesitant about leasing in the Coastal Plain, there is 
not a single person in my community who would like to see the 1002 
Area--the Coastal Plain--become a designated wilderness.

Representative Don Young: H.R. 1146 makes a wilderness out of an area 
that is not a wilderness. How long have you lived in the area, and have 
you taken care of it?

    Archaeological records show our ancestral occupation of the Coastal 
Plain dates back 14,000 years. We have been incredible stewards of our 
lands and we challenge anyone who would suggest otherwise. I do take 
offense to the notion that this is a wilderness ecosystem. H.R. 1146 
speaks more to the interests of animals who use the land seasonally 
while failing to so much as mention the people who live here and have 
lived here continuously for generation upon generation. As Fenton 
Rexford mentioned in his testimony, this bill--ironically--whitewashes 
the decades of harm that the U.S. Congress and other arms of the 
Federal Government have inflicted on our people. My uncle, a highly 
respected Elder in my community, and I are from two different 
generations of Kaktovikmiut. He witnessed the indifference of the 
military in the 1940s and 1950s as they bulldozed our homes and ice 
cellars, and watched as the Federal Government slowly but surely took 
our subsistence and cultural areas, and boxed in our community--took 
our lands and resources for their own benefit--however they might 
characterize their intentions. We are still fighting to this day for 
the military to clean up the messes that they left in our homelands. 
The Fish and Wildlife Service's regulations move only in one direction, 
a ratchet that advances slowly but surely in the name of public 
interest, one rule at a time, slowly strangling our community. Put 
yourself in our position: what would you call this if not colonialism? 
What about H.R. 1146, which writes our people out of the congressional 
``findings;'' was the Congressman who wrote these findings unable to 
find us? Was our status as a federally recognized tribal government not 
enough? In Fenton Rexford's words, ``these actions amount to nothing 
more than green colonialism. A political occupation of our lands in the 
name of the environment. Exploitation of the idea of Wilderness for 
economic gain.''
    Mr. Huffman would know better than anybody, as a former attorney of 
the Natural Resources Defense Council, the scale of the Green economy 
at work here. The literal Goliath that we find ourselves fighting. I 
find it ironic that the multi-billion dollar outdoor clothing industry, 
that underwrites multi-million dollar anti-ANWR campaigns, can make 
products out of carbon, manufactured in China--the largest emitter of 
greenhouse gases in the world and are applauded by Members of Congress, 
but the Inupiat people--the first peoples--dare not contemplate 
development in their own homelands.
    For my part, as a young man, there are places that my ancestors 
stood on the tundra that I cannot follow. Places they tracked and 
harvested caribou that I cannot go. This is wrong and rather than make 
reparations for past wrongs, this bill doubles down on them.

Representative Mike Levin: Climate change is affecting the Arctic 
greatly. Please consider the climate impacts of oil and gas exploration 
in a wilderness. How is climate change impacting you?

    Again, the Coastal Plain is not a wilderness. In her response, Ms. 
Demientieff stated that Arctic villages are falling into the sea. Ms. 
Demientieff does not live in the Arctic, nor do any of Alaska's 
Gwich'in communities live next to the sea, but she is correct that we 
are facing increased erosion from longer ice-free seasons. Newtok, a 
village of 400 people in Western Alaska, is facing imminent relocation 
due to the combination of erosion and permafrost thaw. It has taken 
them over two decades to secure enough funds to begin the relocation 
process; the total project is estimated to cost well over $100 million. 
The Federal Government has provided $15 million of that. On the North 
Slope, we have five coastal communities, one of which has almost 5,000 
people. Two more communities lie on the banks of large rivers. Is the 
Federal Government going to provide the well over $500 million dollars 
to relocate our villages when there are numerous other communities 
facing the same threats, not just in Alaska but also across America? 
No, the burden almost inevitably will be on our local government. How 
do you expect us to bear these burdens of adaptation--because in the 
Arctic we are well beyond the point of mitigation--if you erode our 
ability to fund these projects ourselves? Even assuming the Federal 
Government was willing to provide meaningful aid in our struggle with 
climate change, it is absolutely ludicrous that Members of Congress 
would use that aid or interest in aid as an excuse to railroad our 
efforts to pursue economic self-determination.

Representative Mike Levin: The Administration is rushing an 
environmental impact statement on an oil and gas leasing program: is 
the impact statement correct in its findings?

    Chief Joseph of Arctic Village states that the Gwich'in people were 
not consulted in the preparation of an EIS. This is blatantly false. 
The Arctic Village Council is a Cooperating Agency on the project and 
is also afforded government-to-government consultation as an Indian 
Tribe. The Gwich'in communities of Arctic Village, Venetie, and Fort 
Yukon are further represented through the Native American Rights Fund 
(NARF), which increases their capacity to effectively engage in the 
process and advocates to the BLM on their behalf. As a fellow 
Cooperating Agency, we have witnessed the participation of the Gwich'in 
people firsthand. The BLM has also held two public meetings over the 
past year in each of the communities of Fort Yukon, Arctic Village, and 
Venetie. The Department of the Interior has worked to include the 
International Porcupine Caribou Board (IPCB) in consultation and has 
held one formal meeting with the IPCB on a leasing program in the 
Coastal Plain, the first meeting of the group since December 2016. The 
Native Village of Kaktovik and the Gwich'in from both the United States 
and Canada all participate in that group.
    The Native Village of Kaktovik has a staff of three people: Tribal 
Administrator, Accountant, and a Homemaker for Elders Services. We have 
less capacity to participate in this process, which is extremely 
rigorous and demands a lot from Tribal Governments, than the Gwich'in 
communities of Arctic Village, Venetie, and Fort Yukon, due to their 
representation through NARF lawyers. Contrary to popular belief, we do 
not receive support from any oil and gas company, trade association, or 
lobbyist to participate and advocate for ourselves in this process. And 
yet, we have been extremely pleased with the BLM, and especially the 
Project Manager on this project, in how they have made themselves 
available for meetings and to answer our questions, comments, and 
concerns on this process, just as they have done for the Gwich'in 
communities participating in this process. As an agency of the Federal 
Government, you should be proud of their work on this EIS. If you read 
the document, I think that you will find that it is robust in its 
analysis and answers all of the questions put forth in this hearing.
Ranking Member Gosar: Have pipelines affected herds?

    I would like to address Mr. Alexander's response to this statement 
that ``the size of the Porcupine Herd is increasing because it is 
commingling with the Central Herd which is leaving its polluted 
homeland.'' While it is true there is crossover between herds, the idea 
that this intermixing is the sole reason for the population increase of 
the Porcupine Caribou Herd is ridiculous. Science shows that the herd 
is healthy. Further, extensive studies have been conducted on the 
Central Arctic Herd by both Federal and state agencies as well as 
private studies by those working within the region and there is no 
evidence of any sort of pollution of the caribou. The Alaska Department 
of Fish and Games states that oil infrastructure largely has no effect 
on caribou populations as the Central Arctic herd grew substantially--a 
14-fold increase--during peak oil development. Our homelands are not 
polluted. Our people are not polluted. Our animals are not polluted.

Representative Diana Degette: The size of the caribou herds has 
increased under Obama administration protections, the lands have been 
managed as wilderness because of concerns over caribou herds. What 
would be the impact of infrastructure on the tundra?

    First, caribou are unaware of the political administration in 
office and politics really has little impact on herd size and health. 
While it is true the Porcupine Caribou Herd grew while Mr. Obama was in 
office, it also grew in the Bush administration and continues to grow 
in the Trump administration. The Central Arctic Herd declined under the 
Obama administration, which the Alaska Department of Fish and Game has 
stated is a natural part of their population fluctuation. In other 
areas of the North Slope, the Western Arctic herd grew under President 
Bush, then experienced a decline beginning in 2005, stabilized in 2015 
under Obama, and has recently started an upward trend in the Trump 
administration. Herd size is not dependent on politics, but rather 
where they are at in their natural cycle.
    These lands have arbitrarily been managed as wilderness, despite 
having no wilderness designation, for decades. This was not an Obama 
administration policy and we saw little change in the Trump 
administration management of our homelands from the Obama 
administration, just as we saw no change between the Obama and Bush 
administrations. Again, this issue is not political. There are very 
real impacts to indigenous peoples due to the management of the Coastal 
Plain as wilderness. It is unjust and unfair that we constantly have to 
advocate for our worth in relation to a caribou herd. I am beginning to 
suspect that some Members of Congress think that we are less important 
than caribou. The Coastal Plain is not just the birthing grounds of 
caribou; it is the birthplace of people. As for our own interest in the 
caribou, we subsist on these caribou just as the Gwich'in people do. We 
have and will always protect the Porcupine Caribou Herd, and our 
advocacy will be grounded in truth, Traditional Knowledge, and science.
    Second, Ms. Degette asked this question of Mr. Alexander, who lives 
in Fairbanks and is not even from a community that has tundra. Tundra 
is a very specific biome native above specific latitudes of the 
Northern Hemisphere. Most post-lease activities occur in the winter 
months on ice roads and pads, which have a minimal, if any, impact on 
the tundra. Modern day technologies and stipulations require very 
strict remediation; gravel pads and roads can barely be seen in the 
tundra following development activities. Even wells drilled from 
decades ago with outdated machinery and technology can barely be seen 
in the tundra.
Chairman Lowenthal asked a series of questions about polar bears.

    The Inupiat witnesses were not asked about polar bears, but as we 
cohabitate these lands with the bears, the Inupiat have extensive 
knowledge on the behavior of polar bears. Polar bears, though the term 
``stock'' is thrown around a lot in scientific communities and implies 
different sub-species, are all part of one population and are very 
mobile, capable of walking and swimming incredibly long distances. 
Polar bears in Alaska are the same as polar bears in Russia, are the 
same as polar bears in Greenland, etc. We do not believe there is an 
accurate method for counting and monitoring polar bears due to their 
extensive ranges and the extreme distances that they are able to 
travel. It also seems strange that Alaska populations of polar bears 
are so at risk when in Canada; just over the border from Alaska, they 
are commercially hunted.
    In the Coastal Plain, the Fish and Wildlife Service permits 
commercial polar bear viewing for people to see bears in Kaktovik using 
motorboats and vehicles. Industry is held to much higher standards and 
makes every effort possible to avoid interaction with bears. If bears 
were so concerned with industrialization, these tours would not be 
possible, as the polar bears would stay far away from our village. 
There are plenty of other places for them to be since the rest of the 
Coastal Plain is, according to the bill, wilderness. I would also 
recommend that the Subcommittee refer back to the Draft Environmental 
Impact Statement, which makes all coastal areas and lagoons--critical 
polar bear habitat--subject to No Surface Occupancy stipulations.

Representative Jared Huffman: I believe it is hyperbole to say that 
H.R. 1146 would reverse quality of life gains. It would not undo 
progress that has already been made. Mr. Glenn described his position 
as respecting human rights, but I believe it mostly respects ASRC's 
interests.

    It is absolutely not hyperbole to say that H.R. 1146 would reverse 
quality of life gains. H.R. 1146 would take away our self-determination 
and remove all hope that we will regain access to our ancestral lands. 
We have been working for 40 years toward this goal; it is the single 
most important issue to the people of Kaktovik. Folks from the 
community of Arctic Village on the southern bounds of the Refuge have 
access into the Refuge on motorized vehicles in the summer months, but 
the people of Kaktovik do not; it is an injustice. If human rights were 
as important to the sponsor as this bill implies, you would ensure that 
rights were equal across the board.
    Our local village corporation, Kaktovik Inupiat Corporation, owns 
the surface of 92,000 acres of the Coastal Plain and has been hamstrung 
in their efforts to create a for-profit business in our community, as 
they have been unable to do anything with their own land since the 
expansion of the Refuge. Congress created Alaska Native Corporations in 
order to create an economic base in even the smallest and most remote 
of communities. Kaktovik never had the chance to create that base. If 
you think that making the whole area a wilderness would not affect 
Kaktovik, you are sadly mistaken or worse, not listening.
    Our region is unique in that our local government, the North Slope 
Borough (NSB), carries out public services that are normally a function 
of the state or Federal Government. The NSB exceeds every other local 
government in the scale and scope of these services, even bearing in 
mind the smaller population of our region. We are talking about the 
largest borough in the Nation, more than half the size of California. 
The NSB has more search-and-rescue assets in our region than the entire 
Federal Government--will the Federal Government pick these up if the 
NSB can no longer afford to operate them? The borough services its own 
police and fire departments, without them the state of Alaska, which is 
experiencing a budget deficit, would have to fund them. The NSB invests 
twice as much as the state does into our regional school district--who 
will pick up these costs if you eliminate their tax base? Will our 
children once again be shipped off to boarding schools? Our Borough is 
the only local government in the Nation with its own Wildlife 
Department that is actively researching and protecting subsistence 
resources. These things can only be sustained through a long-term tax 
base for the North Slope Borough. Without them, our lives and culture 
would surely suffer.

Given that neither Fenton Rexford nor myself--the only two people who 
testified from the community of Kaktovik--received any additional 
questions from the Subcommittee, it does not seem that this group of 
Representatives is interested in hearing and considering equally the 
views of both indigenous groups with a stake in this issue. Members 
made only a cursory effort to interact with us, the federally 
recognized tribe most impacted, to understand more clearly our point of 
view. In the hearing, you heard from three tribal members and dismissed 
all of them. All of this aside, I hope that you will reach out to the 
Native Village of Kaktovik should members of the Subcommittee need 
further conversations with the people within the proposed wilderness 
area to understand how this bill would affect us, our subsistence 
values, our relationship with our lands and wildlife, or our spiritual 
connection to the Coastal Plain. Again, thank you for your 
consideration.

                                 ______
                                 

    Dr. Lowenthal. That concludes the testimony. Now we are 
going to turn to the panel, for Members to begin their 
questioning.
    I remind each Member that you have 5 minutes of time. I 
will start, recognize myself first. I am going to start with 
Dr. Amstrup.
    Dr. Amstrup, in Richard Glenn's written testimony he 
writes, ``There is zero chance that a surveyed seismic line 
will be located on top of denning polar bears.''
    First, do you agree with that? And do you believe there is 
no risk to polar bears if a seismic line doesn't run right over 
the top of a den?
    Dr. Amstrup. My studies have shown that female polar bears 
in dens react in two basic ways. There are some females that 
will respond and move away from their den, come out of their 
den when disturbances are at some distance. In my written 
comments, I use 65 meters as kind of what the data available 
suggest. Other females are much more inclined to just stay in 
the den until the last minute. So, we have a combination of 
both.
    When we see a female emerge from her den early, we don't 
know what the impact of that is. But what we do know is that, 
on average, females that stay in their dens longer, their cubs 
have a higher success rate of surviving. So, to the extent that 
we can minimize the early disruption of denning, it is a good 
thing.
    Dr. Lowenthal. Thank you. I want to follow up, Dr. Amstrup, 
if you are familiar with the 19 Fish and Wildlife Service memos 
that Public Employees for Environmental Responsibility released 
a couple of weeks ago.
    Dr. Amstrup. Yes.
    Dr. Lowenthal. You are. The cover memo includes discussion 
of polar bears' information needs in the 1002 Area. It says 
there are lots of data gaps, and lists about 24 steps that need 
to be taken, including hiring new biologists, developing better 
den detection tools, studying the response of polar bears to 
infrastructure, and so on, and so on.
    The memo estimates that it would cost approximately $2.7 
million the first year, and about $5 million in future years to 
take these steps. Does this sound reasonable, based on what we 
know and don't know about polar bears?
    Dr. Amstrup. First I would say that, for the kinds of 
studies that were being proposed by the USGS and Fish and 
Wildlife Service personnel that were interviewed for that, I 
think the cost is probably accurate. It is very expensive to 
work up there. A lot of things still need to be tested, so I 
think that that is reasonable.
    But I would also add that we already know what we need to 
know to save polar bears from extinction. We need to stop 
climate change, and we need to protect them on the ground, 
wherever possible, so as many as possible survive until we 
stabilize the climate.
    Dr. Lowenthal. Let's talk about those two things.
    It is our responsibility to deal with climate change, and I 
think that, in part, your testimony has indicated that one of 
the things we need to deal with in all this is the impact of 
climate change.
    But the other point that you have raised is what the 
impacts of development and industrialization of the North 
Slope--how that actual industrialization impacts polar bears.
    We are talking about industrialization of the Arctic Refuge 
Coastal Plain, hundreds of miles of roads, dozens of drill 
pads. Do you believe that this, once this is fully developed, 
is going to impact the polar bear?
    Dr. Amstrup. Yes, I do. The decline that we started to see 
in the late 1990s in the polar bear population in the southern 
Beaufort Sea corresponded with the dramatic expansion of oil 
and gas activity across the North Slope.
    The major driver of that, we are pretty convinced, is the 
loss of the sea ice. But we can't overlook the possibility of 
cumulative effects.
    Right now, 185 kilometers of the coast, if you are a 
pregnant female polar bear coming in to look for a place to 
den, you have 185 kilometers of Northern Alaska that are 
already fragmented by roads, pipeline corridors, et cetera. 
Developing the Arctic National Wildlife Refuge would add 
another 90-plus kilometers of that. That is one more obstacle, 
a very long obstacle, for polar bears to encounter when they 
are coming in to find a secure place to den.
    Dr. Lowenthal. Thank you, and I recognize Representative 
Westerman for 5 minutes of questions.
    Mr. Westerman. Thank you, Chairman, and thank you to the 
witnesses for your testimony today.
    Reverend Lattime, your testimony implied to me that your 
position is that oil and gas production and a personal 
relationship with God are incompatible. You even referenced 
perpetuating the sins of our forefathers.
    My question to you is, is that your position?
    Rev. Lattime. No, I am not here to vilify the oil and gas 
industry. I am a consumer, as all of us are, a consumer. I 
believe, however, that because of climate change, that the 
injury that is happening to our world because of the use of 
petroleum products, we need to now begin to transition to a 
more sustainable way. And that is going to be hard work, it is 
going to take cooperation.
    But, yes, I think it is important that we do that. And, in 
fact, it would probably be a sin for us not to begin using our 
American ingenuity to develop new ways of producing energy than 
sticking to old ways that we now know are clearly, clearly 
destroying our climate.
    Mr. Westerman. And I think our American ingenuity is coming 
up with new energy sources and new ways to use and be stewards 
of what we have.
    Mr. Rexford, in 2018, California imported nearly 400 
million barrels of crude oil from foreign countries, including 
Saudi Arabia, Colombia, and Venezuela. Would the reversal that 
would happen with this bill increase our dependence on foreign 
oil?
    Mr. Rexford. I believe so.
    Mr. Westerman. So, I think the question we should be asking 
is, given that Californians are consuming nearly 700 million 
barrels of crude oil a year, why are we so keen on ensuring 
that it comes from foreign countries with worse environmental 
standards?
    And I have some charts up here that I would like to submit 
for the record.
    [Slide.]
    Mr. Westerman. This first chart shows the crude oil supply 
to California refineries. The blue is the supply from Alaska. 
The yellow is the supply from foreign countries. And you can 
see, as the supply from Alaska went down, the supply from 
foreign countries went up.
    [Slide.]
    Mr. Westerman. The second slide just shows the breakdown 
with 37 percent of those supplies coming from Saudi Arabia.
    Mr. Chairman, I would like to submit this to the record.
    Dr. Lowenthal. Without objection, they will be submitted 
into the record.

    [The information follows:]

Submission for the Record by Rep. Westerman

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               *****

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __
                                 
    Mr. Westerman. Mr. Glenn, in your written testimony you 
mention that over the past few decades, life expectancy, high 
school graduate rates, and overall economic prosperity have all 
increased along the Arctic Slope. Would H.R. 1146 reverse this 
trend?
    Mr. Glenn. Definitely. We come from a real rapid change in 
quality of life over the last few decades. In my mother's young 
years growing up on the Arctic Coastal Plain, house fires were 
common that killed whole families because fire engines couldn't 
get to the homes because the snow drifts blocked the roads in 
the winter months. Just clearing snow is a life-saving effort, 
as anyone knows who lives in a cold place.
    Disease is rampant, people using what would be considered 
third-world conditions for treating their human waste. And that 
has all changed. It has only changed because of one thing, 
because of the presence of an industry in our region that 
enabled us to improve our own quality of life.
    Mr. Westerman. And this bill claims to be about protecting 
human rights. But, Mr. Glenn and Mr. Rexford, what about your 
rights, the rights of the people who live in ANWR?
    Mr. Glenn. In an almost jaw-dropping way, the Inupiat 
people have been left out of this bill. The Inupiat Tribes have 
been left out of this bill. The Inupiat residents have been 
left out of this bill. And I can't, in clear conscience, let 
that go by without recognition. I don't understand it.
    So, yes, I think that this bill is not recognizing--if it 
is about human rights, let's be fair, open it up to everybody.
    Mr. Rexford. I would have to reiterate, or reaffirm, what 
Mr. Glenn was saying. Even our basic rights are being impeded 
upon by the restrictions of the U.S. Fish and Wildlife Service, 
and their wilderness managed lands, or the Coastal Plain, they 
are managing it as if it is designated as wilderness.
    Those restrictions, I believe, since the creation of the 
Arctic National Wildlife Refuge, created the avenue to create 
more designated wilderness areas in the Arctic National 
Wildlife Refuge, because they were stopping our people from 
getting to their private Native allotments.
    Mr. Westerman. My time, Mr. Chairman.
    Dr. Lowenthal. Thank you. I now recognize Mr. Huffman for 5 
minutes of questions.
    Mr. Huffman. Thank you, Mr. Chairman. I am sure you and I 
would love to spend an entire hearing educating some of our 
colleagues about what California is doing to actually 
accelerate the transition away from fossil fuel, although you 
would never know it, from the selective narrative that we have 
heard a little bit about today.
    And Mr. Glenn, I just want to urge you to be careful when 
we talk about these subjects. You were just invited to engage 
in some hyperbole, I believe, by my colleague from Arkansas. We 
are glad that the quality of life has improved in the 
communities that you are from, and that there has been an 
improvement in life expectancy and other health metrics.
    But you just said that this bill would reverse that. I 
think that is a dangerous exaggeration. There is nothing in 
this bill that would undo any of the progress that you have 
made. It would keep you from doing more drilling in the Arctic 
Refuge, but there is certainly nothing that would undo the very 
laudable progress that you have made. So, I want to urge that 
we be careful to stick to the actual truth and the facts.
    Now, sir, you have described your position on this issue, 
in part, as one for respecting human rights. The Inupiat, some 
of them want to see this land developed. So, I want to ask you 
a little bit about ASRC and its interest in this issue, because 
I think it is important that we understand that, as we consider 
your testimony.
    First, is ASRC a tribe? Yes or no.
    Mr. Glenn. No.
    Mr. Huffman. It is a corporation, correct?
    Mr. Glenn. Correct, created by Congress.
    Mr. Huffman. ASRC is, in fact, a multi-billion-dollar oil 
and gas corporation. The last time I checked--although a narrow 
majority of the Supreme Court would disagree with me, and a lot 
of my colleagues on the other side of the aisle would disagree 
with me--but the last time I checked I don't think corporations 
had human rights.
    How much money did ASRC spend lobbying in 2017 to open the 
Coastal Plain of the Arctic Refuge?
    Mr. Glenn. I don't have that information at hand.
    Mr. Huffman. Let me help you out. According to public 
records, ASRC spent $590,000 lobbying on oil and gas issues in 
2017. In fact, you have been described by the Center for 
American Progress as the most powerful Arctic oil lobby group. 
So, I think it is important that we not couch your interests 
here and your testimony in terms of human rights. This is about 
perhaps an age-old human quality: greed. But it is not about 
human rights.
    And I want to congratulate you, sir, because it looks like 
you are in a great position to make a lot more money. You have 
already made a lot. My understanding is that your corporation 
owns 92,000 acres of subsurface area in the Coastal Plain 
through a land exchange in 1983, correct?
    Mr. Glenn. Correct.
    Mr. Huffman. And you have been leasing that out to Chevron, 
Texaco, and BP, correct?
    Mr. Glenn. It was leased, yes.
    Mr. Huffman. Right. About how much money have you gotten 
from those big oil companies?
    Mr. Glenn. Transactions of leasing are private. The 
corporation keeps those records private.
    Mr. Huffman. Yes, but the GAO has helped us understand that 
a little bit, at least as of 1989, when they looked at this. 
They said you had received, in 1989, over $30 million from 
those big oil companies for leasing those subsurface rights. I 
would love to know what you have made since 1989, but I think 
we can all stipulate that it is probably a lot more.
    By the way, that same GAO report found that your original 
land exchange that gave you those subsurface rights was in 
violation of the public interest.
    But at any rate, during this time you have had, as a result 
of those rights, the only exploratory test well in the Coastal 
Plain, correct?
    Mr. Glenn. Correct.
    Mr. Huffman. And you have maintained the data from that 
exploration as strictly private, proprietary information. You 
are not sharing it with anyone, right?
    Mr. Glenn. That is----
    Mr. Huffman. The government doesn't know it.
    Mr. Glenn. The government knows it. All exploration is 
proprietary.
    Mr. Huffman. The Department of the Interior does not have 
your exploration----
    Mr. Glenn. I am not talking about the state government----
    Mr. Huffman. Right. And as we go forward--and we know that 
the Trump administration is in a red hot hurry to do a lease 
sale at the end of this year--they are completely blind on 
where the oil actually is. But you know where it is, because 
you have those exclusive rights and that exclusive data that 
you are not sharing with anyone. Correct?
    Mr. Glenn. You are talking about one well drilled in over a 
million acres?
    Mr. Huffman. Yes.
    Mr. Glenn. No, you can't determine the quality of any 
single basin by one well in over a million acres.
    Mr. Huffman. Well, you are the only one with any data up 
there. The rest of the world is blind, yet we are rushing 
forward to give this away to big oil. So, I do want to 
congratulate you. You have an Administration right now with the 
Acting Secretary of the Interior, a former oil lobbyist, very 
excited to help you get even richer.
    With that, I yield back.
    Dr. Lowenthal. Thank you.
    I am going to take this opportunity to ask a few more 
questions. If Mr. Westerman or Mr. Huffman wants to follow me, 
that is certainly OK also.
    Mr. Brown, first of all, thank you for your moving 
testimony about the impact, and your own personal impact, in 
terms of fishing and what it has meant to you.
    The question I have is why do you think that, of all 
places, the Arctic National Wildlife Refuge is such a healing 
place for you and other veterans and other under-served youth? 
Why this one place on earth?
    Mr. Brown. Thank you, sir. The Arctic Refuge has impacted 
many lives, youth and veterans, from the experience that I have 
been able to witness and follow through.
    One of the lives that I remembered I will just share with 
you of a young lady by the name of Kolby. She comes from a 
broken home, disconnected background. And she has been with me 
for a little bit close to 3 years. She has grown into a youth 
leader at Soul River.
    She has been to the Arctic twice. Since she has come back, 
she has brought back the learnings and the teachings that 
veterans have been able to educate her about conservation and 
the issues and the sensitivity of what is happening up in the 
Arctic. She has brought that back into her community, and she 
has shared that with her mother and father, down to the basics 
of where her mom and her father, around the ages of 60-plus 
years of age, have never practiced conservation. The basics she 
shared with them was the basics of how to recycle.
    From there on, Kolby has written her own presentation and 
presented this in front of her home high school of her 
experience in the Arctic, and why it is that important.
    But the impact of Kolby doesn't stop there. She has 
actually aged out, and she has left the organization. And then 
one day she comes back in her dress blues, in the officer's 
program, studying to be a doctor, and thinking about how to 
straddle medicine and conservation.
    The impact is great, and it is a domino effect that has 
started from the Arctic down into urban neighborhoods. And 
these are youth that are coming in, and they are getting 
educated, and they are becoming tomorrow's leaders for our 
sensitive environments.
    Dr. Lowenthal. I want to ask you a follow-up question to 
that answer--and that was very helpful to the Committee. You 
describe people who have visited the Arctic National Wildlife 
Refuge and the Coastal Plain, and what that has meant to their 
lives in coming down. Why should other Americans who will 
likely never visit the Arctic National Wildlife Refuge--why 
should they care?
    Mr. Brown. My first deployment into the Arctic was a total 
of 23 participants. Sixteen of the participants were youth. 
When they all came back, they slept on the floor almost a 
month. Parents gave me a call and were wondering what was going 
on with their children, why they are not in bed. And I told 
them that they are still trying to hold on to these special 
moments, embrace what they experience, because it is just that 
special.
    Now, what is happening is that domino effect--what I was 
saying earlier, that these parents are now becoming 
cheerleaders of the organization, they are becoming advocates 
of the Arctic, even though they haven't stepped foot in the 
Arctic. They see the domino effect within their kids of what 
has happened, how they have changed. They are a witness. They 
are actually becoming a witness of their children that I have 
not even seen, other than what I am hearing from the parents. 
Parents are now advocating to other parents, telling their 
children, ``You have to join Soul River, Inc. You have to get 
on that deployment and go to the Arctic.''
    So, parents in urban neighborhoods who have never been are 
becoming advocates of the Arctic National Wildlife Refuge, even 
though they have not been, but they believe in the change, in 
what they are seeing in their own children.
    Dr. Lowenthal. Thank you. I am going to yield back, and I 
am going to offer the same opportunity to my colleague, 
Representative Gosar, the Ranking Member, for any----
    Dr. Gosar. I am sorry I finally got back.
    Dr. Lowenthal. Just at the right time to ask some 
questions, if you have any.
    Dr. Gosar. Mr. Glenn, I am very familiar with the Native 
tribe consortiums. Are they any less tribal?
    Mr. Glenn. No, they are----
    Dr. Gosar. It is just a different way of configuring them, 
right?
    Mr. Glenn. At the creation of Congress, we have been frayed 
into three organizations: the federally recognized tribes; the 
municipalities that take care of municipal services; and the 
Native corporations that settled aboriginal title by an Act of 
Congress. This was not by our design, this was Congress' 
design.
    And I resent the fact that the author of this bill seems to 
think that somehow we are less than human beings because of 
that. We didn't create this. We are trying to abide by the Act 
of Congress in the best way we can.
    Dr. Gosar. I am glad you brought that up, because in 
configuring this, and kind of, I'll be honest with you, forcing 
your hand into this consortium, have they been responsive to 
the individual tribal members more effectively, do you think? 
Because I know in my state of Arizona a number of the tribes 
are actually looking to the consortiums for reorganization, 
because of some of the benefits it has helped them with. Is 
that true?
    Mr. Glenn. By consortiums, I think you mean these Native 
corporations. I think that the Native corporations have brought 
increased benefits back to their membership, their shareholders 
who are tribal members. And by doing so, they have improved the 
quality of life.
    Remember how it all started. It started with the taking of 
aboriginal land that was never lost by any battle, never ceded 
away by any treaty. It took the land and gave us a portion of 
it back as partial compensation for the taking. With this land 
base, we were directed to form these profit-making corporations 
to improve the lives of our shareholders. And that has been our 
goal, that is in our mission, it is still our mission.
    And the fact that we advocate for development on the North 
Slope is less about any single corporate opportunity. As the 
previous person who was questioning me noted, we are a 
successful company. We are all over the place. It is advocating 
for local development in our region to support our local 
government. It is the borough that depends on these tax 
revenues that improves the quality of life with things like 
roads, running water, reliable power.
    Dr. Gosar. So, once again highlight for me, you are no less 
diligent in doing your due diligence about the land. Are you?
    Mr. Glenn. No, we are no less diligent.
    Dr. Gosar. You actually take that into consideration, 
right?
    Mr. Glenn. Yes. If this is about how we treat the land, 
everything, from where we build a road, a water/sewer plant, or 
explore for oil of gas, it is on the land of our ancestors. The 
bones are still in the ground there. We come from a time where 
people weren't even buried within human memory. So, we treat 
all land with respect.
    Yet, we know our communities have to survive. Today's 
modern village communities have a footprint. You can't deny it.
    Dr. Gosar. So, I guess I want to hear it again. You are 
responsive to the whole membership. This is not just a 
corporation. This is a corporation of all peoples within that 
area. Is that true?
    Mr. Glenn. True. The Native corporations are owned by now 
more than 13,000 Inupiat shareholders in our region, and this 
is true for all the regions of the state, probably 100,000 
people.
    Dr. Gosar. Mr. Rexford, would you agree with the assessment 
that we have just had, this colloquy back and forth?
    Mr. Rexford. What do you mean by that, Mr. Gosar?
    Dr. Gosar. Well, we had a discussion, Mr. Glenn and I, in 
regards to the corporation.
    Mr. Rexford. Oh, yes.
    Dr. Gosar. It is just a title, right? There is no 
difference in how you take care of the land.
    Mr. Rexford. Yes, I agree.
    Dr. Gosar. And being much more responsive to people, right?
    Mr. Rexford. Oh, yes. We are responsive to people, as well. 
When any kind of development occurs in our lands and regions, 
we very much care about the environment and the wildlife. We do 
not want to see them decimated.
    It is unfortunate that we have political science that is 
here to just make things harder for us, is how we see it in 
Kaktovik.
    Dr. Gosar. I brought up earlier, I actually got a chance to 
come up to the North Slope. It was phenomenal to be able to see 
that. When we left Fairbanks, to give you an example, it was 64 
degrees, and it was a blizzard on the North Slope.
    So, I guess one more last thing that I would like to know, 
Mr. Rexford--is the caribou herd going down, or growing?
    Mr. Rexford. It changes every year. If you see a map of the 
migration route of the caribou herd, even we question the 
science behind that. What has happened was historical data 
where the migration of the caribou is not the same as it used 
to be when people started gathering the science. It changes 
every year. You can't put a boundary for caribou. You can't say 
where they are going to migrate or calve at any given year.
    Dr. Gosar. Yes. So, Mr. Glenn and then Mr. Rexford on the 
same question. I was told that once you build a road, it is 
forever changed. I have a very different profile of that.
    Could you address that, Mr. Glenn?
    Mr. Glenn. Thank you.
    Dr. Gosar. And then Mr. Rexford.
    Mr. Glenn. First of all, the trails used for seismic 
exploration are on compressed snow, so there are no roads for 
seismic acquisition. After a brief period of time, there is no 
trace of the seismic exploration on the ground at all.
    Second issue regarding roads is there is a credibility 
question here. There are 457 miles of road that comprises the 
Dempster Highway in Canada that crosses right through the upper 
Eagle Plains where the Gwich'in people hunt caribou off the 
road. So, if the roads are so damaging in one part of the 
caribou's migration route, what about the other part of the 
caribou's route?
    And I don't besmirch them for that, I am proud of them. 
Some of the people get to hunt caribou from the road. That is a 
good thing. What I am trying to say is caribou are relatively 
indifferent to infrastructure.
    And if you are talking about the effect of a road on the 
environment, the gravel road forms an insulating blanket over 
the tundra. If the tundra is changing, it is going to change 
less underneath a well-built road.
    Dr. Gosar. Mr. Rexford, do you have anything to add?
    Mr. Rexford. Thank you. I almost didn't have a chance to 
get here. I was trying to get from my community to Anchorage, 
Alaska to make a flight to here, to DC, from Monday through 
Thursday. And the weather was looking bad all the way past the 
weekend. I am from Kaktovik. We are on Barter Island. We are 
off the highway system. There are no roads coming in and coming 
out of our community. The only way to travel is by air or by 
snow machine or boat.
    Dr. Gosar. Thank you.
    Dr. Lowenthal. I want to thank the witnesses for their 
testimony and the Members for their questioning.
    The members of the Committee may have some additional 
questions for the witnesses from both panels, and we are going 
to ask you, members of the panel and the first panel, to 
respond in writing. Under Committee Rule 3(o), members of the 
Committee must submit their witness questions within 3 business 
days following this hearing. And the hearing record will be 
open for 10 business days following that for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 5:13 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Rep. Huffman

                   Slide Presented During the Hearing

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 __
                                 
                   Testimony Submitted for the Record
  from Friends of Animals, Wildlife Law Program, Centennial, Colorado
                    by Michael Ray Harris, Director

Re: The Arctic Cultural and Coastal Plain Protection Act
    Dear Committee Members:

    Friends of Animals (FoA) \1\ submits this testimony in support of 
H.R. 1146, the Arctic Cultural and Coastal Plain Protection Act, and 
the repeal of section 20001 of Public Law 115-97. FoA represents a 
broad and diverse constituency that deeply believes that the Arctic 
National Wildlife Refuge deserves protection and that the oil and gas 
activities on the Coastal Plain will cause irreparable harm to the 
crown jewel of our nation's Refuge system.
---------------------------------------------------------------------------
    \1\ Friends of Animals is a non-profit international advocacy 
organization incorporated in the state of New York since 1957. FoA has 
nearly 200,000 members worldwide. FoA and its members seek to free 
animals from cruelty and exploitation.
---------------------------------------------------------------------------
    The Arctic Refuge is home to some of the most stunning populations 
of wildlife in the world. In addition to the Porcupine Caribou herd, 
polar bears, and musk oxen, hundreds of species of migratory birds make 
their way to the Coastal Plain for its rich and varied ecosystems and 
excellent denning, nesting, and forage grounds.
    The Coastal Plain of the Arctic National Wildlife Refuge is one of 
our nation's most iconic wild areas and it deserves the most stringent 
levels of protection. H.R. 1146 is an important step toward protecting 
the Refuge from adverse impacts caused by oil and gas development.
    Climate change intensely impacts the Arctic because the Arctic is 
warming at more than double the rate of the rest of the country. The 
Refuge supports the highest density of land denning for polar bears, as 
melting sea ice forces bears inland. In his testimony at the 
subcommittee hearing, Dr. Steven C. Amstrup, the chief scientist of 
Polar Bears International, explained that oil and gas development on 
the Arctic National Wildlife Refuge Coastal Plain would accelerate the 
decline of the region's already imperiled polar bear population. Polar 
bears depend on sea ice for catching their prey and sea ice extent is 
directly related to global mean temperature. Allowing oil and gas 
extraction of the Coastal Plain will directly impact the polar bear 
because it perpetuates unsustainable dependence on fossil fuel and 
would remove protections of critically important onshore polar bear 
habitat. In addition, oil and gas development will increase risks to 
maternal denning polar bears and cause fragmentation of vital Arctic 
Refuge polar bear habitats.
    In addition, oil and gas development in the Arctic National 
Wildlife Refuge Coastal Plain would negatively impact the Porcupine 
Caribou herd. Drilling would cause lower birth rates and threaten 
migrations. Pregnant females reside in the Coastal Plain when they give 
birth because the food on the Coastal Plain helps the mother provide 
rich milk and nutrition for the new calves. The breeze on the Coastal 
Plain protects the calves from mosquitoes, which can kill a newborn 
calf. If the caribou were forced to leave their habitat due to oil and 
gas development, it would cause significant risk to the calves because 
the Coastal Plain has fewer predators than other areas.
    Oil and gas leasing, exploration, and development would further 
damage the quality and health of important natural resources like 
wildlife, air, water, and land. These resources have intrinsic value 
and oil and gas development would cause irreversible damage that will 
be felt by many generations to come. Repealing section 20001 of Public 
Law 115-97, H.R. 1146 will help protect our natural world and move 
toward a sustainable future.
    In conclusion, we believe that the Arctic National Wildlife Refuge 
should remain a symbol of America's purity. Moreover, informed people 
recognize that the 19.6 million-acre Refuge is a national treasure. Its 
abundant wildlife is worth protecting from oil and gas companies for 
oil we don't need. Thus, FoA supports passage of the Arctic Cultural 
and Coastal Plains Protection Act (H.R. 1146).

                                 ______
                                 

Submission for the Record by Rep. Gosar

                  Slides Presented During the Hearing

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               *****
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               *****
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         [MISCELLANEOUS MATERIALS SUBMITTED FOR THE RECORD]

                                                      April 8, 2019

Hon. Alan Lowenthal, Chairman,
House Subcommittee on Energy Mineral Resources,
Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Correction of Representative Don Young's misleading statements on 
        the Gwich'in Nation

    Dear Chairman Lowenthal:

    We write today on behalf of the Gwich'in Nation to request you 
submit this letter to the official record for the U.S. House of 
Representatives Subcommittee on Energy and Minerals hearing on H.R. 
1146, The Arctic Cultural and Coastal Plain Protection Act,'' that took 
place on March 26, 2019.
    The Gwich'in Steering Committee was created by the Gwich'in Nation 
to speak with a unified voice on behalf of our tribes across the United 
States and Canada to protect the Porcupine Caribou Herd. During the 
hearing, Representative Don Young (R, AK) misrepresented himself as 
Gwich'in and disrespected the Gwich'in representatives who were invited 
to testify at the hearing. Representative Young made several incorrect 
and inappropriate remarks, including the following:

    <bullet> Representative Young stated ``My tribe is Gwich'in.'' This 
            is false. Representative Young is not Gwich'in, and is in 
            fact originally from California, not Alaska. Having a 
            native spouse does not confer tribal membership, nor does 
            it provide an inherent understanding of native issues or a 
            right to speak on behalf of tribes. Representative Young is 
            not an appointed member of the Gwich'in Steering Committee, 
            nor is he a member of any Alaska Native tribe. 
            Representative Young does not speak for or represent the 
            Gwich'in.

    <bullet> Representative Young stated the Gwich'in are 
            ``foreigners'' and do not live in the Refuge. For millennia 
            the Gwich'in have lived within the boundary of the 
            Porcupine Caribou Herd's range, including in what is now 
            known as the Arctic National Wildlife Refuge, and have 
            relied on the herd for sustenance and our way of life. The 
            Gwich'in live in fifteen villages spread across a vast area 
            extending from northeast Alaska to the northern Yukon and 
            Northwest Territories in Canada. The ancestral homeland of 
            the Gwich'in follows the migratory route of the caribou. 
            The Gwich'in call the Coastal Plain area under 
            consideration in H.R. 1146 ``Izhit gwat'san gwandaii 
            goodlit,'' ``the sacred place life begins.'' The Gwich'in 
            view this area as too sensitive and sacred to visit, as it 
            serves as the calving ground for the Porcupine Caribou 
            Herd. Oil and gas activities on the Coastal Plain would 
            inflict devastating impacts on the Porcupine Caribou Herd, 
            and negatively affect Gwich'in subsistence and cultural 
            practices. Development in this sacred area is an affront to 
            our human rights and way of life.

    <bullet> There have been assertions that the Gwich'in 
            representatives are engaged in the fight to protect the 
            Refuge because of ``free trips'' outside of Alaska, 
            suggesting Gwich'in representatives are engaging in 
            tourism. Nothing could be farther from the truth. Gwich'in 
            representatives make the arduous journey from Alaska and 
            Canada to DC, which requires a minimum of two flights and 
            14 plus hours of travel time, to defend the traditional 
            calving grounds of the Porcupine Caribou herd in front of 
            US officials and leadership. This means spending time away 
            from families and taking unpaid leave to fight to protect 
            the refuge. We do this because of the importance of the 
            Porcupine Caribou Herd and its birthing grounds to our 
            identity and way of life, and the need to protect the herd 
            for future generations. Our very survival depends on its 
            protection.
    Representative Young does not speak on behalf of the Gwich'in 
Nation.

    Thank you for considering these comments and submitting them to the 
official record.

            Sincerely,

        Bernadette Demientieff, Ex. 
        Director,                     Galen Gilbert, First Chief,
        Gwich'in Steering Committee   Arctic Village

        Dana Tizya-Tramm, First 
        Chief,                        Sam Alexander,
        Old Crow Yukon Territory      Gwich'in Leader

                                 ______
                                 

                   Testimony Submitted for the Record
                          from Allen E. Smith
                          Olympia, Washington

Re: H.R. 1146, The Arctic Cultural and Coastal Plain Protection Act

To: The Honorable Alan Lowenthal, Chairman and Members of the 
Subcommittee:

    Thank you for the opportunity to present my written testimony to be 
included in the hearing record in support of H.R. 1146, the Arctic 
Cultural and Coastal Plain Protection Act of 2019, an ACT to amend P.L. 
115-97 to repeal Section 20001, the Arctic National Wildlife Refuge oil 
and gas program. My name is Allen E. Smith and I reside in Olympia, 
Washington. I am an environmental consultant and writer with over 45 
years-experience with Alaska wildlife and wilderness conservation 
issues. I served The Wilderness Society for 20 years as Vice President, 
Alaska Regional Director and Senior Policy Analyst, and Arctic 
Consultant. I previously served as President/CEO of Defenders of 
Wildlife, Executive Officer of the Land & Natural Resources Division, 
USDOJ, and as Chief Financial Officer of the Sierra Club. I served in 
the U.S. Marine Corps and graduated from the University of NH in 
Business and Engineering.
    Over the past 30 years I have been deeply privileged to visit and 
experience the Arctic National Wildlife Refuge Coastal Plain 
professionally and recreationally at least a dozen times and have 
witnessed in awe its extraordinary wildlife and wilderness values. I 
have also visited Arctic Village, Venetie, and Kaktovik and witnessed 
the reliance that the Gwich'in and Inupiat indigenous Native 
communities place on the subsistence values the wildlife of the Coastal 
Plain provide for their historic and cultural subsistence lifeways. The 
current administration has failed to recognize the significant negative 
impacts proposed oil and gas development would have on the Arctic 
Refuge Coastal Plain and those indigenous Native communities, forcing 
them from their historical and cultural subsistence way of life and 
from their homelands. I have also witnessed the increasingly 
significant impacts of climate change rapidly taking place at an 
alarming rate in the Arctic that will be exacerbated by oil and gas 
development on the Arctic Refuge Coastal Plain and prevent the 
continuation of development as permafrost melts.
    Congress erred in passing Section 20001 of P.L. 115-97, the 2017 
Tax Cuts and Jobs Act. Besides creating an unrealistic tax revenue 
expectation from coastal plain development, the unintended consequence 
of Congress' action is ``termination legislation'' because it will 
certainly force the Gwich'in to leave their way of life because of the 
irreparable harm development will cause to their subsistence lifeways. 
It is equally wrong to allow the U.S. Department of the Interior (USDI) 
to rush ahead with leasing plans that exceed the limits of P.L. 115-97 
and would destroy the extraordinary wild natural values found there 
that those communities rely on for their very lifeway. Further, the 
administration has not considered that development would hasten climate 
change on the Coastal Plain, is inadequate in its analysis of these 
negative outcomes, and does not meet the requirements of the National 
Environmental Policy Act (NEPA). There is ample evidence that we cannot 
burn all the hydrocarbons on Earth and overcome the ravages of climate 
change. If we are to arrest climate change, it does not matter what oil 
and gas may or may not be in the Arctic Refuge--we should let it be and 
not develop it. Congress should repeal Section 20001 of P.L. 115-97 
now.
    Congress passed the landmark Alaska National Interest Lands 
Conservation Act P.L. 96-487 (ANILCA) in 1980, which proscribed the 
inter-related purposes of the Arctic National Wildlife Refuge in law to 
protect it as follows:

        ANILCA Sec. 303. (2)(B) The purposes for which the Arctic 
        National Wildlife Refuge is established and shall be managed 
        include--

        (i) to conserve fish and wildlife populations and habitats in 
        their natural diversity including, but not limited to, the 
        Porcupine caribou herd (including participation in coordinated 
        ecological studies and management of this herd and the Western 
        Arctic caribou herd), polar bears, grizzly bears muskox, Dall 
        sheep, wolves, wolverines, snow geese, peregrine falcons and 
        other migratory birds and Arctic char and grayling;

        (ii) to fulfill the international treaty obligations of the 
        United States with respect to fish and wildlife and their 
        habitats;

        (iii) to provide, in a manner consistent with the purposes set 
        forth in subparagraphs (i) and (ii), the opportunity for 
        continued subsistence uses by local residents; and

        (iv) to ensure, to the maximum extent practicable and in a 
        manner consistent with the purposes set forth in paragraph (i), 
        water quality and necessary water quantity within the refuge.

    In enacting Section 20001 of P.L. 115-97, the 2017 Tax Cuts and 
Jobs Act, Congress mistakenly added another purpose to the Arctic 
Refuge--to provide for an oil and gas program on the Coastal Plain. 
This additional purpose is totally inconsistent and incompatible with 
the legally established ANILCA purposes of the Refuge listed above 
because it will contravene those ANILCA purposes to cause lasting 
damage to animal and plant diversity, disrupt subsistence activities, 
upset water quality and quantity, and disregard international wildlife 
protection treaty obligations legally demanded by those ANILCA 
purposes. USDI has failed to analyze how oil and gas development will 
interfere with the originally stated purposes of the Refuge.
    Since the passage of P.L. 115-97, USDI has ignored the legal 
requirements to first establish and evaluate an oil and gas program 
under NEPA review before making plans for lease sales, and has instead 
rushed ahead with a plan and Environmental Impact Statement (EIS) that 
makes wholesale allowances for major oil and gas support infrastructure 
to be built outside of the 2,000 acre development footprint legally 
allowed under P.L. 115-97, Section 20001 in order to fast-track lease 
sales as soon as possible. These brazen steps resulted in limited 
public access and participation in the process while USDI continued to 
work behind the scenes during the recent government shutdown. USDI's 
compressed EIS scoping, inadequate Draft EIS (DEIS), omission of 
science reviews, disregard of the 2,000 acre footprint limitation, 
disregard for indigenous Native knowledge, lack of thorough analysis, 
and short public comment period has created a development disaster 
waiting to happen. USDI has totally failed to meet its legal 
obligations for development in the Arctic Refuge and should not be 
allowed to proceed with it.
    There are internationally significant wildlife species and 
populations protected by the ANILCA purposes for the Arctic National 
Wildlife Refuge and international treaties that rely on the coastal 
plain for critical habitat and food that would be irreparably harmed by 
oil and gas development there, as would water resources.
    The 200,000 animal Porcupine Caribou Herd (PCH) annually migrates 
from Canada onto the Coastal Plain and fully occupies its entire area 
moving back and forth across the plain like a giant wave of life for 
calving, replenishing nutrition, predator avoidance, and insect relief.
    Polar bears are listed as threatened under the Endangered Species 
Act and 77 percent of the Arctic Refuge Coastal Plain is designated 
polar bear Critical Habitat. The Southern Beaufort Sea population of 
polar bears has lost about half its population since 1980, about one-
third of these bears increasingly depend on the Coastal Plain to den 
and give birth to their cubs as sea ice retreats, and this area of the 
Arctic Refuge is now one of the world's largest land based polar bear 
denning sites.
    Over 200 species of birds from every U.S. state and six continents 
nest on the Arctic Refuge coastal plain which provides essential 
nesting, foraging, and migratory stop-over for millions of birds each 
year.
    The Arctic Refuge Coastal Plain is one of the world's most 
extraordinary intact wilderness and wildlife areas by any measure of 
ecological value or wilderness character as officially reported through 
decades of detailed studies of it and by those who have traveled there 
and bear witness to those internationally unique values. As an 
undisturbed ecosystem, it is also a benchmark standard to measure the 
health of the planet against.
    Imagine a place so vast and wild that you see something new every 
time you visit it and yet each time you see unique ecological patterns 
shaped by millennia of repeated annual cycles on a grand scale as old 
as time. A place where bands of white Dall sheep peer down on you from 
the cliffs above as you float north through the Brooks Range toward the 
Coastal Plain; where millions of birds come from all over the world to 
sing, feed, breed and fledge their young; where tens of thousands of 
caribou move back and forth across the Coastal Plain between the 
Beaufort Sea and the Brooks Range like a sea of life to feed, give 
birth, and avoid predators and mosquitoes; where wolves and grizzly 
bears chase caribou, where Grizzly bears boldly come into your camp; 
where you can see 88 muskox in the course of one day as you float down 
the Canning River; where polar bears den and have their cubs in winter 
and line the gravel crest of Icy Reef on the coast with their post-hole 
tracks in summer for miles and miles; and a place where a large lone 
wolf trots past your rest stop along the Hulahula River under the pale 
yellow light of a late summer evening briefly pausing to look you over. 
Having personally witnessed all of that in this great wilderness is an 
unforgettable privilege, in a place so vibrant that wildness runs 
through it like the blood of life. It is the gold standard for all 
Wilderness Areas, a magical place.
    The relatively narrow coastal plain of the Arctic Refuge cannot be 
developed without destroying those ecological and wilderness values. 
The density and intensity of wildlife use there is too great and 
geographically concentrated to absorb any industrial development. The 
vast network of seismic survey lines, hundreds of miles of permanent 
roads and pipelines, airstrips, and associated infrastructure that 
would be brought by development would be like a coarsely woven giant 
fish-net thrown across the Coastal Plain ensnaring that wildlife and 
displacing it from its historic migrations and natural patterns of use. 
One has to look no farther than west to Prudhoe Bay to see what the 
result would be--a densely developed industrial zone visible from space 
where climate change is already taking its toll with rising 
temperatures, melting permafrost, collapsing oil wells, and shorter 
frozen ground seasons for mechanized over tundra access.
    By contrast, a national investment in an energy policy that 
emphasizes Conservation, Alternatives, Renewables, and Efficiencies to 
reduce our dependence on all oil would be environmentally, 
economically, and nationally more secure and would eliminate the need 
to sacrifice this and other ecological treasures for whatever oil may 
or may not be there--Call it the C.A.R.E. energy policy. We cannot 
survive if we continue to pursue energy policies that would have us 
burn all of Earth's hydrocarbons. In the face of rapidly increasing 
impacts of climate change can we afford not to make that investment in 
a C.A.R.E. energy policy?
    The human rights of indigenous Native Athabaskan Gwich'in Indians 
living in villages south and east of the Brooks Range in Alaska and 
Canada would be compromised and their reliance on the Porcupine Caribou 
Herd for their cultural and traditional subsistence way of life would 
be destroyed by oil and gas development on the Arctic Refuge Coastal 
Plain. That would be an environmental racial injustice of monumental 
proportions.
    As a non-Native, I cannot speak for the Gwich'in, but from visiting 
their villages and working with them I can make value based 
observations about their needs and human rights. They are indigenous 
Natives who were here first and have a legal right to exist and prosper 
in their cultural and traditional way of life as they have for 
millennia. Examining the purposes of ANILCA and the Arctic Refuge and 
the history of Native law shows that Congress has guaranteed those 
rights. Any claims that have been made by proponents of oil and gas 
development that the Gwich'in must adapt in the face of our perceived 
need for oil are condescending and unfounded. To the Gwich'in, the 
Arctic Refuge Coastal Plain is ``the sacred place where life begins.'' 
Must we destroy them and their culture that others might have the last 
drop of oil? No. Morally, that cannot be justified. We are the ones who 
must adapt.
    Oil and gas development cannot take place on the Arctic National 
Wildlife Refuge Coastal Plain without contravening the legal purposes 
of the Arctic Refuge established by Congress under ANILCA and cannot be 
undertaken there without destroying the wildlife and wilderness values 
protected in law causing irreparable harm to the subsistence 
communities that rely on those values. No amount of analysis can 
honestly escape the devastating realities of what that development 
would do to the internationally significant wildlife values and 
subsistence communities that rely on that extraordinary wilderness. 
Whatever oil and gas may or may not be there, we should leave it there.

    The Arctic National Wildlife Refuge Coastal Plain is wild and free, 
let it be.

    I oppose any oil and gas development on the Arctic National 
Wildlife Refuge Coastal Plain and strongly recommend that Congress pass 
H.R. 1146 to amend P.L. 115-97, the 2017 Tax Cuts and Jobs Act to 
repeal Section 20001.

    Again, thank you for the opportunity to submit my written testimony 
to the Subcommittee on Energy and Mineral Resources to be included in 
the hearing record on H.R. 1146.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. DeGette

    --  Community Hearing to Defend the Arctic National 
            Wildlife Refuge, held March 7, 2019 at The Alliance 
            Center, Denver, Colorado.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
